<html>
<title> - YELLOWSTONE NATIONAL PARK BISON</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                         YELLOWSTONE NATIONAL


                              PARK BISON

=======================================================================

                           OVERSIGHT HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS
                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             March 20, 2007

                               __________

                            Serial No. 110-7

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov




                      U.S. GOVERNMENT PRINTING OFFICE
34-137 PDF                    WASHINGTON  :  2007
---------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government
Printing Office Internet:  bookstore.gpo.gov Phone:  toll free (866)
512-1800; DC area (202) 512-1800 Fax: (202)512-2250 Mail: Stop SSOP,
Washington, DC 20402-0001 



                     COMMITTEE ON NATURAL RESOURCES

               NICK J. RAHALL II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Ken Calvert, California
Frank Pallone, Jr., New Jersey       Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Grace F. Napolitano, California      Rick Renzi, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Raul M. Grijalva, Arizona            Henry E. Brown, Jr., South 
Madeleine Z. Bordallo, Guam              Carolina
Jim Costa, California                Luis G. Fortuno, Puerto Rico
Dan Boren, Oklahoma                  Cathy McMorris Rodgers, Washington
John P. Sarbanes, Maryland           Bobby Jindal, Louisiana
George Miller, California            Louie Gohmert, Texas
Edward J. Markey, Massachusetts      Tom Cole, Oklahoma
Peter A. DeFazio, Oregon             Rob Bishop, Utah
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Patrick J. Kennedy, Rhode Island     Dean Heller, Nevada
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth, South Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                   Jeffrey P. Petrich, Chief Counsel
                 Lloyd Jones, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Rick Renzi, Arizona
Dan Boren, Oklahoma                  Stevan Pearce, New Mexico
John P. Sarbanes, Maryland           Henry E. Brown, Jr., South 
Peter A. DeFazio, Oregon                 Carolina
Maurice D. Hinchey, New York         Louie Gohmert, Texas
Ron Kind, Wisconsin                  Tom Cole, Oklahoma
Lois Capps, California               Dean Heller, Nevada
Jay Inslee, Washington               Bill Sali, Idaho
Mark Udall, Colorado                 Doug Lamborn, Colorado
Stephanie Herseth, South Dakota      Don Young, Alaska, ex officio
Heath Shuler, North Carolina
Nick J. Rahall II, West Virginia, 
    ex officio
                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on March 20, 2007...................................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
    Rahall, Hon. Nick J., II, a Representative in Congress from 
      the State of West Virginia.................................     3

Statement of Witnesses:
    Clifford, John, DVM, Deputy Administrator for Veterinary 
      Services, Animal and Plant Health Inspection Service, U.S. 
      Department of Agriculture..................................    14
        Prepared statement of....................................    16
    Hagenbarth, Jim, Montana Stockgrowers Association............    61
        Prepared statement of....................................    62
    Kay, Dr. Charles E., Institute of Political Economy, Utah 
      State University...........................................    66
        Prepared statement of....................................    69
    Nazzaro, Robin M., Director, Natural Resources and 
      Environment, U.S. Government Accountability Office.........    19
        Prepared statement of....................................    21
    Osher, Joshua, Coordinator, Buffalo Field Campaign...........    43
        Prepared statement of....................................    45
    Pacelle, Wayne, President and CEO, The Humane Society of the 
      United States..............................................    55
        Prepared statement of....................................    57
    Rehberg, Hon. Dennis R., a U.S. Representative in Congress 
      from the State of Montana..................................     4
    Schweitzer, Hon. Brian, Governor, State of Montana...........     7
        Prepared statement of....................................     9
    Soukup, Michael, Associate Director, Natural Resources 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior.................................    12
        Prepared statement of....................................    13
    Stevens, Tim, Yellowstone Program Manager, National Parks 
      Conservation Association...................................    50
        Prepared statement of....................................    52


          OVERSIGHT HEARING ON YELLOWSTONE NATIONAL PARK BISON

                              ----------                              


                             March 20, 2007

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittee met, pursuant to call, at 10:01 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representatives Grijalva, Bishop, Heller, Inslee, 
Kind, and Rahall.

    STATEMENT OF HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. The Subcommittee on National Parks, Forests 
and Public Lands will come to order. This is an oversight 
hearing on Yellowstone National Park Bison. First let me just 
say I am pleased to welcome my colleagues and our distinguished 
panelists to this oversight hearing on the Yellowstone Park 
Bison. Many of our witnesses have traveled great distances, and 
we appreciate their efforts.
    It is a particular pleasure to welcome the Representative 
from Montana as well as the Governor of Montana. Welcome. Their 
passion and energy on behalf of their state are obvious, and 
their perspectives are certainly welcome today.
    Management of national parks often raises complicated 
issues. Bison management in and around Yellowstone National 
Park, however, continues to be more complicated than most 
issues. It is the purpose of this oversight hearing, along with 
a GAO review requested by Chairman Rahall to explore the 
complexities of this issue so that we as policymakers can make 
informed decisions as we go forward. Ultimately our goal should 
be the same as those included in the interagency bison 
management plan when it was first adopted in 2000.
    Any legitimate threat of disease must be managed 
effectively but of equal importance the slaughter of bison 
needs to stop. The management plan--as it has been implemented 
to date--appears to have achieved the former but not the 
latter. That is one change that needs to occur. Effective 
disease control and free-roaming bison are not mutually 
exclusive. Given the enormous scientific and financial 
resources of the Departments of Interior and Agriculture, along 
with the resources and expertise of Montana, Wyoming and Idaho, 
I am confident that bison and cattle can be managed in a way 
that is not a death sentence for either species.
    We look forward to our witnesses' insights regarding the 
challenges we face in achieving these goals, and I would now 
recognize Mr. Bishop for any opening statements he may have.

STATEMENT OF HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS FROM 
                       THE STATE OF UTAH

    Mr. Bishop. Thank you, Mr. Chairman. I appreciate that. I 
have to admit with the myriad of troubles that are besetting 
the national parks and our forests and public lands, it is a 
bit unsettling that we are devoting time today to readdress an 
issue that has driven us much by politics as it is by science. 
As it pertains to the management in the past of bison in 
Yellowstone National Park, on several occasions members of the 
Resources Committee have sought to prohibit the National Park 
Service from actively managing the bison population in 
Yellowstone by offering limitation amendments--which is the 
absolutely worst form of legislative policy--on the ``must 
pass'' appropriations bill.
    Even with that being said, I look forward to listening to 
today's witnesses. I appreciate Congressman Denny Rehberg being 
here. As a rancher and former member of this committee and a 
Representative of the State of Montana, he understands better 
than anyone in Washington this issue and impact of the policies 
which are being advocated by some of the witnesses here today 
will have on the agriculture-dependent communities in his 
district. If this Subcommittee is to give deference to anyone 
when it comes to public lands issues, it should be Congressman 
Rehberg.
    It is also my privilege to welcome Dr. Charles Kay from 
Utah State University. Among other things his testimony notes 
the historical records of 20 different expeditions into 
Yellowstone between 1835 and 1876. These are the expeditions 
which reported seeing bison only three times, none of which 
were in the present day boundaries of the Park itself. Dr. Kay 
is a preeminent and well-recognized expert on the management 
issues impacting Yellowstone National Park and similar park 
property in Canada. He also happens to live in my district and 
work in my district which is why I have to be really nice to 
him. So I welcome Dr. Kay and thank him for being here.
    I also appreciate Governor Schweitzer visiting us one more 
time. I certainly hope you have a good lieutenant Governor back 
there in Montana keeping the state running in your absence. I 
appreciate you being here. In fact, the last time you were here 
we noted how the western states--those 13 public land states in 
the west--have about 50 percent of their land owned by the 
Federal government.
    I note that Montana has probably the best deal in the 
bunch. You have only 28 percent of your land owned by the 
Federal government as opposed to 70 in my state, 90 in Nevada. 
You know you have the better opportunity of funding your 
education, building your economy there. So I am going to be 
interested to see how you play this good hand that has been 
dealt to you up there in Montana as opposed to the rest of the 
west.
    It is interesting to note that Yellowstone National Park 
comprises 2.2 million acres, and is larger than the combined 
land area of the entire states of Delaware and Rhode Island, 
and if that is not enough land area to manage the bison herd, 
then we are never going to find a solution. I fear the issue of 
bison leaving the Park is being used by some as a pretext to 
expand the Park, acquire additional Federal lands for habitat 
or control the already limited private property in the west.
    Further, I can understand why the bison are leaving the 
Park. Since the reintroduction of the wolf in the Park, an 
animal which makes a pretty picture on the cover of brochures, 
but when they take down and devour an animal, it is a gruesome 
and brutal sight. If I were a bison, I would want to leave the 
Park too.
    Mr. Chairman, I would hope that as part of today's hearing 
we will look at ways in which we address the management issues 
impacting Yellowstone National Park, such as controlling the 
bison herd at a manageable level, protecting the grazing rights 
of current permittees, assuring the multi use and accesses that 
are available. Hopefully we can also rediscover what worked 
historically in controlling the size of the herd and the 
control of the disease itself.
    We should also touch on the issue of elk, equally 
problematic, and the issue of brucellosis control. We should 
not use this hearing to advocate views espoused by fringe 
groups but further we must not permit the bison herds of 
Yellowstone to jeopardize the livelihood of local ranchers. 
These ranchers rely on the public lands through grazing permits 
to sustain their livestock. Ranchers are the real 
environmentalists. They have to be to survive, and they may 
indeed--as one will testify--be the only link to open space 
preservation in the future. With that I thank you, Mr. 
Chairman. I look forward to the witnesses.
    Mr. Grijalva. Thank you, Mr. Bishop. At this point let me 
turn to the Chairman of the Natural Resources Committee, Mr. 
Rahall, Mr. Chairman, for any opening comments he might have.

   STATEMENT OF HON. NICK J. RAHALL, II, A REPRESENTATIVE IN 
            CONGRESS FROM THE STATE OF WEST VIRGINIA

    Mr. Rahall. Thank you, Chairman Grijalva. I appreciate your 
having these hearings today and allowing me the opportunity to 
say a quick word. I believe we can all agree that the bison is 
a symbol of America. Like the monuments on our National Mall or 
like the dome of the Capitol, the bison is an American icon. 
These magnificent beasts are woven into the fabric of our 
culture, not to mention being sewn onto the fabric of every 
uniform worm by an employee of the Department of Interior.
    After a century of wanton slaughter, we have a small herd 
in Yellowstone National Park, the last remaining example of the 
pure bred, free-roaming bison left in this country. Is it any 
wonder then that the American public periodically looks on in 
horror at footage of employees of the U.S. Department of 
Interior participating in the slaughter of Yellowstone bison?
    The general public is under the impression that these 
animals are being sheltered and protected by the Federal 
government, not rounded up and shot, and the obvious question 
is why? Why the Department of Interior is murdering its beloved 
mascot? We are told that it is due to the threat of disease. 
During the harsh winter months, bison migrate out of the 
Yellowstone National Park to lower elevations in a desperate 
attempt to avoid starving to death.
    Once they leave the Park, we are told they can come into 
contact with cattle grazing on public and private land, and 
some of the bison may carry a disease which can be dangerous to 
cows. But here is the critical point. Here is the critical 
point. The transfer of this disease from bison to cattle has 
never happened in the wild. Has never happened in the wild. 
Never--and I rarely use that word never, if ever.
    The slaughter of bison is not required in order to manage 
the threat of disease. Slaughter is not management. It is an 
approach from a bygone era, and has no place in a time of rapid 
scientific and economic progress. We are capable of more 
ingenuity and more compassion if we are willing to try. So that 
is why once again today we welcome the Governor of the State of 
Montana, Brian Schweitzer, before this committee, and I would 
say to my colleague, Mr. Bishop, I think he can do two things 
at once, and govern the state from here in Washington as 
effectively as back home on the home front, and from him I look 
forward to hearing bold initiatives to end the status quo.
    Indeed during July of 2003, as has already been referenced 
in statements made, I offered an amendment on the House Floor 
to halt the National Park Service participation in the 
slaughter. It was narrowly defeated during one of those 
infamous votes under which the then Republican majority held 
the vote open long enough until enough arms could be twisted to 
change the initial outcome and to achieve the desired result of 
that majority.
    That vote was a harbinger of what will come. The status quo 
is no longer sufficient. So I conclude by saying, Mr. Chairman, 
it is my hope that through this oversight hearing you have 
called today, along with the results of the GAO review that I 
requested, we will move on to a new path, a path that values 
both the bison and the cattle. Thank you.
    Mr. Grijalva. Thank you, Mr. Chairman. Let me just remind 
our three panels that testimony is limited to five minutes. Any 
statement that you might have will be made part of the record 
in its entirety, and with that let me welcome our colleague, 
Mr. Rehberg. Congressman Rehberg, welcome, and if you would 
like to begin your testimony at this point.

STATEMENT OF HON. DENNIS REHBERG, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF MONTANA

    Mr. Rehberg. I will, and thank you, Mr. Chairman, for 
giving me the opportunity once more to appear before your 
committee. If my leadership had given me the waiver that I had 
asked for, I would be sitting on the dais with you, and I would 
not have to keep asking permission to talk about the issues 
that are so very important to Montana. To Mr. Bishop, thank you 
as well for your kind remarks, and Mr. Rahall, thank you for 
giving me one more opportunity to come in and tell you why you 
are wrong.
    I will suggest that the State of Montana is in good hands 
when Governor Schweitzer is here because his Lieutenant 
Governor is a Republican, and so we feel a lot more 
comfortable. Sometimes I feel like I spend more time in Montana 
than he does, and he is in Washington more than I but we will 
move along to something that we think is very important in 
Montana.
    I sometimes jokingly say in Montana, do you know why the 
Internet is so successful? Because the government has not 
figured out how to screw it up yet. If you mess with this 
memorandum of understanding, you will be screwing up a very 
complex management opportunity to eradicate brucellosis and do 
all the things that came together in a memorandum of 
understanding that was signed by many government entities in 
the year 2005.
    What does the former Chairman of the Republican Party, Mark 
Racicot, Bruce Babbitt and Dan Glickman have in common? 
Probably not a lot but under the Clinton Administration, they 
finally came to a 20-year decision to try and end the 
bickering, try and end the lawsuits, try to end the emotional 
outbursts that occurred from time to time, sometimes semi-
violent, by coming together with an understanding that 
something needed to be done to try and manage the situation 
having to do with the bison in Yellowstone Park.
    Oftentimes I feel like there are those around the country 
that see Montana through the eyes of either ``Blazing Saddles'' 
or ``A River Runs Through It'' but I can tell you it is very 
difficult to manage natural resources, and as a result of that 
difficulty it is also very emotional. You get the polarization 
on both sides. That is what we had moving into the year 2000.
    We had a lawsuit. We had a counter lawsuit. We had a 
counter counter lawsuit. We had threats of violence and guts 
being thrown on our former Governor, and ultimately we all came 
to a very emotional decision that it was time to lay those 
differences aside and come to an agreement. It was signed by 
Dan Glickman of the Department of Agriculture, Bruce Babbitt of 
the Department of Interior, and Mark Racicot, our Governor.
    I am struck a little bit by the fact that missing from the 
panels discussing today are the Native Americans who were a 
major part of the decisions, and are a major part of the 
management opportunities. This memorandum, this understanding 
and this decision was a compromise that was agreed to by the 
Courts as a result of Court-appointed mediation. This was not 
something that was just thrown together to slaughter our bison.
    What did it accomplish? It determined the size of the herd. 
Now I hate to tell you but when you get a male buffalo and a 
female buffalo together, you are going to have baby buffalo. It 
is just a fact of natural life. Ultimately you have to make the 
determination what is the carrying capacity for the betterment 
and the health of the Park? Ultimately you will have too many 
buffalo. There is no other way than to move those bison off 
that Park, and ultimately there is a limitation on how many 
buffalo that other tribes and entities can take. You are not 
going to end the slaughter for practical reasons, for natural 
reasons.
    The second is defining a boundary line, making a 
determination where do we want to limit the opportunity or the 
ability for these bison to go? The third is public safety. 
Little known fact. In the Center for Disease Control, anthrax 
is number one. Brucellosis is number two. It is called undulant 
fever in humans. You get it. You keep it. It never goes away.
    Protection of private property. Fact of life: In America, 
private property does still matter in spite of the feeling of 
some people within the Federal government that it is just a 
temporary holding spot for Federal property or Federal 
purchase. Agency actions were supposed to have shown the 
eventual elimination of brucellosis in Yellowstone Park.
    Unfortunately for us with the actions of the continuing 
resolution under the new Congress, one of the earmarks that was 
lost to us was the continuing vaccine research at Montana State 
University for brucellosis vaccine, something that I hope to 
try and rectify in this upcoming budgetary process. Protection 
of livestock. Make no mistake. Perhaps it has not been proven 
that a cow has aborted as a result of brucellosis but it is a 
fact they do. Because we are not out in nature, because we do 
not watch the connection between the cattle and the bison does 
not mean it does not exist. It is just that we have not seen it 
occur.
    It does cause spontaneous abortion in cattle, and the 
brucellosis-free status of the State of Montana I cannot begin 
to tell you the economic devastation that would occur to our 
livestock industry, and to our economy, to the State of 
Montana, if we were to in any way, shape or form jeopardize our 
brucellosis-free status.
    We had a problem in the year 1988 in Yellowstone Park. It 
was called the let-it-burn policy. It was a failed experiment 
by the Federal government to allow 75 percent of Yellowstone to 
burn. A similar failed policy would be a let-them-roam-free-
outside-the-Park-in-a-diseased-state policy. It would be every 
bit as folly as the let-it-burn policy.
    I have got an answer. Why do you not fix your herd? If you 
really want to do something for the bison, if it is the icon, 
if you want to wear it on your shoulder, if you want to think 
of Montana as the visions that you get with ``A River Runs 
Through It,'' then do something about your herd.
    Get in and fix it. Do not let diseased herds walk around 
the Park because you would not allow us as livestock producers 
to have infected herds in amongst your wildlife. You would not 
let us overgraze your park and your Federal properties. Where 
do we find the philosophy that allows the opportunity for your 
diseased herd to overgraze our park, your diseased herd to move 
into Montana, and I hope you will listen very seriously to the 
ideas that the Governor has.
    My final point in this record of decision that was signed 
December 20, 2000. It suggests any actions of Congress not 
having the broad support of various agencies and parties could 
cause a major setback in the progress that has been made. This 
could have a devastating impact on Yellowstone buffalo herd.
    Any actions this Congress decides to take to try and undo 
something that we think is technically sound and legally 
defensible will have a major impact, and this is where we have 
to decide, ladies and gentlemen, are we going to allow sound 
science to manage our parks or are we going to allow political 
science to manage our parks? I hope you find for the former. 
Thank you.
    Mr. Grijalva. Thank you, Mr. Congressman. I appreciate 
that, and let me just begin with a couple of general questions, 
and you referenced the question that I am leading to is that 
you referenced the interagency bison management plan that was 
adopted in 2000, and the parties it appears to me clearly 
anticipated that much or even all the private land within the 
area covered by the plan would be acquired or at least any 
grazing on the land would be bought out by the winter of 2002, 
2003.
    Seven years later that has not happened, and just for my 
own edification, do you support that acquisition intent in the 
management plan or at least the acquisition of grazing rights 
so that the cattle would no longer be on the land right outside 
the Park?
    Mr. Rehberg. I think first you must look at the management 
of the Park itself. Clearly as one of the people who does in 
fact do this for a living, I believe in herding, I in fact have 
a herd myself of 2,800 goats with a herder, and the reason I do 
that is so that I could adequately and efficiently move the 
herd around to where the grass is available, and adequately and 
efficiently move it around to where the water is available.
    Now we are not going to go into wholesale water development 
within Yellowstone Park but I can tell you it is very poorly 
managed as far as the grazing components of those grazing 
animals, whether they are elk or bison. You do not have the 
ability in the wildlife situation to necessarily herd animals 
such as wolves and elk but it is a lot easier to have the 
ability to herd bison. I think you should actively look at that 
before you start the wholesale purchase of private property or 
the elimination from the grazing opportunities for those lands 
that surround the park.
    Mr. Grijalva. Thank you. I appreciate that. Mr. Bishop, any 
questions or any other members of the Committee have any 
question for the Congressman? OK. Congressman, you are welcome 
to join us here at the dais for the rest of the hearing.
    Mr. Rehberg. I will do that, and I thank you very much.
    Mr. Grijalva. Call the next panel, please.
    [Pause.]
    Mr. Grijalva. Thank you very much, and let me begin this 
panel with our distinguished guest to provide his perspective 
to the Committee on this very important question, the Governor 
of the State of Montana, Governor Schweitzer. Please.

            STATEMENT OF THE HON. BRIAN SCHWEITZER, 
                   GOVERNOR, STATE OF MONTANA

    Governor Schweitzer. Mr. Chairman, Ranking Member Bishop, 
it is nice to ride with you on the airplane from Salt Lake 
City. As you know when you leave Montana, you either go through 
Salt Lake or Minneapolis, and Salt Lake is usually the way that 
I go. So we leave a little money behind.
    Mr. Bishop. We appreciate you coming through Salt Lake.
    Governor Schweitzer. And Mr. Chairman Rahall, it is good to 
be back. Thank you for inviting me in.
    Mr. Rahall. We are working on bigger airports in West 
Virginia so you will be able to stop there.
    Governor Schweitzer. Well there is a connection. I come 
before you not only as the Governor of Montana but the first 
cattleman to be Governor of Montana since 1919. I come also as 
an agricultural scientist. There are a few principles at work 
here. The first principle is this. We in Montana do not intend 
to lose our brucellosis-free status. That is important to us.
    Because of the management of wildlife in the greater 
Yellowstone area, both Wyoming and Idaho, our neighbors, have 
lost their brucellosis-free status during the last couple of 
years. Montana does not intend to join them. The current 
management plan assures that it is only a matter of time before 
we would lose our brucellosis-free status. I would agree with 
Congressman Rehberg that brucellosis can be transferred from 
bison to cattle. The bison after all managed to get brucellosis 
from cattle to begin with. So this disease will transfer back 
and forth.
    I will just touch on the science that occurs in 
transferring the brucellosis. Some think of it as a venereal 
disease because there are abortions associated with it. It is 
not. When an animal has brucellosis and she gets the 
brucellosis at a young age, she will likely abort her first 
offspring before full maturity, maybe at five, six months.
    That aborted fetus will lie on the ground or maybe the 
afterbirth. Another ruminant will come along and as cattle or 
sheep or goats or deer or antelope or elk are want to do, they 
will use their eyes and they will use their nose. They will 
look down. They will see something, and they will smell it. 
There is where the transmission occurs. If you have infected 
buffalo occupying the same space as livestock that are grazing, 
you will likely have a transmission at some period of time.
    We have about 3,600 head of buffalo. I call them buffalo. 
You might call them bison. In Montana we use the terms 
interchangeably. Buffalo, 3,600 head of buffalo. Up to 40 
percent of them have some level of brucellosis. They have a 
positive titer. It does not necessarily mean they have 
brucellosis but they have a positive titer. They would test 
positive for brucellosis.
    So point one, we do not want to transfer brucellosis to 
Montana. We do not want our cattle to lose our brucellosis-free 
status. Point number two, you need to force the Department of 
Interior and the Department of Agriculture to work together. 
The Department of Interior has these buffalo in the Park who 
when we have tough winters move into Montana and put our cattle 
at risk. You have the Department of Livestock, USDA, through 
APHIS, tells us that if only two herds turn up positive for 
brucellosis the entire state would lose our brucellosis-free 
status.
    Now, I have for you a map of the Yellowstone area, and the 
small areas where bison are want to move out to when they are 
starving to death. Now, just so you know the area is about 
10,000 acres that the bison move into. Now, if you were to 
compare 10,000 acres to the 90 million acres plus that Montana 
has as a whole, that is a footprint approximately the size of 
New York City on the entire United States.
    So we are placing the two-plus million head of cattle in 
Montana at risk of losing their brucellosis-free status over 
about 700 head of cattle that occupy this space some short 
periods during the year. There are only a few livestock 
producers who live in the area, who own cattle, and keep them 
for 12 months. One of the largest producers--in fact the 
largest producer--is the Royal Teton Ranch outlined in the 
darkest orange. I think some of their representatives are here 
today.
    We, at the State of Montana, are negotiating with them 
today to buy out the right to raise cattle, sheep or goats on 
this land. If they want to raise horses or mules, that is fine, 
and we would compensate them. One solution, one permanent 
solution, would be for this small area--these small 
footprints--this part of Montana which would be the equivalent 
of New York City on the footprint of the entire United States, 
would be for Congress once and for all to buy the rights from 
private landowners so that they can continue to raise horses or 
mules on that land but not raise cattle so that we do not have 
buffalo and cattle occupying the same space.
    What we have been doing over the last numbers of years when 
buffalo leave the Park on the tough winters, we chase them back 
and forth, and you pay for it. About a million bucks a year to 
chase those starving buffalo back into the Park. We use 
snowmobiles. We use helicopters. We use folks on horses, and it 
does not make any sense. We have had buffalo on the same space 
in the same pasture with cattle during the last few years. That 
is a recipe for a wreck.
    If you are not willing to buy out and pay for it, there is 
a second option you should consider, and that is to create a 
buffer zone around the Park where we would have 100 percent 
test of the cattle that enter and leave. If we have 100 percent 
test in this small area around the Park and one, two, three of 
those herds do turn up positive for brucellosis, all of the two 
million cattle in Montana would not be at risk. Only that small 
area.
    Now, the third option is active management of the bison in 
the Park. Active management decreasing the numbers of bison or 
do exactly what this interagency bison management plan was 
supposed to do which gave no tools to eradicate brucellosis 
once and for all. You know Congressman Rehberg even mentioned 
about the plan, and you will hear from some other people who 
will say oh boy, do not depart from the plan. Well the plan 
said simply that the goal is to eradicate brucellosis. Well I 
am a cattleman. I know how to eradicate brucellosis. You round 
them all up. You test them. You slaughter the positives, and 
you vaccinate. That is the way you eradicate brucellosis.
    We do not have the resolve to do that. There is nothing in 
the plan that would give us an opportunity to eradicate 
brucellosis. So barring the willingness of Congress to 
eradicate brucellosis and to do the actual things that you 
would need to do to eradicate brucellosis, give us the tools in 
Montana so that it makes sense for our cattle industry, so that 
it makes sense for the bison. Give them either a little more 
room to leave the Park or give us a buffer zone around or do 
your job and leave us alone.
    Either have the Department of Interior work with the 
Department of Agriculture or give us real tools in Montana so 
that we do not lose our brucellosis-free status. Thank you.
    [The prepared statement of Governor Schweitzer follows:]

             Statement of The Honorable Brian Schweitzer, 
                       Governor, State of Montana

    Chairman Grijalva and Ranking Member Bishop, I thank you for 
inviting me to address this subcommittee, and affording me the 
opportunity to share my thoughts about the management of Yellowstone 
National Park Bison. Few issues have been as contentious to Montanans 
as bison management near Yellowstone National Park. As the last 
vestiges of our Great Plains herds, Park bison are important to our 
heritage, and to the nation. Unfortunately, they also represent one of 
the few remaining reservoirs of brucellosis in the nation.
    I have taken on this issue not because I have in mind a quick fix, 
or because I have all the answers, but because sustainable solutions 
are long overdue. I have hoped to refocus our collective attention.
    The livestock industry in Montana and nationwide has gone to great 
lengths, at substantial costs, to eradicate brucellosis from cattle. 
Montana remains brucellosis-free, but in the last 2 years Idaho and 
Wyoming have both dealt with the loss of their brucellosis-free status. 
As a result, livestock producers in Wyoming and Idaho have been subject 
to additional time-consuming and costly measures when they ship cattle 
from their states. Recently Wyoming regained its status, but even as 
Idaho works to do the same, no clear plan exists to prevent a recurring 
situation, and it may be simply a matter of time before Montana loses 
its status.
    My priority is to protect Montana's brucellosis-free status. Having 
been involved in the cattle industry my entire life, and particularly 
in the seed-stock business, I understand the intricacies of the disease 
and the necessity of remaining brucellosis-free.
    Longstanding and conflicting policies at the U.S. Departments of 
Agriculture and Interior have caused the federal government to be less 
than helpful. Not only do Montana, Wyoming, and Idaho deal with the 
real threats of brucellosis to our cattle industry, but we often 
receive a black eye when we are forced to take management actions to 
prevent potential transmission of brucellosis when bison enter Montana.
    From 1985 to 1990, Montana culled bison entering the state through 
a hunt that really more closely resembled a firing line, where 
government agents pointed out the bison to be shot. The public outcry 
led to a halt of bison hunting that lasted throughout the twelve years 
of the administrations of then Governors Marc Racicot and Judy Martz. 
The bison herd continued to grow, and subsequent management and legal 
actions led to a settlement with federal agencies that resulted in the 
current Interagency Bison Management Plan (IBMP). When the IBMP was 
crafted in the year 2000, about 2,500 bison occupied the Park. Last 
year--several mild winters later, and before the Park sent almost 1,000 
animals to slaughter--the count was estimated at 4,900 bison. The 
population estimate now stands at 3,600 head.
    The IBMP establishes zones on the north and west sides of the Park 
where bison are tolerated outside Park boundaries. The plan designates 
hazing, capture, testing, and slaughter as management tools when bison 
leave the Park. In recent years almost $1 million per year has been 
spent on these activities. The Plan also calls for the eradication of 
brucellosis when research someday provides the means to do so. 
Principally, however, the Plan calls for temporal and spatial 
separation of bison and cattle.
    Plan proponents have tried to assure me that the IBMP protects 
Montana's brucellosis-free status, providing a sort of federal 
guarantee from USDA-APHIS. Unfortunately, the disease status activities 
in Wyoming and Idaho provide little in the way of comfort. The fact 
remains that Montana will lose its brucellosis-free status if two herds 
are found to be infected. In other words, loss of status is caused by 
infection, and is not prevented by the existence of a document.
    On the ground, such assurance is far from secure. Bison can and 
have moved many miles into Montana overnight, presenting the 
possibility of commingling with cattle. The result is a situation where 
cattle and bison occupy the same space, at the same time. Additionally, 
when bison are captured in the Park, many are shipped live to Montana 
slaughterhouses hundreds of miles away. Possible roadway accidents, 
careless offal disposal methods, and tissues carried off by scavengers 
become a concern. From a risk management perspective, we must do better 
than the present Plan.
    State veterinarians in the 19 western states agree. A year ago I 
received a resolution from their organization, the Western States 
Livestock Health Association. It advocates reducing commingling through 
spatial and temporal separation, quarantine measures if commingling 
occurs, and contemplates additional requirements and sanctions on the 
three states if their recommendations are not implemented.
    Despite these facts, I still hear some in the livestock industry 
say we're doing enough to manage risk. Alternatively, they call simply 
for the eradication of brucellosis. Who can disagree? Eradication is a 
goal shared by every party interested in Park bison management. It is 
lauded--even demanded--as a solution, yet we lack an effective vaccine, 
and I have yet to see an eradication plan from the federal government.
    The National Park Service today insists on minimal management of 
bison in the Park, despite a long history of intensive management 
activities within its boundaries, including captivity, feeding, live 
removals, lethal removals, and regulated hunts. Similarly, the USDA's 
Animal and Plant Health Inspection Service today insists on strict, 
state-wide application of its ``two-herds-and-you're-out'' brucellosis 
policy for the cattle industry in the three states that border the 
Park, even though the risk of transmission affects only a very small 
geographic region. This is despite the fact that USDA has historically 
allowed the use of smaller, regionalized management areas for disease 
control.
    Past suggestions for bison management have included a test and 
slaughter program that would eradicate brucellosis in Park bison; a 
specially-managed hunt inside Park boundaries; creative fencing of Park 
boundaries. Each of these notions presents problems, and yet we have 
seen no forward-looking ideas from the federal government.
    Hope for mild winters seems to be the only long range federal plan, 
along with the expensive and ongoing hazing, capture, testing, and 
slaughter actions when bison breach Park boundaries. Meanwhile, cattle 
producers pray for no more brucellosis transmissions or disease status 
downgrades from the federal government. But hopes and prayers do not 
constitute a plan.
    Last July I sent a letter to USDA Secretary Johanns and Interior 
Secretary Kempthorne to encourage them to resolve their agencies' 
conflicting approaches, and to work with us to develop realistic and 
effective long-term management. Let's just say that the response was 
not overwhelming.
    The State of Montana has begun to explore the elements of eventual 
solutions. For the first time in 15 years, in 2005 we conducted a 
public bison hunt. It was a fair-chase hunt. Big game herds across the 
West are managed through hunting, and it is a part of our heritage and 
tradition. The first Montanans hunted bison for at least 12,000 years, 
which is why 16 of the 140 hunting permits currently available go to 
Montana's Indian tribes. Our state joins Alaska, Arizona, South Dakota, 
Utah, and Wyoming in managing bison through hunting.
    Montana's hunts over the last two years have been successful, but 
hunting is merely one of the tools available for bison management. It 
can be used even more effectively over time, given more experience and 
adequate area to maintain a fair-chase hunt.
    To explore other solutions, I have begun meeting with affected 
landowners near the Park, agricultural and conservation organizations, 
and others interested in bison management. I have proposed ideas for 
maintaining better separation between bison and the approximately 700 
units of cattle near the Park in order to protect the status of the 2.5 
million head of cattle throughout the rest of the state.
    One idea is the establishment of a small, specialized area near the 
Park where we would apply stricter management protocols for cattle--
100% test in, 100% test out. In exchange, USDA-APHIS would agree that 
Montana would not lose its brucellosis-free status should two herds 
become infected inside that designated area. The intent is not to 
increase the area where bison may wander outside the Park, but instead 
to better manage cattle in the area, and to utilize geography to 
control bison from December to March, when they are commonly on the 
move. Beyond this area a ``drop dead'' zone would exist as it does now. 
Each spring, all bison would still be moved back into the Park.
    Another idea is the negotiation of grazing leases with private 
landowners near the Park that compensate them for grazing only non-
ruminant animals until brucellosis is eradicated--or even permanent 
purchase of grazing rights or other management agreements that 
landowners find reasonable. Whatever the mechanism, agreements would be 
voluntary, and the federal government would need to provide fair-plus 
compensation. The amount of private land involved likely would not 
exceed 9,000 or 10,000 acres. Montana has 94 million total acres, so 
we're talking about an area that makes up about one ten-thousandth of 
the land area of the state. For perspective, that is an area the size 
of New York City on a map of the lower 48 states. To these ends, we 
have been involved in productive negotiations with Royal Teton Ranch, 
the largest cattle operation on the north side of the Park.
    An urgent necessity is the funding of further research into a more 
effective brucellosis vaccine, and into more effective vaccine delivery 
methods. The Park Service has recently completed studies confirming the 
efficacy of remote vaccine delivery, but vaccine effectiveness lags. 
RB51 is credited with 65-70% effectiveness in cattle. Novel vaccines 
exist, including ``RB51-plus,'' developed at the Virginia-Maryland 
Regional College of Veterinary Medicine, and ``Strain 82,'' developed 
at the All-Russian Veterinary Institute. USDA funding for the National 
Brucellosis Eradication Program should be prioritized for further 
research for bison, cattle, and elk. Ongoing quarantine studies should 
continue as well. But again, the federal government must provide the 
resources necessary to dramatically speed up disease research and 
development.
    There are almost certainly other good ideas. Just as I have 
proposed ideas for practical solutions to this seemingly intractable 
issue, I have invited others to do the same. I will continue to work 
with the livestock industry, conservationists, and the federal agencies 
that bear responsibility. We must provide real risk management for 
Montana's cattle industry and manage bison with the respect they 
deserve.
                                 ______
                                 
    Mr. Grijalva. Thank you, Governor. Mr. Soukup, your 
testimony please.

         STATEMENT OF MIKE SOUKUP, ASSOCIATE DIRECTOR, 
                     NATIONAL PARK SERVICE

    Mr. Soukup. Mr. Chairman, members of the Subcommittee, 
thank you for the opportunity to appear before you today to 
present the Department of the Interior's views on Yellowstone 
National Park bison. Accompanying me today is Suzanne Lewis, 
superintendent of Yellowstone National Park. My testimony has 
been submitted so I will just offer a brief summary.
    Bison are an integral part of a visitor's experience in the 
natural system of Yellowstone National Park. Today the 
Yellowstone bison herd is the nation's only continuously free-
roaming herd, a small but precious genetically true remnant of 
the vast herds of bison that once roamed this continent. While 
many consider the bison emblematic of our nation's natural 
heritage, as a species it has not fared well.
    From populations estimated in the tens of millions by the 
end of the 19th century, only 200 remain. Today evidence of 
cross breeding with cattle is common in the genetics of most 
domestic and many public herds. Cattle are also likely 
responsible for the transmission of the exotic disease 
brucellosis to bison, elk and other wildlife. Brucella bordis, 
the causative bacteria in brucellosis, was first observed in 
1917, and it has been a vaccine problem ever since.
    The dilemma of the largest free-roaming bison herd that 
carries a contagious disease in a landscape where working 
ranches graze their cattle has not led to many instances of 
finding common ground or reasonable compromise over the 
decades. Perhaps the best example of cooperation--although 
precipitated by a lawsuit--has been the interagency bison 
management plan signed by the Governor of the State of Montana 
and the Secretaries of Interior and Agriculture in December 
2000.
    This plan was based on nearly a decade of negotiations and 
a long, but necessary search for a common scientifically based 
understanding of the issue. The plan includes a step-wise 
approach and a commitment to adaptive management that allows 
for plan improvement resulting from observation, experience and 
new information. Key provisions include an overall commitment 
to the long-term preservation of this free-roaming herd, as 
well as protection of the brucellosis-free status of the State 
of Montana.
    Major elements are cooperation, management of diseased 
risk, increasing tolerance of bison outside the park, 
acquisition of grazing rights, management of disease risk, 
increasing tolerance outside the Park when and where feasible, 
and significantly emphasis on the development of tools such as 
effective vaccines and remote delivery mechanisms that can 
provide for the eventual elimination of brucellosis from 
Yellowstone bison in a fashion that is fully protective of this 
national treasure.
    All sides in this issue voice concerns about this plan. 
Progress is being made in some areas certainly faster than 
others. For example, it has been difficult for the National 
Park Service to participate when bison are sent to slaughter in 
harsh winters when many bison leave the Park. Nevertheless, 
Yellowstone National Park has participated responsibly in 
carrying out this plan with confidence that the Yellowstone 
bison population remains robust.
    The Department of the Interior remains convinced that these 
lethal actions can be adaptively minimized through greater 
opportunities for spacial and temporal separation of cattle and 
bison and eventually rendered unnecessary. With the development 
of proper tools that is underway, it may be possible to then 
plan for the eventual elimination of this nonnative disease and 
the risk of its transmission without compromising the nature 
and future of the Yellowstone bison.
    Mr. Chairman, that concludes my remarks. Superintendent 
Lewis and I will be pleased to respond to the Subcommittee's 
questions. Thank you.
    [The prepared statement of Mr. Soukup follows:]

   Statement of Michael Soukup, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
                                Interior

    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear before you today to present the Department of the 
Interior's views on Yellowstone National Park Bison. Accompanying me 
today is Suzanne Lewis, Superintendent of Yellowstone National Park.
    In December 2000, after nearly a decade of negotiation and 
planning, the Secretaries of Agriculture and Interior, and the Governor 
of Montana signed Records of Decision to implement the Interagency 
Bison Management Plan (IBMP) for the State of Montana and Yellowstone 
National Park. The IBMP directs the National Park Service (NPS), 
Gallatin National Forest, and the U.S. Department of Agriculture (USDA) 
Animal and Plant Health Inspection Service (APHIS) to cooperate with 
the State of Montana in implementing management operations to preserve 
the largest wild, free-ranging population of bison while minimizing the 
risk of brucellosis disease transmission between bison and cattle. 
Brucellosis is a contagious bacterial disease that can infect domestic 
animals, wildlife, and humans. Brucellosis was first found in the 
Yellowstone bison herd in 1917 and was most likely acquired from 
domestic cattle. Potential transmission of brucellosis back to cattle 
from bison has been a concern of the cattle industry, and the Montana 
cattle industry has worked hard to maintain brucellosis-free status for 
its cattle herds.
    Through various adaptive management techniques, the IBMP is 
designed to progress through a series of management steps that 
initially allow only bison that test negative for brucellosis on winter 
range areas outside the national park, but will eventually allow 
limited numbers of any bison on public land within management areas 
covered by the IBMP during winter when cattle are not present.
    The agency partners conducted reviews of the IBMP in 2005, 2006, 
and 2007. These reviews have identified and implemented several 
adaptive management adjustments to the IBMP including increased 
tolerance for bull bison outside the park, and increased flexibility of 
bison hazing. Additionally, a bison vaccination program has been 
initiated for captured bison.
    The NPS is currently developing an Environmental Impact Statement 
for comprehensive remote bison vaccination that will not require 
capture of bison. Spatial and temporal separation of bison and cattle 
has been strengthened by improved interagency cooperation during hazing 
and capture operations. The State of Montana is collaborating with 
APHIS to develop protocols for certifying some Yellowstone bison as 
brucellosis free so they can be used to improve the genetics in other 
federal and State bison populations. In 2005, Montana reauthorized a 
public hunt of Yellowstone bison on lands adjacent to the park.
    When the IBMP went into effect in 2000, the bison population was 
approximately 2,500 animals. Currently, the bison population is 
estimated at approximately 3,600 animals. During winter 2005-2006, the 
bison population was reduced from 4,900 to 3,400 when, after the park 
conducted numerous non-lethal hazing operations along the northern 
boundary, and when hazing became infeasible and unsafe to prevent bison 
from leaving the park's northern boundary and entering private lands 
occupied by cattle, the park captured 1,249 bison. Of these, 87 were 
provided for approved research, 305 were released back into the park, 
849 were consigned to slaughter, and there were 8 mortalities inside 
the capture facility. As happens every winter, many additional bison 
die of natural causes including predation. Sending so many bison to 
slaughter under the IBMP was difficult for the Park Service, but 
capture of these bison was necessary to prevent commingling and 
probable disease transmission to cattle grazing on lands adjacent to 
parks.
    In an effort to progress to the later, more flexible bison 
management stages established under the IBMP, the NPS continues to 
support the leadership of the State of Montana to conduct negotiations 
that could lead to acquisition of cattle grazing rights on lands 
adjacent to the park and thus provide additional habitat for bison 
outside the park. The Royal Teton Ranch (RTR), USDA Forest Service, and 
the Montana Department of Fish, Wildlife and Parks are currently in 
renewed discussions about new opportunities for grazing rights 
acquisitions on part or all of RTR lands. While the NPS is not a 
principal party in these negotiations, at the request of the State of 
Montana, park staff participated in discussions about the potential 
value of all or part of these lands as bison habitat. The RTR retains 
grazing rights, where they currently graze approximately 120 head of 
cattle, on their private property adjacent to Yellowstone National Park 
as provided for under the 1999 land acquisition and conservation 
easement agreement.
    The NPS continues to meet with IBMP partners, private landowners, 
and the State of Montana to seek opportunities to advance these 
discussions, and to identify and implement progressive and more bison-
friendly adaptive management approaches.
    Bison management actions under the IBMP have not had an adverse 
impact on long-term bison population viability. This bison population 
exhibits a robust, long-term population growth of 8-13 percent per 
year. The IBMP includes bison population management objectives that are 
intended to ensure long-term conservation of this unique bison 
population and their significant genetic variation. A decision by the 
NPS to capture bison only arises when all other options are exhausted. 
Any subsequent decision to consign captured bison to slaughter is very 
difficult, and is influenced by an interest in minimizing captivity and 
human-dependence of these wild bison as well as the requirements of the 
IBMP. Despite the periodic capture and removal of some bison, the NPS 
believes that the IBMP is a successful long-term strategy for 
safeguarding and protecting the Yellowstone bison population.
    Mr. Chairman, this concludes my prepared remarks. We would be 
pleased to answer any questions you or other members of the 
Subcommittee may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. With that, Deputy 
Administrator Clifford please.

 STATEMENT OF JOHN CLIFFORD, DVM, DEPUTY ADMINISTRATOR, ANIMAL 
              AND PLANET HEALTH INSPECTION SERVICE

    Mr. Clifford. Thank you, Mr. Chairman. My name is Dr. John 
Clifford, and I am the Deputy Administrator for Veterinary 
Services with the Department of Agriculture's Animal and Plant 
Health Inspection Service. I also serve as the Department's 
chief veterinary officer for animal health. My agency's role in 
the management of Yellowstone National Park's bison herd is to 
prevent the transmission of brucellosis, a serious bacterial 
disease of animals and a threat to the health of livestock in 
the greater Yellowstone area.
    USDA has been working for many years with the state and 
industry cooperators to eradicate brucellosis from domestic 
cattle and bison herds. Our cooperative efforts have been 
highly successful. Only two states, Idaho and Texas, are not 
classified as free of the disease in domestic cattle and bison 
herds. The greater Yellowstone area is the last known reservoir 
of brucellosis in wild elk and bison in the United States. 
Surveillance testing of wild bison from the Yellowstone herd 
indicates approximately 50 percent of the bison in the Park 
have been exposed to and are potentially infected with the 
disease.
    This disease reservoir poses a risk to cattle that graze on 
lands adjacent to the Park. There have been published reports 
and scientifically documented cases of bison transmitting 
brucellosis to cattle under both range and experimental 
conditions. Transmission can occur through direct contact 
between infected bison and noninfected cattle and if they are 
allowed to commingle on lands adjacent to the Park.
    APHIS works with the states around the GYA, and the cattle 
industry, the Department of Interior's National Park Service, 
and Fish and Wildlife Services, to address the risks of 
brucellosis transmission from wildlife leaving the Park to 
cattle that graze in surrounding areas. Our sister agency 
within USDA, the U.S. Forest Service, also plays a key role in 
managing the public lands on the Gallatin National Forest 
adjacent to Yellowstone National Park in Montana.
    The current interagency bison management plan carefully 
balances the need to preserve the Yellowstone bison herd with 
the need to prevent the spread of brucellosis from bison to 
cattle. The plan relies on spacial and temporal separation of 
bison from cattle that graze in areas surrounding the Park. As 
bison leave the Park, management zones are used to monitor 
their movement and ensure that the bison and cattle do not 
commingle.
    Depending on the bison population size, there is an array 
of risk management options to prevent transmission from 
brucellosis from bison to cattle during the winter. USDA and 
the Department of Interior believe the next step is develop a 
long-term plan for the elimination of brucellosis from GYA. We 
are in the early stages of this process but fully acknowledge 
that any disease elimination plan must maintain the wild and 
free-roaming bison and elk herds in the Park.
    We intend for this plan to be developed by disease and 
wildlife management experts and to include public input. Once 
brucellosis is eliminated from the GYA, bison and elk can roam 
more freely without the need for brucellosis intervention 
strategies. USDA and DOI will soon send a letter to our GYABC 
partners enclosing a copy of an updated memorandum of 
understanding for signature that commits the partners to 
working together to develop this disease elimination plan for 
GYA.
    In the near term, management of the risk of disease 
transmission from wildlife to livestock is a prudent approach 
to maintaining the brucellosis-free status of the GYA states, 
and the long-term elimination of brucellosis from GYA wildlife 
along with the protection of elk and bison populations will be 
our goal. Thank you for the opportunity to testify this 
morning, and joining me at the table will be Ms. Becky Heath, 
Forest Supervisor for the Gallatin National Forest in Montana. 
We would be pleased to answer your questions.
    [The prepared statement of Mr. Clifford follows:]

  Statement of Dr. John Clifford, Deputy Administrator for Veterinary 
   Services, Animal & Plant Health Inspection Service (APHIS), U.S. 
                       Department of Agriculture

    Thank you for the opportunity to be here this morning. My name is 
Dr. John Clifford, and I am Deputy Administrator for Veterinary 
Services with the Department of Agriculture's (USDA) Animal and Plant 
Health Inspection Service (APHIS). In this position, I also serve as 
USDA's Chief Veterinary Officer.
    My Agency's role in the management of Yellowstone National Park's 
bison herd is to prevent the transmission of brucellosis, a serious 
bacterial disease of animals, and a threat to the health of livestock 
in the Greater Yellowstone area. I'd like to begin my testimony by 
providing information on the disease and the longstanding efforts of 
USDA, States, industry, and other cooperators to eliminate it from 
cattle in the United States.
Background on Brucellosis and the Cooperative State-Federal Eradication 
        Program
    USDA has been working with State and industry cooperators to 
eradicate brucellosis for many years. The disease affects many species 
of animals, including humans, and is caused by the bacteria Brucella 
abortus. Cattle, bison, and elk are especially susceptible to the 
disease.
    The Brucellosis Eradication Program was launched on a national 
scale in 1934, and a cooperative effort among the Federal Government, 
States, and livestock producers began in 1954. All States participate 
in APHIS' Cooperative State-Federal Brucellosis Eradication Program and 
are assigned a brucellosis classification by APHIS. These 
classifications--Class Free, Class A, Class B, and Class C--are based 
on herd prevalence rates for the disease and require various levels of 
movement restrictions and surveillance activities. Most importantly to 
cattle producers, restrictions on moving cattle interstate become less 
stringent as a State approaches or achieves Class Free classification.
    The program, which is predicated on cattle slaughter surveillance 
and milk ring test surveillance, has been highly effective. In 1956, 
124,000 affected herds were found in the United States as a result of 
testing. By 1992, this number had dropped to 700, and as of March 13, 
2007, no known affected domestic cattle or bison herds remained in the 
entire United States
    Annual brucellosis-related losses due to aborted fetuses, reduced 
breeding efficiency, and lowered milk production have decreased from 
more than $400 million in 1952 to almost zero today. Currently 48 
States, Puerto Rico, and the U.S. Virgin Islands are free of 
brucellosis. Idaho and Texas--with herd infection rates of less than 
0.1 percent in each State--both hold Class A classification. States 
with Class A classification must demonstrate there are no infected 
herds within a two year period to obtain Free classification status. 
Idaho and Texas are currently in the qualifying stage for Free 
classification. USDA is hopeful the Cooperative State-Federal 
Brucellosis Eradication Program will achieve the goal of nationwide 
elimination of this disease from domestic cattle and domestic bison 
within the next year.
Brucellosis in the Greater Yellowstone Area (GYA)
    In 2004, Wyoming lost its brucellosis Class-free classification due 
to the detection of four brucellosis-affected cattle herds that were 
most likely infected by elk from the GYA. After additional surveillance 
testing and epidemiological investigation, APHIS approved Wyoming's 
Class Free classification in September 2006.
    In November 2005, two cattle herds in Idaho were found infected 
with brucellosis and the State subsequently lost its Class Free 
classification. Again, these infections are also most likely linked 
epidemiologically to brucellosis-infected elk from the GYA. Idaho will 
be eligible to regain Class Free classification after completing a 12-
consecutive month period of finding no additional brucellosis-affected 
herds, provided all other brucellosis Class Free requirements have been 
met.
    Clearly, these recent situations involving brucellosis in Wyoming 
and Idaho illustrate that the GYA is the last known reservoir of 
brucellosis in wild elk and/or wild bison in the United States. 
Surveillance testing of wild bison from the Yellowstone National Park 
herd indicates that approximately 50 percent of the bison in the Park 
have been exposed to and are potentially infected with the disease. 
Also, all elk (100,000) and bison (5,000) across the 20,000,000 acre 
GYA are know to be exposed at variable levels to brucellosis. There 
have also been published reports and scientifically documented cases of 
bison transmitting brucellosis to cattle under both range and 
experimental conditions. It is generally accepted that transmission can 
occur through direct contact between infected bison and non-infected 
cattle if they are allowed to co-mingle on lands adjacent to the Park. 
Transmission could also occur if susceptible animals come into contact 
with aborted fetuses and afterbirth that carry the disease.
Addressing Brucellosis in the GYA
    As the Agency responsible for protecting the U.S. cattle industry 
from serious diseases like brucellosis, APHIS is responsible for 
working with the GYA States, the cattle industry, and the National Park 
Service to address the risk of brucellosis transmission from wildlife 
leaving the Park to cattle that graze in surrounding areas. Our sister 
agency within USDA, the U.S. Forest Service, also plays a key role in 
managing the public lands on the Gallatin National Forest, adjacent to 
Yellowstone National Park in Montana.
    We acknowledge that this is a complex issue on a number of fronts. 
For our part in the Greater Yellowstone Interagency Brucellosis 
Committee (GYIBC), USDA has pledged its full cooperation to protect the 
economic viability of the livestock industry by eliminating brucellosis 
while sustaining populations of free-ranging wild elk and bison in the 
GYA.
    The only way we can accomplish these dual goals is to continue 
cooperating with Federal and State agencies in the management of the 
livestock and wild bison and elk in the GYA. We recognize the risk this 
disease poses to livestock and wildlife, as well as the financial 
hardship it has caused producers. Eliminating brucellosis in the GYA is 
of vitally important to achieving our ultimate, shared goal--
eradicating the disease throughout the entire United States.
Current Interagency Bison Management Plan
    The current Interagency Bison Management Plan (IBMP) that the 
cooperating partners operate under carefully balances the need to 
preserve the Yellowstone bison herd with the need to prevent the spread 
of brucellosis from bison to cattle that graze on lands surrounding the 
Park.
    The bison management plan relies on the spatial and temporal 
separation of bison from cattle that graze in areas surrounding the 
Park. As bison leave the Park, management zones are used to monitor the 
movement of bison and ensure that bison and cattle do not commingle. 
Depending on the bison population size, there is an array of risk 
management options to prevent transmission of brucellosis from bison to 
cattle during the winter, including non-lethal hazing, shooting, 
capture, testing, and shipment to slaughter.
    Any bison that remain outside the Park's boundaries in the spring 
are hazed back into the Park, captured or removed. As an additional 
disease safeguard, cattle are not allowed to graze on public land 
outside the Park until a sufficient amount of time has passed after the 
bison leave to ensure that the brucellosis bacteria is no longer viable 
in the environment. However, at this time, the Gallatin National Forest 
has vacated all grazing allotments located in the bison Management Zone 
next to the Park.
    While it is unfortunate that National Park Service employees must 
sometimes remove bison that have left Yellowstone National Park, we 
must emphasize that these operations are targeted and only one 
component of a much larger effort to preserve the health and viability 
of the entire bison herd. In this regard, all of the Federal bison 
management actions are in accordance with the provisions of the bison 
management plan and the requirements of Federal law; the management 
plan also includes a commitment to treating bison in a humane fashion 
during hazing, capture, and other handling.
The Roles of the U.S. Forest Service Under the Interagency Bison 
        Management Plan
    As a full partner in the Interagency Bison Management Plan, USDA's 
Forest Service provides these main functions:
    <bullet>  Management of wildlife habitat on National Forest System 
lands (NFS) outside of the Park in Montana;
    <bullet>  Law enforcement support to the counties and the State of 
Montana during bison management operations outside the Park; and
    <bullet>  Administration of a special use permit for the State's 
(Department of Livestock) bison capture facility located in the Horse 
Butte area, west of the Park.
    Under federal laws and the Land Management Plan, the Gallatin 
National Forest lands are managed for multiple use purposes which 
include livestock grazing. Federal grazing permits are issued to 
private producers. However, given the Forest Service management 
emphasis to provide for wildlife habitat, all Gallatin National Forest 
cattle grazing allotments located in the Bison Management Zone next to 
the Park have been held vacant for 3-10 years. Holding these allotments 
vacant from cattle grazing fulfills one of the objectives in the 
Interagency Bison Management Plan, which calls for creating spatial and 
temporal separation of bison and cattle. Outside of Yellowstone Park, 
but within the Bison Management Zone closest to the Park, domestic 
cattle graze on approximately 6,000 acres of private ranch lands on the 
west and north sides of the Park; outside of this Zone there are 
numerous private cattle ranches as well as several active grazing 
allotments on NFS lands.
Royal Teton Ranch Land Conservation Project
    The 12,000-acre Royal Teton Ranch (``RTR'') owned by the Church 
Universal and Triumphant, is located north of Yellowstone National Park 
but within the Gallatin National Forest proclamation boundary. This 
property provides critical wildlife migration and winter range habitat 
for numerous species, including grizzly bear, Yellowstone cutthroat 
trout, elk, bighorn sheep, antelope, bison and mule deer.
    In 1997, the Forest Service partnered with the Rocky Mountain Elk 
Foundation to develop a multi-component agreement with the Church that 
included fee purchases, conservation easements and a long-term right of 
first refusal for potential acquisition of the remaining RTR lands.
    The stated purposes of the 1997 RTR project were to:
    <bullet>  Conserve critical wildlife habitat north of Yellowstone 
Park for numerous wildlife species.
    <bullet>  Improve public access for recreational opportunities, and
    <bullet>  Protect the geothermal resources on the RTR lands.
    The Rocky Mountain Elk Foundation, Forest Service, and Department 
of the Interior (DOI) successfully completed the RTR fee and easement 
purchases in 1999 using $6.7 million in LWCF funds appropriated to the 
Forest Service and $6.3 million in LWCF funds appropriated to DOI. In 
the project, about 5,300 acres of RTR lands were acquired by fee 
purchases and another 1,500 acres were protected through a conservation 
easement. In addition, the Church granted a conservation easement 
prohibiting development of geothermal resources on the entire ranch. 
All the acquired RTR lands and easements are held and managed by the 
Forest Service.
    All cattle grazing allotments located on the lands acquired by the 
United States in this purchase are held vacant. The Church waived their 
federal grazing permit back to the Gallatin National Forest in 2004, 
and this land is also held vacant.
    From the project onset (1999), the Forest Service, the Rocky 
Mountain Elk Foundation and conservation partners all clearly 
recognized that the RTR project would be a positive step for wildlife 
conservation, but that it would not, by itself, fully resolve the bison 
management issues in that area. Acquisition of the RTR lands and 
conservation easements do, in fact, protect some of the historic 
migratory and winter range habitat for bison, and have kept future 
options open. However, nearly half of the RTR ranch remains private 
land, and the Church has elected to continue to graze its cattle on 
those remaining private lands.
New Draft Memorandum of Understanding Among the GYIBC Partners
    As I mentioned a moment ago, the current bison management plan is a 
tool for preventing the spread of brucellosis from bison to cattle on 
grazing lands in Montana adjacent to Yellowstone National Park. USDA 
and the Department of the Interior (DOI) believe the next step is to 
develop a long-term plan for the elimination of brucellosis from the 
GYA. We are in the initial stages of this process, but fully 
acknowledge that any disease elimination plan must maintain the wild 
and free-roaming bison and elk herds in the Park.
    Our concept is for this plan to be developed by disease and 
wildlife management experts and to include public input. Once 
brucellosis is eliminated from the Greater Yellowstone Area, bison and 
elk can roam more freely without the need for brucellosis intervention 
strategies. The animals may also be moved to other parks and tribal 
lands as desired by wildlife managers and other interested parties.
    In this regard, USDA and the U.S. Department of the Interior (DOI) 
agreed upon a revised GYIBC memorandum of understanding (MOU) after the 
previous MOU expired. In May 2005, the Federal agencies presented the 
draft to Montana, Idaho, and Wyoming for consideration. Finalizing the 
updated version of the MOU originally presented in 2005 (the updated 
version reflects Idaho's loss of brucellosis Class-Free status earlier 
this year, as well as Wyoming's September 2006 upgrade to Class-Free 
status) is a priority for USDA. To that end, USDA and DOI will soon 
send out a letter enclosing a copy of the updated version of the MOU 
and urging participating States to sign the document.
    The draft we will soon share with our State partners apprises the 
Governors that we will take into account their views, as well as the 
input of all our stakeholders, as we move forward with finalizing the 
MOU. I'd like to note, however, that we strongly believe that we need 
to develop a disease elimination plan that also contains effective 
means of managing the bison herd. In the near term, management of the 
risk of disease transmission from wildlife to livestock is a prudent 
approach to maintaining the brucellosis-free status of the GYA states. 
In the long term, elimination of brucellosis from GYA wildlife 
concurrent with protection of the elk and bison populations will 
require continued development and implementation of best management 
practices, vaccines, vaccine delivery systems, and diagnostic 
techniques.
    We know that finalizing this MOU is an important priority for all 
parties. Implementing the final MOU--in full cooperation with our 
Federal and State partners--is an integral part of our efforts to 
eliminate brucellosis from elk and bison herds in the GYA and to 
prevent reintroduction of this destructive disease into cattle herds in 
surrounding States.
Conclusion
    Mr. Chairman, while eliminating brucellosis from elk and bison 
herds in the GYA--and preventing reintroduction of the disease into 
those herds--is challenging, it is not an impossible task. It will 
require the use of a number of innovative and time-proven disease 
elimination and management tools and the cooperation of our State, 
Federal, and industry partners.
    As I indicated previously, this is a goal we are striving very hard 
to achieve. I believe finalization of a new GYIBC MOU, one that 
reflects the need for all parties to come together to develop a long-
term plan for eliminating brucellosis from the GYA ecosystem, is the 
most important step we can take in the short-term to help accomplish 
our goals. Thank you again for the opportunity to testify this morning, 
and I am happy to answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Let me now call on Ms. Robin 
Nazzaro for your testimony, comments.

  STATEMENT OF ROBIN NAZZARO, DIRECTOR, NATURAL RESOURCES AND 
         ENVIRONMENT, GOVERNMENT ACCOUNTABILITY OFFICE

    Ms. Nazzaro. Thank you, Mr. Chairman and members of the 
Committee. My name is Robin Nazzaro, Director, National 
Resources and Environment with the Government Accountability 
Office. I am pleased to be here today to discuss the management 
of bison in the Yellowstone National Park area. To facilitate 
my discussion, I will use a series of maps that will be 
displayed on the monitors and have been made available to you 
in a supplemental package with my statement.
    The first map shows the location of Yellowstone National 
Park overlapping three states--Idaho, Montana and Wyoming. As 
we have heard, this is home to a herd of about 3,600 free-
roaming bison, some of which routinely attempt to migrate out 
of the Park in the winter, particularly on the northern and 
western boundaries as depicted by the red arrows on the map. 
Livestock owners and public officials in the states bordering 
the Park have concerns about the bison leaving the Park because 
many are infected with brucellosis.
    The State of Montana and its livestock industry in 
particular have been active in protecting the state's 
brucellosis-free status by advocating for limits on bison 
migration. These efforts have been opposed by advocacy groups 
working to expand bison habitat and protect the free, wild 
roaming character of the bison and who assert that there has 
never been a documented case of brucellosis transmission from 
bison to cattle in the wild.
    The many years of public controversy over the management of 
the bison in the area have ensued and has resulted in competing 
concerns. In an effort to address these concerns, as we heard, 
the agencies in December 2000 developed a three-step plan for 
managing the bison on the northern and western sides of the 
Park. The stated purpose of this interagency bison management 
plan is to maintain the wild, free-ranging population of bison 
and address the risk of brucellosis transmission to protect the 
economic interest and viability of the livestock industry in 
Montana.
    My testimony summarizes GAO's preliminary observations on 
the progress made in implementing this plan and the extent to 
which bison have access to lands north of the Park acquired 
with $13 million in Federal funds. This work was requested by 
the Chairman of the House Committee on Natural Resources and 
Congressman Maurice Hinchey. More than six years after 
approving the plan, the five Federal and state partner agencies 
remain in step one of the plan because cattle continue to graze 
on certain private lands in the area represented on the map by 
the grey box.
    These lands are owned by the Church Universal and 
Triumphant. A key condition for the partner agencies 
progressing further under the plan requires that cattle no 
longer graze in the winter on these lands to minimize the risk 
of brucellosis transmission from bison to cattle.
    The agencies had anticipated meeting this condition by the 
winter of 2002, 2003. While a prior attempt by Interior to 
acquire grazing rights on some of these lands was unsuccessful, 
Montana's Department of Fish, Wildlife and Parks is currently 
negotiating with the Church to acquire the grazing rights. 
Until this condition is met, bison will not be allowed to roam 
freely beyond the Park's northern border, west of the 
Yellowstone River.
    Concurrent with the development of the bison management 
strategy in the late 1990s, the Forest Service was pursuing the 
acquisition of certain lands and conservation easements from 
the Church to expand critical habitat for a variety of wildlife 
species, to protect geothermal resources and improve 
recreational access. Map number two, an enlargement of the grey 
box I referred to earlier, shows the land ownership prior to 
the Forest Service's land conservation project acquisitions. 
The Forest Service lands are shaded green. Park lands are 
yellow. The grey areas are owned by the Church, and the white 
areas are other privately owned lands.
    The land acquisition occurred in two phases. Map three 
depicts the first phase in which the Forest Service spent $6.5 
million to purchase 3,107 acres, most of which appears on the 
map in dark green with diagonal lines. A 640 acre portion 
located further north and west does not appear on the map. Map 
four depicts the phase two purchase of an additional 2,156 
acres shown in dark green, and a 1,508 acre conservation 
easement shown as the darker grey dotted area. Under the 
easement, numerous development activities such as the 
construction of commercial facilities and roads are prohibited.
    However, the owners specifically retained the right to 
graze domestic cattle, except between October 15 and June 1 of 
each calendar year, the time of the year that bison would 
typically be migrating through the area. The owner currently 
grazes cattle throughout the year on portions of its remaining 
6,000 acres which can be seen on map five in the grey areas. 
Map five shows the current land ownership north of the Park.
    While the Forest Service viewed this project as a logical 
extension of past conservation efforts, the value of this 
acquisition for the Yellowstone bison herd is minimal because 
no bison will be allowed to access these private lands, 
including those covered by the conservation easement, until 
cattle no longer graze there. Mr. Chairman, this concludes my 
statement. I would be pleased to answer any questions that you 
or members of the Subcommittee may have.
    [The prepared statement of Ms. Nazzaro follows:]

    Statement of Robin M. Nazzaro, Director, Natural Resources and 
           Environment, U.S. Government Accountability Office

    Mr. Chairman and Members of the Subcommittee:
    I am pleased to be here today to discuss our preliminary work on 
issues related to managing bison in the Yellowstone National Park area. 
Bison lived in this area long before the park was established in 1872, 
and have been under some form of human management since the early 
1900s. In 1901, after years of hunting and poaching, the Yellowstone 
herd had been reduced to about 25 bison. For nearly the next six 
decades, bison management in the park emphasized reestablishing the 
bison herd and controlling the size of the population. Through a policy 
of natural regulation adopted by the park in the 1960s, the bison 
population has increased, and about 3,600 bison roam the park and 
surrounding areas today.
    Brucellosis--a contagious bacterial disease that can infect 
domestic animals, wildlife, and humans--was first found in the 
Yellowstone bison herd in 1917 and is believed to have been transmitted 
from livestock. Livestock owners and public officials in the states 
bordering the park are concerned about brucellosis in the bison herd 
because of the risk of bison transmitting the disease back to cattle 
and the economic impact such an occurrence could have on the livestock 
industry. The state of Montana and its livestock industry, in 
particular, have been active in protecting the brucellosis-free status 
that the state has held since 1985 by advocating for limits on bison 
migration. These efforts have been opposed by advocacy groups working 
to expand bison habitat and protect the wild free-roaming character of 
the bison, and who assert that there has never been a documented case 
of brucellosis transmission from bison to cattle in the wild. Many 
years of public controversy over the management of bison in the 
Yellowstone National Park area have ensued as a result of these 
competing concerns.
    In an effort to address these concerns in the early 1990s, the 
Department of the Interior's (Interior's) National Park Service, the 
Department of Agriculture's (USDA's) Animal and Plant Health Inspection 
Service and Forest Service, and Montana's Departments of Livestock and 
Fish, Wildlife and Parks agreed to develop a joint long-term bison 
management strategy. This joint planning effort ultimately resulted in 
a three-step, Interagency Bison Management Plan (IBMP) that was agreed 
upon by the five federal and state partner agencies in December 2000. 
Concurrent with the development of a bison management strategy, the 
Forest Service was also pursuing the acquisition of certain private 
lands and conservation easements near the northern boundary of the park 
to expand critical migration and winter range habitat for a variety of 
wildlife species, protect geothermal resources, and improve 
recreational access.
    My testimony today summarizes work performed to date that GAO began 
in mid-January 2007 at the request of the Chairman of the House 
Committee on Natural Resources and Congressman Maurice D. Hinchey. GAO 
previously reported on the bison management issue and development of 
the IBMP in the 1990s. A list of related GAO products is provided in 
appendix I. Our current work is focused on determining: (1) the 
progress that has been made in implementing the IBMP and the associated 
costs and challenges; (2) what lands and easements north of Yellowstone 
National Park, acquired for $13 million in federal funds, have been 
made available to bison and other wildlife; and (3) what advances have 
been made in developing a brucellosis vaccine and remote delivery 
method for bison. To begin addressing these objectives, we visited the 
Yellowstone National Park area to attend an interagency sponsored 
public meeting on the IBMP, tour the bison management areas near 
Yellowstone National Park, interview federal and state agency officials 
as well as members of interested stakeholder groups, and review 
relevant documentation. We have conducted our work to date in 
accordance with generally accepted government auditing standards.
    Over the next several weeks, we will continue to collect and 
analyze information to refine our approach for completing the review. 
To date, our efforts have focused mostly on the first two broad 
objectives. Thus, my remarks today will provide our preliminary 
findings on the first two objectives.
Summary
    In summary, more than 6 years after approving the IBMP, the five 
federal and state partnering agencies remain in step one of the three-
step plan because cattle continue to graze on certain private lands. A 
key condition for the partner agencies progressing further under the 
plan requires that cattle no longer graze in the winter on certain 
private lands adjacent to the north boundary of Yellowstone National 
Park and west of the Yellowstone River to minimize the risk of 
brucellosis transmission from bison to cattle. The agencies anticipated 
meeting this condition by the winter of 2002/2003. Until this condition 
is met, bison will not be allowed to roam freely beyond the park's 
northern border, west of the Yellowstone River. The Forest Service has 
been successful in purchasing certain private lands and continues its 
vacancy of national forest grazing allotments in the area; however, the 
partner agencies have yet to acquire cattle grazing rights on other 
private lands adjacent to the north boundary of Yellowstone National 
Park and west of the Yellowstone River. While a prior attempt by 
Interior was unsuccessful, Montana's Department of Fish, Wildlife and 
Parks is currently negotiating with the private land owner to acquire 
these grazing rights.
    Yellowstone bison have limited access to the lands and conservation 
easement that federal agencies acquired north of the park. In 1998 and 
1999, as part of a larger conservation effort to provide habitat for a 
variety of wildlife species, protect geothermal resources, and improve 
recreational access, federal agencies spent nearly $13 million to 
acquire 5,263 acres and a conservation easement on 1,508 acres of 
private lands north of the park's border, lands towards which bison 
frequently attempt to migrate for suitable winter range. While the 
conservation easement prohibits development, such as the construction 
of commercial facilities and roads, on the private land, the land owner 
retained cattle grazing rights. The Yellowstone bison's access to these 
lands will remain limited until cattle no longer graze on the easement 
and other private lands in the area.
Background
    Yellowstone National Park is at the center of about 20 million 
acres of publicly and privately owned land, overlapping three states--
Idaho, Montana, and Wyoming. This area is commonly called the greater 
Yellowstone area or ecosystem and is home to numerous species of 
wildlife, including the largest concentration of free-roaming bison in 
the United States. Bison are considered an essential component of this 
ecosystem because they contribute to the biological, ecological, 
cultural, and aesthetic purposes of the park. However, because the 
bison are naturally migratory animals, they seasonally attempt to 
migrate out of the park in search of suitable winter range.
    The rate of exposure to brucellosis in Yellowstone bison is 
currently estimated at about 50 percent. Transmission of brucellosis 
from bison to cattle has been documented under experimental conditions, 
but not in the wild. Scientists and researchers disagree about the 
factors that influence the risk of wild bison transmitting brucellosis 
to domestic cattle and are unable to quantify the risk. Consequently, 
the IBMP partner agencies are working to identify risk factors that 
affect the likelihood of transmission, such as the persistence of the 
brucellosis-causing bacteria in the environment and the proximity of 
bison to cattle, and are attempting to limit these risk factors using 
various management actions.
    The National Park Service first proposed a program to control bison 
at the boundary of Yellowstone National Park in response to livestock 
industry concerns over the potential transmission of brucellosis to 
cattle in 1968. Over the next two decades, concerns continued over 
bison leaving the park boundaries, particularly after Montana's 
livestock industry was certified brucellosis-free in 1985. In July 
1990, the National Park Service, Forest Service, and Montana's 
Department of Fish, Wildlife and Parks formed an interagency team to 
examine various alternatives for the long-term management of the 
Yellowstone bison herd. Later, the interagency team was expanded to 
include USDA's Animal and Plant Health Inspection Service and the 
Montana Department of Livestock. In 1998, USDA and Interior jointly 
released a draft environmental impact statement (EIS) analyzing several 
proposed alternatives for long-term bison management and issued a final 
EIS in August 2000. In December 2000, the interagency team agreed upon 
federal and state records of decision detailing the long-term 
management approach for the Yellowstone bison herd, commonly referred 
to as the IBMP.
    The IBMP is a three-step plan for managing bison on the northern 
and western sides of Yellowstone National Park, areas to which bison 
typically attempt to migrate for suitable winter range. The stated 
purpose of the IBMP is to:
        ``maintain a wild, free-ranging population of bison and address 
        the risk of brucellosis transmission to protect the economic 
        interest and viability of the livestock industry in Montana.''
    Although managing the risk of brucellosis transmission from bison 
to cattle is at the heart of the IBMP, the plan does not seek to 
eliminate brucellosis in bison. The plan instead aims to create and 
maintain a spatial and temporal separation between bison and cattle 
sufficient to minimize the risk of brucellosis transmission. In 
addition, the plan allows for the partner agencies to make adaptive 
management changes as better information becomes available through 
scientific research and operational experience.
    Under step one of the plan, bison are generally restricted to areas 
within or just beyond the park's northern and western boundaries. Bison 
attempting to leave the park are herded back to the park. When attempts 
to herd the bison back to the park are repeatedly unsuccessful, the 
bison are captured or lethally removed. Generally, captured bison are 
tested for brucellosis exposure. <SUP>1</SUP> Those that test positive 
are sent to slaughter, and eligible bison--calves and yearlings that 
test negative for brucellosis exposure--are vaccinated. Regardless of 
vaccination-eligibility, partner agency officials may take a variety of 
actions with captured bison that test negative including, temporarily 
holding them in the capture facility for release back into the park or 
removing them for research. In order to progress to step two, cattle 
can no longer graze in the winter on certain private lands north of 
Yellowstone National Park and west of the Yellowstone River. Step two, 
which the partner agencies expected to reach by the winter of 2002/
2003, would use the same management methods on bison attempting to 
leave the park as in step one, with one exception--a limited number of 
bison, up to a maximum of 100, that test negative for brucellosis 
exposure would be allowed to roam in specific areas outside the park. 
Finally, step three would allow a limited number of untested bison, up 
to a maximum of 100, to roam in specific areas outside the park when 
certain conditions are met. These conditions include determining an 
adequate temporal separation period, gaining sufficient experience in 
managing bison in the bison management areas, and initiating an 
effective vaccination program using a remote delivery system for 
eligible bison inside the park. The partner agencies anticipated 
reaching this step on the northern boundary in the winter of 2005/2006 
and the western boundary in the winter of 2003/2004.
---------------------------------------------------------------------------
    \1\ If the Yellowstone bison herd exceeds a target population size 
of 3,000 bison as set forth in the IBMP, other management actions, such 
as removing the captured bison to quarantine or slaughter, may be taken 
to reduce the size of the herd.
---------------------------------------------------------------------------
    In 1997, as part of a larger land conservation effort in the 
greater Yellowstone area, the Forest Service partnered with the Rocky 
Mountain Elk Foundation--a nonprofit organization dedicated to ensuring 
the future of elk, other wildlife and their habitat--to develop a Royal 
Teton Ranch (RTR) land conservation project. The ranch is owned by and 
serves as the international headquarters for the Church Universal and 
Triumphant, Inc. (the Church)--a multi-faceted spiritual organization. 
It is adjacent to the northern boundary of Yellowstone National Park 
and is almost completely surrounded by Gallatin National Forest lands. 
The overall purpose of the conservation project was to preserve 
critical wildlife migration and winter range habitat for a variety of 
species, protect geothermal resources, and improve recreational access. 
The project included several acquisitions from the Church, including 
the purchase of land and a wildlife conservation easement, a land-for-
land exchange, and other special provisions such as a long-term right 
of first refusal for the Rocky Mountain Elk Foundation to purchase 
remaining RTR lands. The project was funded using fiscal years 1998 and 
1999 Land and Water Conservation Fund appropriations totaling $13 
million. <SUP>2</SUP>
---------------------------------------------------------------------------
    \2\ The Land and Water Conservation Fund Act of 1965 was enacted to 
help preserve, develop, and assure access to outdoor recreation 
resources. Among other purposes, appropriations from the fund may be 
used for federal acquisition of land and waters and interests therein. 
Pub. L. No. 88-578, 78 Stat. 897. 16 U.S.C. Sec. 460l-4, et seq.
---------------------------------------------------------------------------
Implementation of the IBMP Remains in Step One Because Cattle Continue 
        to Graze on RTR Lands
    Implementation of the IBMP remains in step one because cattle 
continue to graze on RTR lands north of Yellowstone National Park and 
west of the Yellowstone River. All Forest Service cattle grazing 
allotments on its lands near the park are held vacant, and neither 
these lands nor those acquired from the Church are occupied by cattle. 
The one remaining step to achieve the condition of cattle no longer 
grazing in this area is for the partner agencies to acquire livestock 
grazing rights on the remaining private RTR lands. Until cattle no 
longer graze on these lands, no bison will be allowed to roam beyond 
the park's northern border, and the agencies will not be able to 
proceed further under the IBMP.
    Although unsuccessful, Interior attempted to acquire livestock 
grazing rights on the remaining RTR lands in August 1999. The Church 
and Interior had signed an agreement giving Interior the option to 
purchase the livestock grazing rights, contingent upon a federally 
approved appraisal of the value of the grazing rights and fair 
compensation to the Church for forfeiture of this right. The appraisal 
was completed and submitted for federal review in November 1999. In a 
March 2000 letter to the Church, Interior stated that the federal 
process for reviewing the appraisal was incomplete and terminated the 
option to purchase the rights. As a result, the Church continues to 
exercise its right to graze cattle on the RTR lands adjacent to the 
north boundary of the park, and the agencies continue operating under 
step one of the IBMP.
    More recently, the Montana Department of Fish, Wildlife and Parks 
has re-engaged Church officials in discussions regarding a lease 
arrangement for Church-owned livestock grazing rights on the private 
RTR lands. Given the confidential and evolving nature of these 
negotiations, specific details about funding sources or the provisions 
being discussed, including the length of the lease and other potential 
conditions related to bison management, are not yet available.
    Although the agencies continue to operate under step one of the 
plan, they reported several accomplishments in their September 2005 
Status Review of Adaptive Management Elements for 2000-2005. These 
accomplishments included updating interagency field operating 
procedures, vacating national forest cattle allotments within the bison 
management areas, and conducting initial scientific studies regarding 
the persistence of the brucellosis-causing bacteria in the environment.
Federal Land and Easement Acquisitions Sought to Provide Critical 
        Habitat for Many Species, But Bison Access to These Lands 
        Remains Limited
    The lands and conservation easement acquired by the federal 
government through the RTR land conservation project sought to provide 
critical habitat for a variety of wildlife species including bighorn 
sheep, antelope, elk, mule deer, bison, grizzly bear, and Yellowstone 
cutthroat trout; however, the value of this acquisition for the 
Yellowstone bison herd is minimal because bison access to these lands 
remains limited. The Forest Service viewed the land conservation 
project as a logical extension of past wildlife habitat acquisitions in 
the northern Yellowstone region. While the Forest Service recognized 
bison as one of the migrating species that might use the habitat and 
noted that these acquisitions could improve the flexibility of future 
bison management, the project was not principally directed at 
addressing bison management issues.
    Through the RTR land conservation project, the federal government 
acquired from the Church a total of 5,263 acres of land and a 1,508-
acre conservation easement using $13 million in Land and Water 
Conservation Fund appropriations. <SUP>3</SUP> As funding became 
available and as detailed agreements could be reached with the Church, 
the following two phases were completed. In Phase I, the Forest Service 
used $6.5 million of its Fiscal Year 1999 Land and Water Conservation 
Fund appropriation to purchase Church-owned lands totaling 3,107 acres 
in June and December 1998 and February 1999. Of these lands, 2,316 
acres were RTR lands, 640 acres were lands that provided strategic 
public access to other Gallatin National Forest lands, and 151 acres 
were an in-holding in the Absaroka Beartooth Wilderness area.
---------------------------------------------------------------------------
    \3\ The Forest Service and the Church chose not to complete the 
land-for-land exchanges proposed in the conservation project.
---------------------------------------------------------------------------
    In Phase II, BLM provided $6.3 million of its Fiscal Year 1998 Land 
and Water Conservation Fund appropriations for the purchase of an 
additional 2,156 acres of RTR lands and a 1,508-acre conservation 
easement on the Devil's Slide area of the RTR property in August 1999. 
In a December 1998 letter to the Secretary of the Interior from the 
Chairs and Ranking Minority Members of the House and Senate Committees 
on Appropriations, certain conditions were placed on the use of these 
funds. The letter stated that ``the funds for phase two should only be 
allocated by the agencies when the records of decision for the 
`Environmental Impact Statement for the Interagency Bison Management 
Plan for the State of Montana and Yellowstone National Park' are signed 
and implemented.'' The letter also stated that the Forest Service and 
Interior were to continue to consult with and gain the written approval 
of the governor of Montana regarding the terms of the conservation 
easement. Under the easement, numerous development activities, 
including the construction of commercial facilities and road, are 
prohibited. However, the Church specifically retained the right to 
graze domestic cattle in accordance with a grazing management plan that 
was to be reviewed and approved by the Church and the Forest Service. 
The Church's grazing management plan was completed in December 2002, 
and the Forest Service determined in February 2003 that it was 
consistent with the terms of the conservation easement. The Church 
currently grazes cattle throughout the year on portions of its 
remaining 6,000 acres; however, as stipulated in the conservation 
easement and incorporated in the grazing management plan, no livestock 
can use any of the 1,508 acres covered by the easement between October 
15 and June 1 of each calendar year, the time of year that bison would 
typically be migrating through the area.
    While purchased for wildlife habitat, geothermal resources, and 
recreational access purposes, the federally acquired lands and 
conservation easement have been of limited benefit to the Yellowstone 
bison. As previously noted, under the IBMP, until cattle no longer 
graze on private RTR lands north of the park and west of the 
Yellowstone River, no bison are allowed to migrate onto these private 
lands and the partner agencies are responsible for assuring that the 
bison remain within the park boundary.
    Mr. Chairman, this concludes my prepared statement. Because we are 
in the very early stages of our work, we have no conclusions to offer 
at this time regarding these bison management issues. We will continue 
our review and plan to issue a report near the end of this year. I 
would be pleased to answer any questions that you or other Members of 
the Subcommittee may have at this time.
GAO Contacts and Staff Acknowledgments
    For further information on this testimony, please contact me at 
(202) 512-3841 or <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f49a958e8e95869b86b493959bda939b82da">[email&#160;protected]</a> Contact points for our Offices of 
Congressional Relations and Public Affairs may be found on the last 
page of this statement. David P. Bixler, Assistant Director; Sandra 
Kerr; Diane Lund; and Jamie Meuwissen made key contributions to this 
statement.
Related GAO Products
    Wildlife Management: Negotiations on a Long-Term Plan for Managing 
Yellowstone Bison Still Ongoing. GAO/RCED-00-7. Washington, D.C.: 
November 1999.
    Wildlife Management: Issues Concerning the Management of Bison and 
Elk Herds in Yellowstone National Park. GAO/T-RCED-97-200. Washington, 
D.C.: July 1997.
    Wildlife Management: Many Issues Unresolved in Yellowstone Bison-
Cattle Brucellosis Conflict. GAO/RCED-93-2. Washington, D.C.: October 
1992.
GAO's Mission
    The Government Accountability Office, the audit, evaluation and 
investigative arm of Congress, exists to support Congress in meeting 
its constitutional responsibilities and to help improve the performance 
and accountability of the federal government for the American people. 
GAO examines the use of public funds; evaluates federal programs and 
policies; and provides analyses, recommendations, and other assistance 
to help Congress make informed oversight, policy, and funding 
decisions. GAO's commitment to good government is reflected in its core 
values of accountability, integrity, and reliability.
Obtaining Copies of GAO Reports and Testimony
    The fastest and easiest way to obtain copies of GAO documents at no 
cost is through GAO's Web site (www.gao.gov). Each weekday, GAO posts 
newly released reports, testimony, and correspondence on its Web site. 
To have GAO e-mail you a list of newly posted products every afternoon, 
go to www.gao.gov and select ``Subscribe to Updates.''
    The first copy of each printed report is free. Additional copies 
are $2 each. A check or money order should be made out to the 
Superintendent of Documents. GAO also accepts VISA and Mastercard. 
Orders for 100 or more copies mailed to a single address are discounted 
25 percent. Orders should be sent to:

U.S. Government Accountability Office
441 G Street NW, Room LM
Washington, D.C. 20548

To order by Phone: Voice: (202) 512-6000
TDD: (202) 512-2537; Fax: (202) 512-6061
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Soukup and Dr. Clifford, if 
the people you indicated want to join you at the table, this 
would be the appropriate time to do so. While that is 
occurring, let me begin with a question that the Governor 
referenced in his comments, and that is the question is what is 
the current status of negotiations between the state and the 
owners of the Royal Teton Ranch and the other part of that 
question is, has the Federal government through the appropriate 
agencies been participating in those discussions? Governor?
    Governor Schweitzer. As has been suggested, there is an 
ongoing negotiation with the Royal Teton Ranch. Almost all real 
estate deals start with about six or eight no's before you get 
to a yes. We are probably in the fourth or fifth no right now 
on our way to a yes. So until you have a yes, until you have a 
deal there is really nothing to talk about but I am confident 
that there is a willingness on both sides to move toward a 
permanent easement that would remove cattle, sheep and goats 
from that property so that if bison do leave--and they do leave 
during the tough winters--that there would be a temporal space 
where we would not have cattle and bison occupying the same 
space.
    This is only a beginning. They are the largest cattle 
raiser in the area. They are one of the few ranches that keep 
cattle during an entire 12-month period. If you look at the map 
in the west Yellowstone area, there are no cattle that stay 
there through the winter months. The snow is just too deep. 
They take too much snow. There are a couple of other operators 
in the RTR area but they are the predominant operator.
    Mr. Grijalva. Thank you, Governor. Let me just a quick 
question for Dr. Clifford. We heard as part of the testimony 
that the implementation of the management plan there is an 
attendant cost of about a million dollars a year that was 
discussed, and in terms of the inspection service, what is the 
yearly cost of working and implementing that management plan 
agreement? Do you have a figure?
    Mr. Clifford. We actually through Congress and actually 
through earmarks in 2006 provided $277,000 to the State of 
Idaho, $980,800 to the State of Montana and $277,000 to the 
State of Wyoming.
    Mr. Grijalva. That is that yearly allocation?
    Mr. Clifford. That was in 2006. In 2007, our line item was 
reduced by that amount from 2006 of a total of $10.3 million to 
$8.9 million.
    Mr. Grijalva. Thank you very much. Ms. Nazzaro, when do you 
estimate that the review would be completed and what point are 
we in that review process just as a general point of 
information?
    Ms. Nazzaro. At this point, we have not negotiated a final 
product or the issuance date of that product. The original 
request letter from Mr. Rahall and Mr. Hinchey asked us to look 
at the progress in implementing the plan, the interagency bison 
management plan, as well as associated costs and challenges, to 
identify the lands that were acquired for the $13 million in 
Federal funds, and what advances had been made in developing 
the brucellosis vaccine and remote delivery method.
    To date, we have focused primarily on the progress in 
implementing the plan and what was acquired for the Federal 
funds. At this point, we toured the bison management area in 
Yellowstone. We attended an interagency meeting sponsored by 
the joint agencies and have interviewed a number of state and 
Federal officials as well as interested stakeholder groups and 
obtained relevant information.
    We are in what we call the design phase. So we are trying 
to determine what information is available, how difficult is it 
to obtain, and what we will do then at that point is negotiate 
with the staff on a timeframe and a product.
    Mr. Grijalva. Thank you very much. And one last question 
for Mr. Soukup and Superintendent Lewis if appropriate. It is a 
general question. Why do bison leave the Park? The written 
testimony by Dr. Kay, who will be testifying later, argues that 
they leave because the Park is overgrazed. First of all, is 
that why they leave? And if that were true, would they not 
leave all year round as opposed to just in the winter if it is 
overgrazed? General response to that.
    Ms. Lewis. Thank you very much. The bison leave the Park, 
as they have for centuries, in search of food outside the Park 
because their winter range inside the Park is covered with 
snow. So they are doing what they have done for centuries. They 
move to lower elevation during the winter months where there is 
a greater opportunity for forage for them but it is not because 
the Park is overgrazed. It is because it is winter, and the 
ground is covered with snow, and in many locations it is 
covered with deep snow.
    Mr. Grijalva. Any comments, Mr. Soukup?
    Mr. Soukup. I would just add to that that there is fairly 
good science available that indicates that the bison herd is 
nowhere near the carrying capacity of the range. Numbers in the 
literature, over five to 7,500. So we do not believe it is 
overgrazing but it is a long-held migration that bison do in 
response to the conditions in the winter.
    Mr. Grijalva. Governor, did you want to make a comment?
    Governor Schweitzer. Well I think there is an interaction. 
It is true the tougher the winter the more bison leave the 
Park. That is clear. But it is also true that the more bison we 
have in the Park the more likely they are to leave during the 
winter. They will scratch around and get to some feed, and they 
hang out around the hot pots.
    Any of you that would like to go in and watch the buffalo 
during the winter, if you go to some of the hot spots in the 
Park, it kind of looks like a feedlot because they hang around 
those warm areas, and they graze right around those areas. The 
question is how many bison would we have to reduce the number 
to that they would stay in the Park five out of six years? 
There is probably no number, even down to 50 head, that would 
keep them in the park every winter but how about a five out of 
six? A six out of seven?
    I hear up to 7,000 head in the Park. I am a rancher. I go 
down to the Park every once in awhile, and I know that if you 
do not push them up into the high country, move them around 
like--I wanted to call you Denny--but it is Congressman Rehberg 
back here, right? Like he said, if you do not have some way of 
moving them around, they are going to hang around where it is 
easy, and so it might be theoretically that 7,000 could run 
there but I can tell you with 3,600 and the number of elk that 
we have sharing the space with them you do not have to drive 
around much in the Park to see that it is grazed a little bit 
more than most of the ranches in Montana.
    Mr. Grijalva. Thank you for your responses to the 
questions. With that, let me turn to Ranking Member Mr. Bishop 
for any questions he might have.
    Mr. Bishop. Thank you again. It may be Denny for you. He 
makes me call him sir. Director Soukup, if I could ask you a 
couple of questions. I understand that the brucellosis in Idaho 
and Wyoming was not caused by buffalo. It was caused by elk. Is 
the elk herd in the Park, Yellowstone Park, brucellosis-free? 
Whomever wants to answer.
    Mr. Soukup. It is my understanding that there is 
brucellosis at a very small incidence rate in the Park. The 
incidence rate for elk are enormously high in those areas 
around the feedlots, and especially I think in Idaho and 
Wyoming feedlots. It is where the highest ratio is.
    Mr. Bishop. Was I accurate in my original assumption that 
Idaho and Wyoming lost--and Wyoming regained--their 
brucellosis-free based on contact with elk and not with bison?
    Mr. Soukup. Yes, that is correct.
    Mr. Bishop. All right. And the Governor made a couple of 
really good points there. If the issue, Director Soukup, was a 
free-range for bison or a brucellosis-free herd, which is the 
higher value? Brucellosis-free herd or range for bison, which 
would be a higher value?
    Mr. Soukup. I believe it would be our position that the 
free-roaming herd can be made brucellosis-free over time with 
the appropriate----
    Mr. Bishop. That is not what I asked. Which is the higher 
value?
    Mr. Soukup. We believe maintaining the free-roaming herd is 
the higher value.
    Mr. Bishop. Over having a herd that is brucellosis-free?
    Mr. Soukup. Yes.
    Mr. Bishop. OK. Can I ask you what you consider to be the 
ultimate size of the herd that should be in Yellowstone Park?
    Mr. Soukup. We believe that the herd will be regulated by 
natural conditions that until it gets up to 7,500 we do not 
think there is even an issue about reaching the carrying 
capacity.
    Mr. Bishop. Has there ever been a historic time in the Park 
where it has been as high as 7,500?
    Mr. Soukup. No.
    Mr. Bishop. And if they are going to self-regulate, you 
assume that the wolf and other predators are going to regulate 
that size?
    Mr. Soukup. Well the primary regulator that we have seen in 
the past has been the harsh winters. We know that the wolf is 
starting to be a factor in that some of the packs are feeding 
and a couple of them are feeding solely on bison. So there will 
be some impact from the wolf reintroduction but we believe that 
the harsh winters are a major factor.
    Mr. Bishop. I guess what you ought to do is convince the 
wolves that you know bison is a leaner meat than the cows 
around there, and therefore their cholesterol would go down if 
they attack more. I do have a problem in realizing or thinking 
that either a wolf devouring a bison or starvation of a bison 
is the most humane way of managing a herd, but if that is your 
position that is your position. In 1934, the Federal government 
had a brucellosis eradication program that was successful. What 
were the techniques that were used in that program?
    Ms. Lewis. You are referring to a program in Yellowstone 
National Park?
    Mr. Bishop. Yes.
    Ms. Lewis. OK. At that time it was test and slaughter.
    Mr. Bishop. And it worked.
    Ms. Lewis. No.
    Mr. Bishop. Let me get the next question. In 1932, the Park 
had a boundary adjustment. How many acres were added in that 
time to the boundary?
    Ms. Lewis. I am going to estimate that I think that it was 
around 8,000 acres, and you are referring to the north end of 
the Park, outside the north end around today what is the 
community of Gardner, Montana.
    Mr. Bishop. All right. I thank you because I did not know 
exactly where that was. I appreciate that. Can I ask that Dr. 
Clifford from APHIS? As I understand it, brucellosis vaccines 
that we have right now are around 75 percent effective in their 
rate of controlling the disease. Is that an accurate statement?
    Mr. Clifford. I think you have to look at the particular 
species that you are referring to. With the particular vaccine 
that we use today and we are doing research to try to develop 
better vaccines, you can reduce the amount of abortions in 
bison but you do not really reduce that much maternal 
transmission. So the cows would still get the disease but you 
certainly can reduce the amount of abortion which will 
therefore reduce the amount of the bacteria in the environment, 
and therefore reduce the possibility of spread.
    Mr. Bishop. What I think you are telling me is that we do 
not have a vaccine that is 100 percent yet.
    Mr. Clifford. No, sir.
    Mr. Bishop. We have to use some other mechanism.
    Mr. Clifford. We do not have a vaccine that is 100 percent.
    Mr. Bishop. But I am assuming we are working to try and 
develop that?
    Mr. Clifford. We are trying to develop a better vaccine.
    Mr. Bishop. I have 12 seconds to do this. Ms. Nazzaro, when 
you come out with your report--which you have not done yet--are 
you going to consider the issue of elk as well as bison in your 
report?
    Ms. Nazzaro. What issue? As far as the transmission of 
brucellosis?
    Mr. Bishop. Yes, you have it.
    Ms. Nazzaro. That had not been originally covered under the 
scope.
    Mr. Bishop. If we were to do----
    Ms. Nazzaro. I am not quite sure what the issue would be.
    Mr. Bishop. Considering what happened in Wyoming and Idaho 
out of elk, if we were to do a report that did not consider 
both elk and bison as far as the transfer of brucellosis, that 
is really kind of a halfway approach to it or a halfway report, 
is it not?
    Ms. Nazzaro. I think we could certainly mention the fact 
that you know that there has been transmission. I know in our 
testimony we are mentioning that there has not been 
transmission from the bison to the cattle in the wild. You know 
we did not go that far in the testimony but I would think we 
would want to give that context that you mentioned certainly.
    Mr. Bishop. I think it would be wise. I apologize for going 
over my time.
    Mr. Grijalva. Thank you, Mr. Bishop. Let me turn for any 
questions that Chairman Rahall may have.
    Mr. Rahall. Thank you, Mr. Chairman. Governor, let me ask 
you the first question, and I would certainly agree with you 
that the existing regime or the status quo does not bode well 
for keeping Montana cattle disease-free while at the same time 
maintaining the integrity of the Yellowstone bison herd, and 
you mentioned in your testimony or rather I guess yes, you did, 
that on average the National Park Service is spending a million 
dollars annually, is that correct?
    Governor Schweitzer. That is my understanding, and I think 
we heard from Dr. Clifford that in 2006 nearly another million 
bucks was spent by APHIS.
    Mr. Rahall. That is what I was going to add. So we are 
taking it up to well over $2.4 million as a cost to the Federal 
government currently. So I guess I would ask you a further 
question. What would you estimate the buyouts to be that you 
discussed as one of the tools that you would need to properly 
protect your cattle?
    Governor Schweitzer. Well maybe four or five times that 
annual investment. In other words, it could be in a range from 
$5 to $10 million, depending on how much we negotiated, on how 
much of that private land, and what the actual cost would be. 
Bottom line is you have nailed it, Mr. Chairman. It is much 
cheaper to take the long goal, get a permanent solution, than 
it is to pay a couple of million dollars a year to slaughter 
bison, to round them up, to use snowmobiles and helicopters, to 
chase them back and forth.
    We do not have a long-term solution. The Federal government 
is just throwing a bunch of money away in the greater 
Yellowstone area with the plan that we have right now. The plan 
is not working. It is not mitigating the management of 
brucellosis. We need to be realistic and find a solution that 
ends with Montana not losing our brucellosis-free status as has 
occurred with our neighbors.
    Mr. Rahall. And saving the taxpayers money as well.
    Governor Schweitzer. Well we always like it when Congress 
sends a few more dollars to Montana but in this particular case 
I think it would be better to leave the dollars in Washington, 
D.C. and have a permanent solution for bison management that 
does not end with Montana losing its brucellosis-free status.
    Mr. Rahall. Thank you. Any of the other panel which to 
comment on that?
    Ms. Nazzaro. Well we have not pulled together all of the 
cost figures yet but I think you do need to realize that there 
will be ongoing monitoring so there will still need to be some 
cost associated with the bison management. That will be an 
ongoing program you know regardless of whether you move forward 
in acquiring additional lands for the bison.
    Mr. Rahall. And will those costs be a part of your upcoming 
report?
    Ms. Nazzaro. Yes.
    Mr. Rahall. I appreciate it. Appreciate each of you for the 
job you do, and Ms. Nazzaro, it is good to see you again before 
our Committee.
    Ms. Nazzaro. Thank you, sir.
    Mr. Rahall. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, Mr. Rahall. Let me turn for any 
questions to Mr. Heller.
    Mr. Heller. Thank you, Mr. Chairman. Governor, it is good 
to see you again. Glad to have you back. I guess I am a little 
confused on your testimony, and maybe you can clarify. I am 
trying to figure out whether you are for active management of 
brucellosis or you are actually for expanding the size of the 
Park. What is the long-term answer to this in your opinion?
    Governor Schweitzer. The former, not the latter. I have not 
advocated increasing the size of the Park nor am I advocating 
for increasing the size of the land that the bison occupy when 
they leave the Park. What I am advocating for is number one and 
the best solution would be for Congress to give the tools to 
Yellowstone National Park to actively manage the bison to 
eradicate brucellosis. Now I want to be honest with you here.
    There are some folks that when it comes right down to it 
that are in the livestock business in Montana that would not 
necessarily appreciate that solution because you see if the 
bison population in Montana were brucellosis-free, then they 
would become a free-ranging, wild game species. They would work 
their way down the Madison and the Yellowstone. They would run 
down the streets of Bozeman. They would be standing in the 
middle of the interstate. They would be stopping trains.
    They would be running through fences across eastern 
Montana, and so you see there will be some folks who tell you 
that the most important thing we need to do is eradicate 
brucellosis but when it comes right down to having the tools to 
eradicate brucellosis, they know that ultimately if the wild, 
free-ranging herd has brucellosis eradicated then there will be 
virtually no limitations other than hunting to the size of the 
population of the bison herd in Montana.
    Mr. Heller. Just one follow-up. Do you not have a current 
problem with the elk herds? In other words, are they not then 
able to--they are free-roaming--they have the same issues?
    Governor Schweitzer. In Wyoming in particular, they winter 
feed. They feed hay to their elk population. They congregate 
them, and their herd of elk have brucellosis incidence of some 
30, 40 percent. Idaho has a limited amount of winter feeding, 
and I am proud to say in Montana we do not winter feed our elk. 
The number of elk that we have survive because they have the 
skills to find their own grass and make their way around.
    Our incidence of brucellosis is around 1.8 percent in the 
elk herd in the greater Yellowstone area. So by not 
congregating the elk in a wild management system in Montana, to 
this point, we have managed to check the growth of brucellosis. 
Thank you.
    Mr. Heller. Thank you, Governor. I yield back my time.
    Mr. Grijalva. Thank you. Let me turn to Mr. Kind for any 
questions.
    Mr. Kind. Thank you, Mr. Chairman. I appreciate a chance to 
have this important hearing today, and I want to welcome 
Superintendent Lewis back to the Committee here in Washington. 
I had the pleasure to go out and visit beautiful Yellowstone 
last August and received an excellent briefing from her and her 
staff on a whole host of issues, including this one, and I 
would really commend the people at Yellowstone Park for their 
management of this issue, trying to be a good neighbor, while 
at the same time trying to be the proper steward of this 
incredibly important resource that we have which is attacking 
us as we speak apparently. We have a free-roaming herd behind 
the witnesses today.
    But I want to thank all the witnesses for your testimony. 
Governor, you too. I think you have shed some light on some 
various aspects of this issue that I think the Committee will 
have to seriously consider, and we would like to follow up with 
you in regards to the outreach you are doing with the private 
landowners in regards to a possible buyout program, what it 
would take, whether there is interest even in going down that 
path, because it certainly seems one way of being able to 
contain what I think is a very manageable issue at this point.
    And I understand in your testimony today that you really 
have not been able to calculate an approximate cost as far as a 
buyout plan, is that correct? You have not reached that level 
of detail yet?
    Governor Schweitzer. Well I can give you the background 
math. In the west Yellowstone area, the area that is 
represented on this map in this area, since there is not a 
single operator who owns the land and raises cattle, we had one 
operator that was from Idaho that sold his land, then it is 
just a question of finances for these folks. They are private 
landowners.
    Mr. Kind. Right.
    Governor Schweitzer. There are cattle that are brought in 
for a few months during the summer. The total numbers are 
around 500, 600 head for a three or four-month period. They pay 
about 20 to $25 per cow and calf per month. You can do the 
math. We give them a little more than that and tell them they 
can raise horses and mules. So you can do that math. And in the 
Gardner area, the numbers are probably about 250 to 300 that 
are there permanently, times 12 months, times that 20, 25 
bucks. There is your math.
    There will be those in the livestock industry who say, well 
this is just the nose under the camel's tent. These are people 
who are just trying to push livestock people off of their land. 
No, I am a rancher. I have made a living in the livestock 
business. I can tell you this though, we will not allow a 
footprint the size of New York City on the map of the United 
States, this small area, to put our entire billion dollar 
livestock industry at risk in Montana. It makes sense for us to 
be proactive, to work with these private landowners, to 
compensate them a market value, and allow them to continue to 
raise horses and mules.
    Mr. Kind. Right. Now it is my understanding in part of the 
briefing I received last summer is that a lot of the movement 
of the buffalo is dependent on winter conditions. In some 
winters you are going to have a large exodus or a larger 
exodus, and I think this most recent winter the numbers have 
been relatively low, is that correct?
    Ms. Lewis. We have had bison move this winter but not in 
large numbers. We have not captured any bison this winter but 
we probably had more than 500 events where we are hazing every 
two days, every three days. Approximately about 150 head of 
bison were moving around the north boundary of the Park. As of 
last night, there were no bison on the boundary on the west 
side of the Park, no bison on the boundary of the north side of 
the Park. We have been experiencing very warm temperatures over 
the last two weeks. Green up is starting a little bit earlier, 
and again the bison turn and begin to move back into the Park.
    Mr. Kind. Ms. Nazzaro, I think I was walking in, in the 
middle of your response, but is it my understanding, based on 
your testimony, that GAO does not have purview of looking at 
the possibility of a buyout plan given the audit that you are 
doing now with the bison management plan? You are not looking 
into a buyout proposal?
    Ms. Nazzaro. We are looking at the various costs associated 
with the current operations but no, we are not looking at what 
this additional buyout could cost. That is possibly something 
if we talk options down the road as to we would want to include 
the cost of those various options. So I could see us getting 
into it. It is not specifically prescribed, if you will, and 
that is why I say when we are in the design phase we try to go 
in and try to ascertain what are the issues, what are some 
potential solutions, and then we go back and talk with our 
clients and suggest possibly expanding the audit. Of course it 
always depends on their timeframes and you know the resources 
we have available.
    Mr. Kind. Governor, one final question. What would be the 
economic impact on your state if you lose brucellosis-free 
status?
    Governor Schweitzer. Montana has some of the greatest 
numbers of purebred cattle of any state in the union, whether 
that be Angus or Limousin or Charolais or the business that I 
have been in, the simmental business. We export semen and 
frozen embryos and cattle all over the world. You can go to 
Argentina, go to a ranch and ask them you know tell me about 
the genetics of your angus cattle, and they will start ticking 
off names of bulls that were bred in Montana.
    So we have a billion dollar cattle industry in Montana but 
the limitation of moving our cattle around, moving to feedlot, 
is only a fraction of the cost that would be borne by those in 
the purebred industry that would lose their opportunities to 
export Montana beef genetics all over the world. It is hundreds 
of millions of dollars.
    Mr. Kind. OK. Thank you, Mr. Chairman.
    Governor Schweitzer. Per year.
    Mr. Kind. I appreciate it.
    Mr. Grijalva. Thank you. Mr. Rehberg, any questions?
    Mr. Rehberg. Thank you, Mr. Chairman. I will not abuse the 
privilege of sitting up here. I thank you for giving me this 
quick opportunity. The GAO, during their investigation, did 
they look at what Ms. Lewis had suggested, the purchase of 
property I believe in 1932 was an expansion of the Park clearly 
to the north? Clearly that did not solve the issue.
    So as you look at the memorandum or the interagency 
agreement, do you put any kind of a value on whether that is 
the trend or do you only look at that was the agreement that we 
are going to try and change the migration pattern of the bison 
out of the Park? Ultimately where do you come down? Do you do a 
cost benefit analysis on one answer versus the other? And more 
simply, will you make a determination is it better to vaccinate 
and clean up the herd or buy more easements or property to 
solve the bison and migration issue?
    Ms. Nazzaro. I could see us certainly providing a number of 
options. We would look at--if I understand the first part of 
your question--from a historical perspective what has been 
tried in the past and how successful or unsuccessful that has 
been. That would be factored in but we would do kind of a cost 
benefit analysis. We would talk about the pros and cons. What 
you would get. What the various costs would be and probably lay 
it out more as options to the Congress.
    Mr. Rehberg. One of the concerns I have heard from the 
ranging community in Montana is their nervousness that they 
have not been contacted as far as getting public input. Is that 
part of your study? Do you have people actually go out and talk 
to somebody that knows something about grazing or is this all 
done internally among the various Federal agencies?
    Ms. Nazzaro. No. We definitely contact stakeholders during 
the course of our review. In fact, we did attend the 
interagency sponsored public meeting that was held by the 
various Federal agencies and state agencies. There were a 
number of ranchers there as well as other interested parties. 
We were contacted specifically by a rancher who wanted to meet 
with my staff, and they met with him on a Sunday afternoon to 
discuss his concerns.
    Mr. Rehberg. So if they contact you, you are perfectly 
willing and able to?
    Ms. Nazzaro. We would, and just under the course of our 
review we would try. I mean we pride ourselves as far as our 
independence and our balance that we give to an effort. So we 
would contact all stakeholders in this case.
    Mr. Rehberg. Suzanne, if I could ask you a question, and as 
you know or I mentioned I was down in Yellowstone Park 
snowmobiling and looking at the bison just literally two weeks 
ago. I would agree with the Governor. It is overgrazed in the 
areas that are open. That is part of the difficulty is the 
pattern of grazing within the Park, and I know they are free-
roaming but sometimes they need to be guided to their free-
roaming areas.
    Because one of the things I saw was a lot of wildlife 
biologists out there. There were airplanes flying all over the 
place taking pictures or counting. There were people on 
snowmobiles out there. Wildlife biologists counting. Do you in 
fact map the migration of the bison so that if you were to put 
the map of the one that is over there with the yellow park, 
could you tell me exactly where the 3,600 head are? Because my 
simple math is you get 2.2 million acres. You have 3,600 
animals. You have about 700 acres per bison.
    The Governor and I are both in the same business. I have 
been in the cattle business. I am fifth generation on the same 
ranch, and I can tell you a bison takes about 50 acres per 
bison for year-round grazing or 25 acres for six-month grazing 
if they are going off and eating somewhere else. There is a big 
difference between 50 acres or give them 100 acres and the 700 
acres, the numbers work out. Do you in fact as the manager of 
the Park know where those bison are, how well they are 
distributed, and are they in fact taking full advantage of the 
grass that is available to them?
    Ms. Lewis. Yes, we do, Congressman. We have extensive 
monitoring that has been conducted for more than a decade, and 
we understand where the herds are and how they move year-round 
throughout the Park. There are several herds, the Mary Mountain 
herd, the Pelican Valley herd, the Madison herd, the herd on 
the north end. As you yourself just mentioned, with 
approximately 3,600 bison that we just finished the late winter 
count and we have been again like I said hazing maybe about 120 
head on the north end, again that tells us that more than 3,400 
of the bison are well entrenched in the Park, do not get up and 
move during the winter months.
    They are different herds with different herd behavior, 
different knowledge that they have about where they go in the 
winter. As the Governor mentioned, many of them do live in the 
thermal areas where they are able to feed on small lichen, stay 
warm throughout the winter. So most of the bison herd does not 
move during the winter months. The majority of them stay within 
the Park.
    Mr. Rehberg. The troublemakers. Mr. Chairman, would it be 
appropriate to ask for the mapping of the migration patterns? I 
think that would be very helpful because in all the years I 
have served and worked on this Committee, I have never seen 
that provided to the Committee. I think it would be helpful to 
show that there are troublemakers around the edge, and rather 
than continually buying additional property or easements around 
the Park, let us deal with the troublemakers.
    Ms. Lewis. We would be happy to supply that data and those 
maps.
    Mr. Grijalva. Thank you very much. Thank you for helping 
the Committee identify the troublemakers in this whole process. 
With that, let me ask Mr. Inslee if he has any questions.
    Mr. Inslee. Thank you, Mr. Chair. Governor, thanks for 
being here. It always amazes me that you have such a well 
managed state. You manage to take care of the country too up 
here in Washington, D.C. We appreciate that. I wanted to ask I 
read in your testimony--I did not get to hear your testimony--
but I read that one idea you had floated is a special zone 
where you would have 100 percent testing and special zones with 
the agreement of APHIS that if there was an infection in that 
special zone it would not affect the whole state. Could you 
just either elaborate or tell us what APHIS' response has been 
and where that may end up going?
    Governor Schweitzer. Well APHIS has a rule that says two 
strikes and you are out, not three, two. So if two separate 
herds of Montana or any other state have an animal that tests 
positive for brucellosis, the whole state loses their 
brucellosis-free status. But since this mixing zone is such a 
small footprint in the State of Montana, it is a thumb of the 
entire map of Montana on a map this size, it does not make any 
sense to risk all the cattle that are 300 and 400 and 500 miles 
away from this mixing zone.
    And so if we are not capable, if we do not want to actively 
purchase some conservation easements until we can eradicate 
brucellosis, another option would be to draw a 50 or 100-mile 
line around the Park, and the few head of cattle that enter 
that area in Montana would be held to a higher standard. They 
would have 100 percent test. They would be tested before they 
entered. They would be tested when they left.
    And if we did have two, three or four herds that showed a 
positive animal, those herds would lose their brucellosis-free 
status. They would be quarantined until they cleaned it up but 
it would not affect the status of the rest of Montana.
    Mr. Inslee. Do you think that would have the support of the 
industry, that heightened inspection criteria?
    Governor Schweitzer. It has the support of some of the 
industry. In Montana we have several livestock groups. There is 
the Montana Stock Growers Association who have not been 
particularly warm to any of these ideas, some of which because 
there is a pride of authorship because they were involved in 
the negotiation in 2000 which probably ended up with a document 
that I am not particularly proud of.
    The Montana Cattlemen's Association, which is a much larger 
organization, they have endorsed either one of these ideas that 
I have proposed today, in addition to eradicating brucellosis 
in the Park among the bison. So it is like all industries. 
There are different opinions but ultimately everyone agrees in 
Montana that is in the livestock industry we do not want to 
lose our brucellosis-free status, and we think that the 
Department of Interior ought to work with the Department of 
Agriculture.
    After all, the United States Department of Interior has the 
responsibility of managing the buffalo, and it is the United 
States Department of Agriculture that decides whether we lose 
our brucellosis-free status. So we think that they ought to 
work together here in Washington D.C. not to dump the problem 
on us in Montana when the buffalo leave the Park. Thank you.
    Mr. Inslee. What is APHIS' response to that idea?
    Mr. Clifford. Basically when you are talking about the 
issue of zoning, really that is what the Governor is talking 
about is zoning out, zoning is done when a disease enters that 
particular area and the state requests it. Then we consider 
whether zoning or regionalization is appropriate at that 
particular time not prior to. Our ultimate goal is for the 
elimination and eradication of brucellosis from the entire 
U.S., both wildlife and domestic livestock. That goal has been 
met in 48 states. The State of Idaho and the State of Texas are 
the only two states that are not recognized free.
    The standards that are set for the program are not just set 
by USDA. It is a cooperative program with the industry and the 
states, and so all of us together have set these standards 
nationally for the brucellosis program. So if you start 
changing those standards, it would require us to go out with 
our partners, both at the industry and as well with the other 
states, to consider those changes to the program.
    Mr. Inslee. Is that underway? Should it be underway? Should 
those discussions take place? I mean is there any reason not to 
do it prospectively rather than retroactively?
    Mr. Clifford. I think there is really no point at this 
point in time to be changing the program that has been so 
effective for so many years.
    Mr. Inslee. Sounds like an answer, Governor, that might not 
be the one you are looking for.
    Governor Schweitzer. Well, I do not know that it has been 
so effective for so many years because my neighbors in Wyoming 
and Idaho do not think that it has been so effective.
    Mr. Inslee. Right.
    Governor Schweitzer. They believe that the greater 
Yellowstone area has contributed to their loss of the 
brucellosis-free status. So to suggest that status quo is 
working when two out of three have already failed, I do not 
like to be the third one waiting in line for losing our 
brucellosis-free status. So we happen to disagree that it is 
working.
    Mr. Inslee. Is there not an argument, Mr. Clifford, that a 
prospective inspection protocol right on the boundaries of the 
Park actually gives consumers a greater level of protection 
than this sort of retroactive once it happens then we whack the 
whole state?
    Mr. Clifford. We certainly find with the prospective look 
as far as testing in and out of that the states can require 
that themselves. The State of Montana, the State of Wyoming, 
the State of Idaho can make those requirements within the 
state. They do not need the Federal government to make that 
determination and put those requirements in place. They can do 
that themselves, and we certainly support that if that is the 
direction they want to go with regard to testing.
    Mr. Inslee. Governor?
    Governor Schweitzer. Well that would be amazing. So the 
State of Montana decides we are going to test more cattle so we 
can find the two herds so they can put us out of compliance and 
lose our brucellosis-free status. If we are going to do that in 
this small area, we would suggest that every cow in America be 
tested, and under those testing regimes there would be many 
more states that would lose their brucellosis-free status, if 
we tested every single animal.
    So unless USDA is prepared to offer us the opportunity--if 
we do have two, three, four herds that ended up brucellosis 
positive--not to lose the entire state's brucellosis-free 
status, of course we would not subject our own herds to a 
higher standard of testing than the rest of the country.
    Mr. Inslee. Thank you.
    Mr. Grijalva. Thank you. I have some follow-up questions 
just to kind of finish up on some questions. Mr. Clifford, does 
the inspection service have any documentation of the 
transmission of brucellosis from bison to cattle in the wild?
    Mr. Clifford. Not in the wild but certainly captive bison 
that would not act any differently than wild bison. There is an 
article in the 1983 proceedings of the U.S. Animal Health 
Association where transmission occurred from a captive bison 
herd in the State of North Dakota to cattle.
    Mr. Grijalva. But my point is----
    Mr. Clifford. It is not wild but it is not research either. 
It was a captive herd of bison but the captive herd of bison is 
not going to act any differently than wild bison with regards 
to transmission. That is why spacial and temporal separation 
and other activities are so critically important. In addition, 
in Yellowstone National Park area there have been fetuses found 
and tested and brucella bordis isolated from those fetuses 
which is infective to cattle.
    Mr. Grijalva. But the statement I would consider true that 
as Chairman Rahall said in the wild there has never been a 
documented instance of that transmission?
    Mr. Clifford. To my knowledge, there has not been a 
documented case of wild transmission but there has been 
documented cases of bison to cattle.
    Mr. Grijalva. Thank you. And just for Mr. Soukup and 
Superintendent Lewis, are there discussions underway with 
tribes? Any discussion going on between Park Service or another 
Federal agency with tribes adjacent to the Park relative to 
them assuming some herd responsibility on the reservation for 
the bison? Has any of that discussion occurred?
    Ms. Lewis. Yellowstone enjoys and is very proud of part of 
its mission which is our relationship with the 26 tribes who 
are affiliated with the Park. We meet with those tribes on a 
regular basis. There is an actual intertribal bison committee 
that gives us a lot of input on how we conduct the interagency 
bison management plan. So they are part of our routine and 
ongoing discussions, and I think the Governor had a comment he 
wanted to offer.
    Mr. Grijalva. But specifically establishing bison in those 
reservations.
    Ms. Lewis. Currently the regulations controlling 
brucellosis through the Animal, Plant and Health Inspection 
Service prohibit us from transmitting any bison outside of the 
Yellowstone National Park because of the presence of the 
disease.
    Mr. Grijalva. Governor?
    Governor Schweitzer. But during the course of the last few 
years, when bison do leave the Park, young females have been 
captured, and with the idea that perhaps they might be young 
enough that they would still be brucellosis-free. We test them. 
If they are negative, we keep them in captivity until they have 
had their first calf, and the gold standard in this business is 
if they still do not have an elevated titer by the time they 
have their first calf, that they are brucellosis-free.
    Now that is preparing an opportunity of a repository of 
these genetics to be in a position to move them out of the 
greater Yellowstone area and presumably to some of the 
reservations. In addition, we have had all of the reservations 
in Montana and the Nez Perce tribe from Idaho involved in our 
hunts that we have been conducting in Montana. We issue some of 
the permits. They come. They hunt. They kill animals. They 
slaughter them. They take them back and feed them to members of 
their family and community.
    So I am hopeful that some of these animals that we have 
captured, these young females, will be a start of some genetics 
that we can move out to some of our Indian tribes, and give 
them an opportunity to raise some of these free-ranging 
genetics on their own reservations.
    Mr. Grijalva. Thank you. Last question. Mr. Clifford, does 
the inspection service have the legal authority to enter 
Yellowstone National Park to pursue a program of testing all 
bison in the Park and slaughtering those which test positive 
for brucellosis? Do you have that authority?
    Mr. Clifford. Our position is that we would work with the 
Park on that. I do not know that. You know we would have to go 
back and look at our particular authorities whether we would 
have that authority to do that or not. I really do not know if 
that authority exists on the papers. I do know that in time of 
emergency disease when the Secretary of Agriculture declares an 
emergency, that gives us very broad authority to take action 
for diseases like foot-and-mouth disease but in this case I 
think it would probably take that type of an emergency.
    Mr. Grijalva. Thank you. If you would, Mr. Clifford, just 
for the sake of the Committee's full information on that 
authority question, if you could provide that.
    Mr. Clifford. We will do that, sir.
    Mr. Grijalva. Thank you. Let me ask Mr. Bishop if he has 
any questions.
    Mr. Bishop. Yes. Let me be brief. I have two quick 
questions, and then perhaps a simple statement. Let me ask two 
questions about hunting if I could to Director Soukup again, 
and the Chairman touched on this. There are Indian tribes that 
have valid treaty rights allowing them to hunt in the Park. Is 
that part of your management plan?
    Ms. Lewis. There is no authority by which Native Americans 
can hunt inside Yellowstone National Park. The hunting that 
they have been participating in is outside the Park's boundary 
in the State of Montana by which their treaty rights do apply. 
They do not apply inside Yellowstone National Park.
    Mr. Bishop. We will look at that one in greater detail. I 
appreciate that comment. Congressman Mark Udall has introduced 
legislation that allows sports hunting to harvest elk in the 
Rocky Mountain National Park under very regulated conditions. 
If such legislation were introduced in Yellowstone, would your 
service, the Park Service, be supportive of that?
    Mr. Soukup. As I understand that legislation, I believe we 
have that authority already. We have the authority to use 
authorized agents. How you define that and who they might be is 
something that in each case we analyze in our public 
involvement process.
    Mr. Bishop. So I do not want to put words in your mouth. 
Did you just say you were supportive of that? Would be 
supportive or would not?
    Mr. Soukup. I believe we already have that authority.
    Mr. Bishop. Let me try this one more time. I do not want to 
put words in your mouth. Does that mean you would be supportive 
of that legislation?
    Mr. Soukup. I do not believe we would, sir.
    Mr. Bishop. Thank you for the answer. Let me ask two last 
questions, and once again for GAO. I recognize the report that 
was requested of you deals with bison only but the issue 
obviously is brucellosis, otherwise there would be no issue for 
the report. Any report that does not actively go out and try to 
add the element of elk which also is the purveyor of 
brucellosis as part of the equation means the report would 
basically be woefully inadequate when it is finished and given 
to us. I will simply say that as an up-front comment about it.
    And finally, Director of the Park Service, I am very much 
troubled in the one question that I did ask you. You gave me 
very good answers in many of them but the one question I asked 
you which would be the higher value, and making a brucellosis-
free herd was not your highest value. Greater Yellowstone Park 
is the only area where brucellosis is still a major problem.
    If we are not in active management of that herd to make it 
a brucellosis-free, we are failing in our responsibility, and 
if that is not your greatest responsibility and greatest value 
then there is something deeply wrong with what we are doing in 
that Park. If we could have this as a brucellosis-free area, in 
both of those areas, we would solve a whole lot of problems as 
opposed to trying to get buffer zones, which they would then 
inhabit. Then you would have to have a different buffer zone 
and other kind of processes.
    Simple logic tells us that should be the highest priority, 
and when you say that is not the highest priority there is 
something that is deeply wrong in the Park Service, and we need 
to talk about that in great detail later on. Thank you. I am 
done with the question.
    Mr. Grijalva. Thank you. Mr. Rahall?
    Mr. Rahall. No questions.
    Mr. Grijalva. No question. Mr. Rehberg?
    Mr. Rehberg. No.
    Mr. Grijalva. Mr. Kind?
    Mr. Kind. Thank you, Mr. Chairman. I will be brief. Just to 
follow-up on a couple of more questions but getting back to 
what Mr. Bishop was asking you a second ago, Mr. Soukup. What 
concerns would the Park have in regards to issuing limited 
hunting permits for this purpose? Do you see a management 
problem or----
    Mr. Soukup. I am sorry. I am not clear on what purpose your 
are referring.
    Mr. Kind. Well he was referencing Mr. Udall's legislation 
as far as Rocky Mountain National Park and issuing limited 
hunting rights for culling the elk heard there, and you 
indicated the Park may not be so inclined to embrace such a 
policy inside Yellowstone?
    Mr. Soukup. Well we have the authority to make reductions 
and to manage wildlife when we understand that there is a 
necessity to do that. Within that authority is the authority to 
use authorized agents. So----
    Mr. Kind. Bring in some sharpshooters in other words?
    Mr. Soukup. We often use the APHIS division that is very 
professional at this. They are very capable of doing this in a 
very clean, concise, quick way. We use them quite a bit. There 
is the possibility to use authorized agents that could be 
perhaps the----
    Mr. Kind. But just to pin you down a little bit. I think 
this is what Mr. Bishop was trying to get at is there is some 
concern about issuing some permits to private hunters inside 
the Park. What is the concern?
    Mr. Soukup. Well we have a long, very long tradition, and 
it is very clear in our legislation and all of our policies 
since 1872 that there is no hunting allowed in Yellowstone 
National Park.
    Mr. Kind. So just tradition mainly?
    Mr. Soukup. Well it is legal. It is in the enabling 
legislation.
    Mr. Kind. It is in the enabling act. Yes. Mr. Clifford, let 
me ask you briefly are we getting better at developing an 
accurate, nonlethal form of testing for brucellosis or is the 
most accurate test after you have killed the animal?
    Mr. Clifford. Actually there is very accurate tests with 
regards to blood tests that can be done. You do not have to 
kill an animal to diagnosis brucella.
    Mr. Kind. So you can do a pretty good calculation as far as 
the pure herds in Yellowstone right now if we had the resources 
to----
    Mr. Clifford. Well you have to capture the animal to be 
able to draw the blood.
    Mr. Kind. Right. Right. Governor, you seem willing to share 
some information with us.
    Governor Schweitzer. It is the doggonedest thing. When the 
buffalo leaves the Park, then the State of Montana is 
responsible to chase them around, to round them up or have a 
hunt. We have been hunting them for the last couple of years. 
We had 12 years. We went three consecutive administrations 
before me where we were not of the resolve to have a hunt.
    So we have been hunting them when they leave the Park but 
we have to wait until their nose crosses a line, and then we 
can shoot them. So the State of Montana has to fix the problem 
that the Department of Interior and the Department of 
Agriculture have created, in part in hunting them. So I would 
suggest if we could hunt them on one side of the line we ought 
to be able to hunt them on the other side of the line and open 
up the entire basin for hunting.
    We can control numbers. We have been controlling numbers of 
elk and antelope and moose and other game species in Montana. 
We have the largest, healthiest group of wild game in Montana. 
We have for 75 years, and we manage those numbers with a hunt. 
I do not know why the Federal government cannot follow the lead 
of the State of Montana. Thank you.
    Mr. Kind. Well let me ask you in regards to the buyout 
proposal that you were suggesting today, from your experience 
in some of the negotiations that are ongoing, are the private 
landowners receptive to this idea? Are they open to it?
    Governor Schweitzer. To some extent. The largest landowner 
is RTR. They are in negotiation. There are others that are 
discussing it with us. We have met with landowner groups in the 
area, and there are varying levels of acceptance but there are 
varying levels of offers in terms of financial contribution 
that can be brought to bear.
    Mr. Kind. But it may be more complicated though, as you 
suggested too, is whenever you have free-roaming animals of 
this nature, transportation systems, rail system, things like 
that, that we would have to have a plan for as well.
    Governor Schweitzer. Well understand that there would still 
be what I call a drop dead zone. Even if we purchased easement 
rights just adjacent to the Park, those 10,000 acres and much 
less of it would be private land, there would be some choke 
points along both the Madison River and the Yellowstone River 
where the canyons are very narrow. Beyond that, we would not 
accept a single one of those buffalo into Montana until they 
are brucellosis-free.
    So we will not expand the area that the bison are moving in 
and out of. We would just allow for cattle not to be in the 
area where those bison are moving in and out so that we would 
not have cattle and bison occupying the same space. Thank you.
    Mr. Kind. Is anyone working on an elk management plan 
comparable? Is this not the problem that Wyoming and Idaho got 
into as far as the spread of brucellosis, Mr. Clifford?
    Mr. Clifford. In my testimony what we were talking about is 
developing management plans for all of the elk and bison in the 
entire GYA. That is the direction we would like to have is an 
MOU with all of the parties involved to develop an elimination 
plan for all of the bison and elk in the greater Yellowstone. 
We recognize that that is a long-term effort but we believe it 
is the best effort with regards to moving this issue forward.
    Mr. Kind. OK. Thank you. Thank you, Mr. Chairman.
    Mr. Grijalva. Mr. Heller?
    Mr. Heller. Thank you, Mr. Chairman. Dr. Clifford, I just 
have a couple of questions. What is the status of say Nevada 
and Utah as far as the brucellosis disease is concerned?
    Mr. Clifford. All the states in the U.S. are free with the 
exception of Idaho and Texas.
    Mr. Heller. And the reason I ask you know I apply for tags, 
elk tags, deer tags in Utah. In fact, I think there is even a 
bison herd in Utah, is that correct?
    Governor Schweitzer. Yes, and they have a hunt.
    Mr. Heller. They do have a hunt?
    Governor Schweitzer. You bet.
    Mr. Heller. That is what I thought.
    Governor Schweitzer. You bet.
    Mr. Heller. Because every time I apply for a tag in Utah I 
see bison on the form, never applied for a bison tag, but 
interesting that it is there. What is the status of that herd 
there?
    Mr. Clifford. Those herds are free of brucella.
    Mr. Heller. Then explain to me why the disease is so more 
acute in Yellowstone Park as opposed to a herd in Utah.
    Mr. Clifford. Well I do not know that it is an issue of 
being acute. I think it is an issue of the fact that the 
disease has been present there for a long period of time. I 
think it was first diagnosed in the Yellowstone bison I believe 
it was in 1917, and the disease really to my knowledge has 
never been eradicated from that population of animals, even 
during that entire period of time, and now it is in the elk 
population as well, and it is a bigger issue.
    Mr. Heller. You are saying it is not in the elk population 
though in Nevada or Utah that you are aware of?
    Mr. Clifford. Not that I am aware of.
    Mr. Heller. Thank you. Thank you, Mr. Chairman.
    Mr. Kind. [Presiding.] Thank you. Mr. Rahall, any further 
questions?
    Mr. Rahall. No.
    Mr. Kind. Mr. Bishop?
    Mr. Bishop. No.
    Mr. Kind. I want to thank all of the panelists here and 
your testimony was very helpful, very enlightening, and 
obviously we have some work to do. So thank you for your 
testimony here today.
    [Recess.]
    Mr. Kind. OK. I think we are going to keep this going. We 
have some votes starting shortly. So we want to get to the next 
panel of witnesses as soon as possible, and we have with us for 
the third panel Mr. Josh Osher with the Buffalo Field Campaign. 
Thank you for joining us. Tim Stevens, Yellowstone Project 
Manager, National Parks Conservation Association. Wayne 
Pacelle, who is the CEO of the Humane Society. Good to see you 
again, Wayne. Jim Hagenbarth, Montana Stock Growers Association 
and Dr. Charles Kay from the Utah State University.
    I believe all or some of you have submitted written 
statements that will be made a part of the record but let us 
start with Mr. Osher for your testimony. Thank you for being 
here.

        STATEMENT OF JOSH OSHER, BUFFALO FIELD CAMPAIGN

    Mr. Osher. Thank you. It is a pleasure to be here. Mr. 
Chairman, members of the Committee, again my name is Josh 
Osher, and I am a coordinator with the Buffalo Field Campaign. 
The Buffalo Field Campaign is the only group working in the 
field every day documenting the harassment and slaughter of 
Yellowstone's wild bison herd. Buffalo of Yellowstone National 
Park cannot be here today to defend themselves to this 
committee and to represent themselves, and we do not pretend to 
speak for them but we are their advocates, and that is why we 
are here today.
    I would also like to recognize that with me today is 
Darrell Geist, a Buffalo Field Campaign associate, who has 
researched extensively the grazing program in the Gallatin 
National Forest and D. J. Shubert from the Animal Welfare 
Institute with 20 years plus experience on this issue as a 
wildlife biologist.
    Twenty-five to 40 million buffalo once roamed the North 
American continent. Their range expanded from Canada to Mexico 
and across the United States. They were an incredibly 
significant feature of the lives of many Native American tribes 
living in the plains region. The buffalo were so important to 
the Native Americans in this area that they considered them 
their relatives.
    But a directed policy in the late 1800s led to the 
extermination of nearly all of the buffalo from their native 
range. In less than 50 years, the millions were down to just a 
handful of animals that survived in Yellowstone National Park's 
Pelican Valley. The buffalo of Yellowstone today are the only 
living link in this country to the great herds of millions that 
once roamed freely throughout the plains. They are genetically 
pure, not hybridized with cattle. Their significance is strong 
with the American people as well as they are--as was pointed 
out earlier--a symbol of the Department of Interior and the 
National Park Service.
    They are truly a treasure. However, these agencies have 
advocated their responsibility toward the buffalo in recent 
years. In 2000, as has been mentioned, the interagency bison 
management plan was developed through court-ordered mediation. 
The management plan is a product of politics, not of sound 
science. It was even recognized by the agencies that there was 
large disagreement and the plan would be an adaptive management 
plan.
    However, the plan has focused solely on eliminating buffalo 
from the range that they are trying to access outside of the 
Park. The agencies use techniques called hazing where they use 
horses, ATVs, helicopters and snowmobiles, as the Governor 
described. In one instance last year, 14 bison fell through the 
thin ice of Hebgen Lake as they were chased by snowmobiles. Two 
drowned, and then within several months later all 40 or so of 
those bison were rounded up and sent to slaughter anyway, 
without even preliminary brucellosis testing.
    When the buffalo are deemed unhazeable, they are captured, 
and these facilities that you are seeing here, these are 
designed for domestic livestock. This is the product of years 
of an eradication program for livestock. Wild buffalo are not 
domestic livestock. They cannot be treated the same way. In 
these facilities the buffalo are often injured, some of them 
are even mortally wounded in these facilities, never even 
making it to the testing chutes or eventually to the 
slaughterhouse.
    Oftentimes when buffalo are captured, they may be tested 
for brucellosis exposure, and the testing procedures are 
themselves quite a brutal experience for these buffalo. These 
procedures were designed for domestic cattle. The tests used 
were designed for domestic cattle. They are not accurate in the 
buffalo. Less than 20 percent of the buffalo that test positive 
for antibodies to brucellosis actually test positive when their 
tissues are cultured for the bacteria. So most of the animals 
that are being slaughtered do not in fact have brucellosis. 
What they have is the resistance to brucellosis.
    In the last six years of the interagency plan, over 2,000 
wild buffalo have been killed by the agencies, 1,500 by the 
National Park Service alone, 850 of those just last year as 
they try and leave the Park. If this was not enough, the 
agencies have moved onto a program the Governor spoke about 
quarantine. Bison quarantine is a program where these calves 
are taken from their families. They are placed in a facility 
north of the Park. They are held captive for four years. They 
are fed hay. They are fed water. They are ear tagged. They are 
moved around. They are kept in small pastures and small 
corrals.
    These are our Yellowstone buffalo with ear tags being 
treated like domestic cattle. Is this the future we really want 
to see for the wild buffalo of Yellowstone? So that what you 
have seen here are the tools of brucellosis eradication: 
Testing, slaughtering, vaccination. The vaccine just simply 
does not work in the buffalo. Some studies have indicated it 
has not efficacy. Some other studies have put that up to around 
40, 50 percent. But the truth is, these are buffalo. They are 
not cattle. The vaccines and the tools and the tests for cattle 
do not work on buffalo.
    What the buffalo really need is winter range habitat, and 
it is available. There is a large landscape in Montana, and we 
can make this land available for wild buffalo. The Gallatin 
National Forest can create a wild bison recovery zone where 
they make multiple use decisions based on the concept that this 
land is prioritized for habitat for wild buffalo. It is their 
principal role in the interagency management plan to provide 
habitat.
    APHIS can do what the Governor said: Create a zone 
management system for domestic cattle in the greater 
Yellowstone area to protect Montana's brucellosis-free status. 
They can provide service to the livestock industry which is 
their charge rather than funding the slaughter of wild buffalo.
    Yellowstone has to return to its original charter, to 
conserve the scenery and the natural and historic objects and 
the wildlife therein and leave them unimpaired for the 
enjoyment of future generations. It took an Act of Congress, 
signed by the President, enforced by the U.S. Army to stop the 
near extinction of Yellowstone's wild buffalo before. It is 
going to take an Act of Congress now to ensure their survival 
and restoration as a native wildlife species in the American 
west. Thank you for your time.
    [The prepared statement of Mr. Osher follows:]

     Statement of Joshua Osher, Coordinator, Buffalo Field Campaign

    Mr. Chairman and Members of the Subcommittee:
    Thank you for the opportunity to address the subcommittee on this 
issue of great importance to the American people.
A Brief History of the Yellowstone Herd
    The bison of Yellowstone National Park are unique among herds in 
the United States, being members of the country's only continuously 
wild herd. Bison once ranged from the northeastern United States to 
Oregon and California and from northern Mexico and Florida to northern 
Canada. Freely migrating in response to natural conditions, North 
America's bison comprised the largest concentration of mammals ever 
known to exist. While no one will ever know exactly how many bison the 
continent once supported, scientific estimates place the figure between 
twenty-five and forty million animals.
    North America's native bison gave rise to and supported diverse 
Native American cultures. For many tribes of the Great Plains and 
surrounding regions, the bison was essential to life. John Fire Lame 
Deer eloquently expresses the depth of the connection between the 
Lakota Nation and the Buffalo Nation: ``The buffalo was part of us, his 
flesh and blood being absorbed by us until it became our own flesh and 
blood. Our clothing, our tipis, everything we needed for life came from 
the buffalo's body. It was hard to say where the animal ended and the 
man began.'' John Fire Lame Deer and Richard Erdoes, Lame Deer: Seeker 
of Visions, Simon and Schuster, New York, 1972, p244
    The mass eradication of wild bison from the plains, an episode in 
our history with which we are all familiar, forever altered the balance 
of life in North America. By the early 20th century all but one of the 
wild herds had been killed and virtually every Native American tribe 
had been eradicated or forced into a sedentary lifestyle on a 
reservation. When the last great bison herds were decimated in the 
West, a few hearty individuals holed up in Yellowstone's Pelican 
Valley, one of the country's coldest and most snowy valleys, barely 
avoiding extinction.
    Fearing that the wild herd would die off, park managers purchased 
18 captive cow bison from Montana's Flathead Valley and three bulls 
from the Texas Panhandle to establish a herd on Yellowstone's northern 
range. Over time, members of the Lamar herd mingled with members of 
Yellowstone's indigenous Pelican Valley herd. While the extent of 
interbreeding isn't known, the bison we see today in Yellowstone 
National Park are directly descended from these herds. Members of the 
only herd in America never confined by a fence, these bison carry a 
direct genetic link to Yellowstone's original population.
    Yellowstone's approach to bison management in the 20th century 
tended toward the heavy-handed. Animals were sometimes ear-tagged and 
branded, confined in pens as tourist attractions, and fed at cattle-
like feed-lines. Bison calves from the wild Pelican Valley herd were 
captured and nursed on domestic cow's milk, a practice that likely 
resulted in the Yellowstone bison becoming infected with the livestock 
disease brucellosis. The Department of Agriculture and the Montana and 
Wyoming livestock industries, fearing a transmission back to cattle, 
pressured Yellowstone officials to capture, test, vaccinate, and 
slaughter Yellowstone bison within the park, which they did 
periodically between the 1920s and 1967, when Yellowstone adopted a 
more hands off ``natural regulation'' approach to wildlife management. 
The bison were largely left alone inside the park between the late 
1960s and the early 1980s, a result of this new management paradigm and 
a period of mild winters in which bison stayed deep within the park.
    Harsh winters are another story. Snow and ice obscure the grass in 
the park and hunger pushes the bison to lower elevations, which happen 
to lie across the Montana border. When they cross this invisible line, 
bison change political jurisdictions and step into a conflict zone. 
Montana held a hunt for migrating Yellowstone bison between 1982 and 
1989, when a national public outcry forced the state to call it off. 
Montana game wardens took up where the hunters left off, shooting any 
bison that left the park. In 1995 the Montana legislature turned bison 
management authority over to the Department of Livestock (DOL), an 
agency mandated with protecting the interests of the state's livestock 
industry, where it remains to this day.
    Although there has never been a documented case of brucellosis 
being transmitted from wild bison to livestock, the DOL and, in recent 
years the NPS, use the disease to justify the harassment and slaughter 
of bison when they leave or approach the boundary of the park. Since 
1985 the DOL and Yellowstone National Park have killed more than 5,000 
Yellowstone bison. While elk and other wildlife also carry the disease, 
only bison are routinely hazed, captured, and slaughtered, indicating 
that the agencies are more concerned with controlling bison than with 
controlling brucellosis.
    More bison were killed during the winter of 1996-1997 than in any 
single year since the 19th century. That winter and spring the National 
Park Service and the State of Montana killed 1,084 Yellowstone bison. 
Starvation was common as well, as early winter rains turned the 
snowpack to mush. Record freezing temperatures locked the grass away 
beneath a thick slab of ice, and heavy snows followed. Bison, braced 
against blizzard, nuzzled heavy snow aside only to scrape their noses 
on diamond-hard ice. Between the human slaughter and natural deaths, 
over two thousand animals, more than half the herd, were killed in a 
matter of months.
    Under the Interagency Bison Management Plan (IBMP), an agreement 
forced upon Montana and the U.S. Government by court order, America's 
only continuously wild bison are still not tolerated in Montana. Chased 
with snowmobiles, helicopters, and ATVs; trapped and confined in cattle 
pens and quarantine facilities; and shot on their native habitat, 
Yellowstone bison are in serious trouble. The National Park Service and 
the Montana Department of Livestock killed more than 1,000 Yellowstone 
bison in 2006. The Park Service alone was responsible for the death of 
more than 900 animals, the most killed by the agency in its 90-year 
history.
    Today's Yellowstone herd faces a situation perilously similar to 
that of its ancestors of a century ago. Wild bison are considered 
ecologically extinct everywhere outside Yellowstone. If history 
continues on its present course, the Yellowstone herd will become just 
another intensively managed, domesticated herd, and the thin thread so 
tenuously linking our present century to the wild and fertile past will 
be forever severed.
    In 1872 the U.S. Congress played an instrumental role in the 
creation of Yellowstone National Park and the protection of the 
American bison from hunters and poachers. In 2007 Congress can play an 
equally important role in the protection of the Yellowstone bison from 
state and federal agencies operating under an inherently flawed 
management plan.
What is the Interagency Bison Management Plan (IBMP)?
    The IBMP, and the Modified Preferred Alternative of the Final 
Environmental Impact Statement (FEIS) that it represents is the product 
of court ordered mediation resulting from a Federal lawsuit. 95 percent 
of the public comments on the FEIS were opposed to the agencies' 
Preferred Alternative, yet the Plan was approved in the state and 
federal Records of Decision in December, 2000.
    The IBMP's stated purpose of action is, ``to maintain a wild, free-
ranging population of bison and address that risk of brucellosis 
transmission to protect the economic interest and viability of the 
livestock industry in the state of Montana.'' FEIS, Vol. 1, p. 14. The 
FEIS continues to state in the ``Need for Action'' section, ``Bison are 
an essential component of Yellowstone National Park and the Gallatin 
National Forest because they contribute to the biological, ecological, 
cultural, and aesthetic purposes of the park. However, Yellowstone 
National Park is not a self-contained ecosystem for bison, and periodic 
migrations into Montana are natural events.'' FEIS, Vol 1, p. 14. This 
analysis continues in the FEIS in the ``Objectives In Taking Action'' 
section, ``Lower elevation range could provide areas for bison to 
winter adjacent to the park as well as additional management options 
... and the modified preferred alternative already includes acquisition 
of lands to the north of the Reese Creek boundary on the Royal Teton 
Ranch.'' FEIS, Vol. 1, p. 45
    Furthermore, the IBMP is designed as an adaptive management plan. 
``Professionals in the fields of wildlife science, livestock disease, 
wildlife disease, livestock management, and wildlife management do not 
agree on the central issues relating to brucellosis in Yellowstone 
bison. The agencies have agreed to support research on these issues and 
will update the bison management plan as new information becomes 
available.'' FEIS, Vol. 1, p. 45.
Is the IBMP living up to it's stated goals?
    In the six-year history of the IBMP, nearly 2000 Yellowstone bison 
have been killed as a result of agency management actions. The National 
Park Service alone is responsible for the slaughter of nearly 1,500 
bison under the IBMP. The plan was originally developed in three 
phases. According to the timeline provided in the FEIS, the plan should 
have entered step 3 during the winter of 2003/4 in the western boundary 
area and by the winter of 2004/5 in the northern boundary area. 
However, to date, the plan is still mired in step 1 with no established 
or updated time line as to when the plan will advance to steps 2 and 3. 
Under step 3, untested bison would be allowed to utilize habitat 
outside of Yellowstone National Park.
    One primary assumption made in the FEIS that enables progression to 
steps 2 and 3 in the Northern Boundary area is the elimination of 
livestock grazing on the Royal Teton Ranch (expected in 2002) and the 
development of a bison plan for the federally acquired and easement 
lands north of Reese Creek. As of today, cattle still graze on the 
Royal Teton Ranch and there is no bison plan for the federally acquired 
lands. Therefore, bison are still being hazed, captured and slaughtered 
by the National Park Service for attempting to access this essential 
winter range habitat. Last winter alone, Yellowstone National Park 
captured nearly 1,200 bison and sent almost 900 to slaughter.
    No transmissions of brucellosis between wild bison and domestic 
cattle have occurred under the IBMP. Montana still firmly holds its 
class-free brucellosis status. The viability of Montana's livestock 
industry has not been compromised in any way by the Yellowstone bison 
herd. However, there has never been a documented case of brucellosis 
transmission between wild bison and domestic cattle. Therefore, it is 
inaccurate to characterize the IBMP as having protected Montana's 
livestock industry from brucellosis transmission and the loss of class 
free status. In fact, the implementation of the IBMP's methods for 
providing temporal and spatial separation between bison and cattle, 
particularly hazing of bison back into Yellowstone National Park, may 
add to the risk of infected birthing materials in the environment as 
pregnant female bison are highly stressed prior to calving. The simple 
truth is that brucellosis transmission between wild bison and cattle is 
a highly unlikely event. Sensible risk management practices that 
incorporate the best available science could easily prevent 
transmission from occurring without the excessive cost and harsh 
practices of the current IBMP.
    In terms of ensuring a viable, free-ranging population of wild 
bison, the IBMP is failing in it's stated goals. The bison are unable 
to access vital winter range habitat outside of park borders. Thousands 
of bison have been killed for attempting to access lands that were 
expected to be available several years ago. Additionally, recent 
research in the genetic makeup of Yellowstone bison indicate a high 
probability that there are at least two and likely three unique and 
distinct subpopulations of bison that make up the Yellowstone herd. 
Natalie Dierschke Halbert, The Utilization of Genetic Markers to 
Resolve Modern Management Issues in Historic Bison Populations: 
Implications for Species Conservation, December 2003, pages 137-140. 
Therefore, management removals of large groups of bison migrating to 
the boundary areas, as was the case last winter, could have significant 
detrimental impacts on the genetic viability of one or more 
subpopulations. The IBMP has not adapted management protocols to 
reflect these findings, leaving the future of the bison in jeopardy.
How is the IBMP implemented?
Hazing
    Spatial and temporal separation of bison and cattle is the primary 
risk management strategy of the IBMP. This is currently accomplished by 
``hazing'' bison back into Yellowstone National Park. Hazing is the 
term the agencies use to describe the forced movement of bison. The 
Montana Department of Livestock, the lead agency on the park's western 
boundary, uses a variety of means to haze bison. These include 
helicopters, snowmobiles, ATV's and horses. Oftentimes, bison are 
chased ten miles or more to the park border or the capture facility. 
The bison, desiring to access their chosen spring calving grounds on 
the Gallatin National Forest's Horse Butte Peninsula, will return the 
next day only to be chased back again. Newborn calves and pregnant 
females suffer greatly from the stress of these repeated hazing 
operations.
    Hazing operations, by the very nature of the implements used, not 
only impact the bison, but are highly detrimental to the multitude of 
other species that occupy this magnificent wildlife migration corridor. 
Displaced species include bald eagles, trumpeter swans, elk, moose, 
wolves, grizzly bears and a myriad of other species. This type of 
hazing is also very costly, requiring large numbers of personnel and 
expensive equipment.
Capture
    The protocols of the IBMP allow the agencies to capture bison that 
are deemed ``unhazeable.'' The Montana Department of Livestock operates 
one permanent capture facility within 1/4 mile of the park border at 
Duck Creek and one temporary capture facility on the Horse Butte 
Peninsula through a special use permit granted by the Gallatin National 
Forest. The National Park Service operates one capture facility, 
Stephens Creek, located within park borders near the northern boundary. 
These facilities are all modeled after livestock handling facilities. 
It is important to remember that wild bison are not domestic cattle. 
The nature of the bison and the facility design create a circumstance 
where bison are often injured or even killed in the trapping, sorting 
and transporting process.
Testing
    Once captured, the bison may be tested for exposure to brucellosis 
bacteria. All bison that test positive for exposure on the standard 
blood test are immediately shipped to slaughter. Bison that test 
negative may be tagged and released or held for future release. 
Negative testing bison calves and yearlings may also be shipped to an 
experimental quarantine facility located near the park's northern 
border. Often times, tagged bison will be recaptured and retested or 
sent to slaughter at the discretion of the agency. The process of 
testing bison at the capture facilities is both cruel and inhumane. The 
animals are highly stressed, the agency handlers are often aggressive 
and unforgiving, and the facility design is inappropriate for wild 
bison.
    However, not all captured bison are tested for brucellosis 
exposure. The IBMP allows for the slaughter of all captured bison 
without testing if the late winter / early spring population is 
estimated to be above 3000. Last winter, the National Park Service sent 
nearly all of the adult bison captured at Stephens Creek to slaughter 
without prior brucellosis testing. Only the calves were tested with 
negatives being sent to quarantine. Calves that tested positive were 
sent to slaughter.
    The tests used to determine whether an animal has brucellosis are 
highly controversial. The standard blood tests (serological tests) only 
identify long-term antibodies to brucellosis. These tests were designed 
for cattle, not bison or other wildlife. Other bacterias, particularly 
yersenia, can cross-react with brucellosis and show a positive test 
result. Additionally, when compared to culture tests of tissues sampled 
from slaughtered bison, considered the gold standard in brucellosis 
testing, studies show that the correlation between seropositive bison 
and culture positive bison is very weak. Many bison test seropositive 
simply because they were once exposed to brucellosis bacteria in a 
strong enough concentration to produce an immune response. These bison 
may have already cleared the bacteria but still retain antibodies. 
Essentially, the bison selected for slaughter may, in fact, often be 
those that have developed resistance to the bacteria.
Slaughter
    Since 1985, more than 5,000 wild bison from Yellowstone National 
Park have been killed through a combination of agency management 
actions and state-sponsored hunting. The majority of these animals, 
particularly since the inception of the IBMP, were sent to 
slaughterhouses throughout the region. Yellowstone bison are wild 
animals. The procedures involved in sending bison to slaughter include 
sorting in the capture facility, loading onto trucks, hours of 
transport to the slaughter facility, and finally the taking of their 
lives on the slaughterhouse floor. This process sometimes takes days 
and hundreds of miles of transport. The bison are often not fed or 
given water during this time. They are highly stressed and often arrive 
at the slaughterhouse in terrible condition. Some are so badly injured 
and bruised that the meat and hides are not in usable condition.
Quarantine
    The IBMP made provisions for the addition of quarantine as a 
management tool when such facilities were established. The agencies 
view quarantine as a management option that would provide more 
flexibility in handling bison that test negative. Currently, USDA's 
Animal and Plant Health Inspection Service and the Montana Department 
of Fish, Wildlife & Parks are conducting a quarantine feasibility study 
at two facilities located just outside the park's northern border in 
the heart of a critical wildlife migration corridor. The study is a 
multi-year program whereby two groups of 100 test-negative bison calves 
or yearlings will be held for a total of four years, undergo multiple 
rounds of testing and be bred twice before being released to unnamed 
public and tribal lands. One half of the bison are slaughtered under 
the protocol with their tissues being culture tested for the bacteria.
    The facilities the agencies chose for quarantine are very small. 
The young bison are kept behind tall double fencing right along State 
Highway 89. They are fed hay and drink water from troughs. They are 
quickly becoming domestic animals and losing their wild instincts. They 
no longer have the benefit of experience passed on from their family 
groups. Each day, they are one step farther from being the wild 
Yellowstone bison they were before capture.
Vaccination
    A key component of the IBMP is the addition of bison vaccination. 
Subcutaneous vaccination of bison calves and yearlings has already been 
incorporated into the plan for captured bison on both the north and 
west boundaries. The National Park Service is still in the process of 
developing an Environmental Impact Statement for remote delivery of 
vaccine within the park. The vaccine currently approved for use in 
bison calves and yearlings is RB51. However, the efficacy of RB51 for 
bison is highly controversial. A report to the United States Animal 
Health Association in 2002 on the efficacy of RB51 as a calfhood 
vaccine concludes, ``based on the high number of abortions/weak calves, 
high percentage of colonized calves, and due to the high number of cow/
calf pairs that will still be infected with virulent brucellae, B. 
abortus RB51 cannot be considered an efficacious calfhood vaccine in 
bison.'' Elzer, et. al., 2002. This study, unlike many other vaccine 
trials, attempted to mimic field conditions in the GYA.
    Additionally, RB51 is not considered a safe vaccine for adult 
bison. Therefore it could only be used on calves and yearlings. One 
study examining the use of vaccination as an eradication tool concludes 
that the focus would need to be on adult female bison with a vaccine 
that is at least 50 percent efficacious. Dobson, unpublished. This type 
of vaccine simply does not exist. Time and energy would be better spent 
in the development of a more efficacious vaccine for domestic cattle. 
Cattle are already regularly vaccinated for many livestock diseases. 
Additionally, there is a need for a better brucellosis vaccine for 
cattle throughout the world. RB51 has been widely criticized for it's 
low efficacy in cattle, particularly in countries where brucellosis is 
widely present.
Can Brucellosis be Eradicated from Yellowstone Bison?
    Eradication of brucellosis as an eventual goal is a concept that is 
easy to support in theory. If brucellosis were not found in 
Yellowstone's bison, sound wildlife management might be much easier to 
develop and implement. However, brucellosis is endemic in the Greater 
Yellowstone Ecosystem (GYE). Bison are not the only affected species. 
Tens of thousands of elk in the GYE also potentially carry brucellosis, 
particularly in Wyoming where elk are fed throughout the winter. Some 
of these elk also migrate into Yellowstone in the summer months leading 
to the potential for transmission to bison and other species. 
Additionally, many other species have been known to carry brucellosis 
including grizzly bears, black bears, wolves, coyotes, foxes, moose, 
bighorn sheep, beavers, and even muskrats. Therefore, any efforts that 
focus specifically on bison without addressing the disease in the 
ecosystem as a whole will not provide a long-term solution to this 
issue. Even if brucellosis were eradicated from Yellowstone bison, 
there is a high probability that they would be reinfected in the 
future.
    The tools of brucellosis eradication are highly limited and would 
result in the decimation of the Yellowstone bison herd. The primary 
tool for eradication is test and slaughter. Based on the inaccuracy of 
the current blood tests, it has been estimated that test and slaughter 
could reduce the bison herd to as few as 10 animals. Dobson, 
Unpublished. Test and slaughter would also require handling nearly 
every bison in Yellowstone. Capture facilities would have to be set up 
throughout the park and maintained for many years. This type of program 
was attempted in Yellowstone in the early 1960s, reducing the herd to 
fewer than 200 animals. In 1967, the National Park Service instituted a 
policy of ``natural regulation'' and ended the test and slaughter 
program. The costs to the bison and to the natural resources of the 
park were considered too high to continue this program. The tools of 
eradication have not significantly changed since this time.
    Vaccination, as discussed earlier, is another tool of brucellosis 
eradication. However, vaccination alone, using the currently available 
vaccines, will not result in the eradication of brucellosis. Neither 
was vaccination ever a stand alone tool to eradicate brucellosis in 
domestic cattle. Test and slaughter has always been the primary 
mechanism because of the limitations of the available vaccines.
    Given all of the constraints, particularly the social/cultural 
consequences of aggressively handling all of the bison inside 
Yellowstone National Park, eradication of brucellosis utilizing the 
tools currently available is not a realistic goal. Sensible risk-
management policies are a much more effective means of protecting 
Montana's livestock industry and the viability of Yellowstone bison. 
Risk management, however, does not preclude efforts to develop 
alternative methods to eradicate brucellosis in the long run. Research 
into more effective vaccines for livestock and a potential cure for 
brucellosis can be conducted, but in the meantime, habitat-based risk 
management polices must be instituted to protect the bison and 
Montana's livestock industry.
Winter Range Habitat
    The provision of lower elevation winter range habitat is essential 
to resolve the current conflicts at the park border regions. 
Yellowstone National Park simply does not have sufficient winter range 
habitat for any of the ungulate species within its boundaries. 
Regardless of the population of bison in the park, animals will always 
move to the boundary areas in search of better winter habitat. During 
winters when the snow conditions make it difficult to access food 
within the park, large migrations are likely. The current management 
plan does not provide for access beyond park border to winter range 
habitat. This circumstance has led to the slaughter of thousands of 
migrating bison throughout the years, underscoring the failure of the 
IBMP to protect wild, free-roaming bison.
    The necessary winter range habitat on the west side of the park 
lies beyond the current zones of the IBMP. The primary winter range 
habitat is located in the Madison Valley. This area is comprised mostly 
of large tracts of private and public land. Some of the landowners in 
the Madison Valley lease their land for livestock grazing in the 
summer. However, the climactic conditions of this region preclude 
winter grazing of cattle. The nearest cattle present in the valley 
during the winter are more than 35 miles from the park border. Much of 
the public land is leased for livestock grazing, but the stocking dates 
are typically not until late June or July. Therefore, most of the 
valley is cattle-free during the winter months when bison would utilize 
this area as winter range. The latest research on the disappearance and 
persistence of brucellosis bacteria suggests that the bacteria would 
not remain in the environment after early June. If cattle stocking 
dates are designed to reflect this science, brucellosis transmission 
between bison and cattle could be easily prevented.
    On the north side of the park, the primary winter range occurs 
outside park boundaries along the Yellowstone River corridor. Much of 
this land is owned by the Church Universal and Triumphant (CUT). In the 
late 1990s Congress appropriated $13,000,000 for conservation easements 
and land exchanges that were supposed to provide winter range habitat 
for bison. However, these lands are still not available to bison and 
are the primary factor influencing the Park Service's decisions to 
capture and slaughter bison that attempt to migrate onto CUT lands.
What can Congress Do?
    The primary needs to address the concerns about brucellosis 
transmission and the long term viability of Yellowstone bison involve 
the acquisition of winter range habitat for bison and the modification 
of the classification system for brucellosis in the Greater Yellowstone 
Area.
    Congress can facilitate the resolution of grazing issues associated 
with the Royal Teton Ranch.
    Congress can direct the Animal and Plant Health Inspection Service 
to develop a brucellosis-management zone whereby livestock producers 
within the zone will institute brucellosis proof management practices. 
This might include booster vaccination of cattle, wildlife-proof 
fencing of cattle feed-lines, individual herd certification for 
brucellosis, and a reorganization of stocking dates consistent with the 
best available science about brucellosis persistence and disappearance. 
The costs of this program could be recovered using the monies saved 
from the reorganization of the IBMP.
    Congress can direct the Gallatin National Forest to establish a 
wild bison recovery zone within which the needs of habitat for bison 
and other species are taken as a primary consideration in all multiple 
use decisions.
    NOTE: Attachments and a statement submitted for the record by 
Darrell Geist, Researcher, Buffalo Field Campaign, have been retained 
in the Committee's official files.
                                 ______
                                 
    Mr. Grijalva. [Presiding.] Thank you. Mr. Stevens.

STATEMENT OF TIM STEVENS, YELLOWSTONE PROJECT MANAGER, NATIONAL 
                 PARKS CONSERVATION ASSOCIATION

    Mr. Stevens. Mr. Chairman and other members of the 
Subcommittee, thank you for inviting me to testify about the 
bison that make Yellowstone our first national park home. The 
National Parks Conservation Association works to protect and 
enhance America's National Park System for present and future 
generations. I am NPCA's Yellowstone program manager based out 
of Livingston, Montana.
    Last year, as was mentioned, over 900 migrating bison were 
stopped at the Park's border and shipped to slaughter. This is 
a national travesty and an embarrassment to the National Park 
System. Ironically with slaughter it takes place at a time when 
57 percent of Yellowstone's visitors cite seeing buffalo as 
their most important task when they come to the Park, and in 
2004 wildlife watchers spent $82 million in the region.
    Each winter bison move out of Yellowstone's high country to 
lower, snow-free lands. Some claim that this migration is due 
to too many bison and lack of forage in the Park. In reality 
the most recent studies attest that the current population of 
3,600 is well below the carrying capacity of 5,500 to 7,500 
animals. Scientists tell us that no matter if there is 300 or 
3,000 bison, when the snow gets too deep bison will move out of 
the Park to seek forage. However, the zero tolerance policy 
toward bison beyond boundaries prevents access to these 
critical lands.
    Seven years and millions of dollars after completion of the 
interagency bison management plan the plan's goals have yet to 
be achieved. However, there are solutions to the current 
dilemma, and with the enactment of the four-point strategy 
outlined here we can protect the region's livestock industry, 
while reestablishing a healthy, free-ranging Yellowstone bison 
population.
    Point one, assisting with the completion of the grazing 
agreement with the Royal Teton Ranch. It is important to note 
that while details of the agreement are still being worked out 
it is critical that any agreement allow adequate bison numbers 
onto these lands, and that the cost of any deal stays within 
reason but successful completion and funding of this agreement 
will be an absolute watershed for Yellowstone bison. This 
agreement would be financed by Federal, state and private funds 
but it is essential that Congress lead the effort to pay for 
the grazing agreement.
    Point number two, creating a brucellosis classification 
subregion within greater Yellowstone, and we were encouraged to 
hear the Governor's words earlier, but some in the livestock 
industry have rightly questioned the current policy that is in 
place, and NPCA agrees. Congress can help craft part of the 
solution by directing the USDA to create the brucellosis 
subregion or zone in counties surrounding the Park. The 
subregion that is managed for separation of livestock and bison 
and also that provides government assistance for fencing and 
vaccination will be a major step in the right direction.
    Point three, instituting a spacial and temporal separation 
of bison as the primary short-term means for addressing 
brucellosis. To date management has focused on attempts to 
eliminate brucellosis. Lost in the debate is the fact that 
brucellosis is present in many other wildlife species, 
including bears and elk which are much wider ranging than bison 
across the landscape. So even if we had 100 percent success 
rate at eliminating brucellosis from bison, it still would be 
present in other wildlife. Simply put, eradication of 
brucellosis in all wildlife is impossible in the short-term.
    The Western States Livestock Association recently voiced 
their support for separation of livestock and bison as the 
means to address concerns over brucellosis. NPCA agrees. Many 
creative and viable approaches--other than slaughter of bison--
have yet to be tried. By providing dollars and direction 
necessary to focus on separation as the primary strategy, 
Congress can help forge a new path away from slaughter and 
toward long-term solutions.
    And my final point is that additional monies are needed to 
develop safe and effective vaccines that can be broadly 
administered to wildlife. Equally important is the need for 
more investment in development of a safe vaccine for livestock. 
Obviously it would be much more practical to administer a 
brucellosis vaccine to livestock than to wildlife.
    In conclusion, Yellowstone is at a crossroads with its and 
America's iconic wildlife species. Central to their long-term 
survival is the protection of bison habitat. We are already 
seeing what happens when this habitat is lost in and around 
other parks across the country where the ability to use 
reasonable wildlife management tools is precluded, leaving only 
the most inhumane and wasteful alternatives.
    We still have a chance in Yellowstone to show that we can 
make it work for bison but realizing this opportunity requires 
prompt action. Thank you for considering our views. I would be 
happy to answer any questions.
    [The prepared statement of Mr. Stevens follows:]

              Statement of Tim Stevens, Program Manager, 
                National Parks Conservation Association

    Mr. Chairman, and other distinguished Members of the Subcommittee, 
thank you for inviting me to testify about the bison that make 
Yellowstone--our first national park--their home. Founded in 1919, the 
National Parks Conservation Association works to protect and enhance 
America's National Park System for present and future generations. 
Today, we have 22 regional and field offices across the country, 
including the Yellowstone Field Office in Livingston, Montana, which I 
manage. I'm here today on behalf of our more than 325,000 members, who 
care deeply about our national treasures and want to see them 
protected.
The History of Bison, and Bison Management, in Yellowstone National 
        Park
    Yellowstone National Park remains the only place in the country 
home to truly wild, genetically pure bison with an unbroken connection 
to their native habitat. Tens of millions of bison once thundered upon 
western plains in the mid-19th century. When the buffalo slaughter of 
the late 1800s ended, only 23 bison remained in the wild, and 
Yellowstone was their sanctuary. Numbering 3,600 today, Yellowstone's 
herd has irreplaceable biological, cultural, spiritual and historic 
value, and is one of our nation's great conservation success stories.
    The designer of the famous buffalo nickel, minted between 1913 and 
1938, chose the buffalo design because it represented a uniquely 
American image. Yet, over the past two decades, 5,000 wild Yellowstone 
bison have been killed by state and federal agencies to keep them from 
accessing winter habitat in Montana adjacent to the park. Last year 
alone, more than 900 migrating bison were stopped at the border of 
Yellowstone and shipped off to slaughter. This is a national travesty 
and an embarrassment to the National Park System. Ironically, this 
slaughter takes place at a time when Yellowstone is experiencing a 
significant growth in visitors who offer wildlife viewing as the 
primary reason for their visit. Fully 57% of Yellowstone's visitors 
cite seeing bison as their main reason for visiting the park and 
wildlife watchers spent $82 million in the Yellowstone gateway region 
in 2004.
    Each winter, bison, like other wildlife, tend to move out of 
Yellowstone's high country to lower habitat with better forage on lands 
adjacent to the park. In fact, in 1926 Congress authorized additions to 
the Absaroka and Gallatin national forests next to Yellowstone, 
recognizing that wildlife needed to use lower-elevation land beyond 
park boundaries, especially during winter. Some falsely claim that the 
reason bison leave Yellowstone is because there are too many bison in 
the park and there is not enough forage to sustain them. Instead, the 
most recent studies attest that there are an estimated 3,600 bison 
inside the park, well below the most recent estimated carrying capacity 
of 5,500-7,500 for Yellowstone. In addition, in 2002 the National 
Research Council, the working arm of the National Academy of Sciences, 
completed an exhaustive review of science related to the health of 
Yellowstone's northern range, and found that bison and other ungulates 
are not destroying Yellowstone's grassland habitat. Scientists tell us 
that it doesn't matter if there are 3,000 or 300 bison in the park, 
when the snow gets too deep, they will seek winter habitat and forage 
outside the park. But in recent years, there has been a policy of zero 
tolerance for wild bison beyond park boundaries that does not allow 
these animals access to ancestral lands.
    Yellowstone's wild bison are being captured and killed due to a 
fear that they will transmit brucellosis to cattle. Brucellosis is a 
disease caused by a bacterium (Brucella abortus) that can infect wild 
and domestic animals. Brucellosis has little effect on wildlife, 
including some Yellowstone bison and elk with the disease, but it can 
initiate premature births in cattle. For this reason, livestock 
interests have worked hard to eliminate brucellosis from domestic 
herds. Ironically, Yellowstone bison picked up the brucellosis 
bacterium from a herd of dairy cattle that were brought to Yellowstone 
National Park nearly 90 years ago. There has never been a single 
recorded case of wild bison transmitting brucellosis to cattle in the 
wild. The risk of transmission between wild bison and cattle was deemed 
low in a 1992 General Accounting Office report, and again in a 1998 
National Research Council study.
Solutions to Protect Bison, and Montana's Livestock Industry
    The National Parks Conservation Association (NPCA) believes that 
the American public now has an unprecedented opportunity to not only 
greatly advance efforts to restore bison on the landscape, but to also 
assure security for the region's livestock industry.
    Bison are currently managed under the Interagency Bison Management 
plan (IBMP), whose purpose is:
        ``...to maintain a wild, free-ranging population of bison and 
        address the risk of brucellosis transmission to protect the 
        economic interest and viability of the livestock industry in 
        the state of Montana.''
    Seven years and about $21 million dollars after completion of the 
IBMP, the goals of the plan have yet to be achieved. There is a 
solution to the current dilemma, however, but it is not being 
aggressively pursued under the current IBMP. The solution NPCA supports 
has four components.
    Those components are:
    1)  Completing an agreement with the Royal Teton Ranch (RTR);
    2)  Establishing a brucellosis classification ``sub-region'' within 
the Greater Yellowstone Region;
    3)  Instituting spatial and temporal separation of cattle and 
bison; and,
    4)  Assuring the development of a safe, effective vaccine for 
livestock and bison.
    All four elements are designed to protect the livestock industry 
while restoring critical bison habitats outside the park, thereby 
reestablishing a healthy, free ranging Yellowstone bison population. In 
and around Yellowstone National Park, we still have a chance to restore 
those habitats before our options close, as they have in so many other 
national parks across the country.
1)  Assist with the completion of a grazing agreement with the Royal 
        Teton Ranch.
    Simply put, current bison management isn't working because the 
habitat currently available to bison is inadequate. Habitat is the key. 
For years, biologists have told us that the Royal Teton Ranch just 
north of the park is the lynchpin when it comes to access to key winter 
habitat.
    Under direction from Governor Schweitzer, negotiations are underway 
to purchase the grazing rights of the Royal Teton Ranch, otherwise 
known as the Church Universal and Triumphant, and contractually allow 
bison to cross that private land to access significant public land 
winter habitat. The final proposition is the lynchpin to success on the 
bison issue.
    The details of the grazing lease are still being worked out. It is 
critical that any agreement allow for adequate numbers of bison to use 
RTR lands and that the overall cost of the deal stays within reason, 
but assuming those two issues can be agreed upon, successful completion 
and funding of this agreement will be the most significant action to 
advance the bison issue in many years.
    The agreement would be financed by federal, state and private 
funds. It is essential that sufficient dollars be appropriated by 
Congress to contribute to completing the grazing agreement.
2)  Create in statute direction for establishment of brucellosis 
        classification ``sub-regions'' within the Greater Yellowstone 
        Region.
    The USDA has classified Montana, Idaho, and Wyoming's livestock as 
``brucellosis free.'' However, if two cattle herds are found infected 
with brucellosis in a single small area of the state, the whole state 
is penalized and loses its ``class free'' status. This has happened in 
both Wyoming and Idaho over the past few years and these states have 
been required to take specific actions in an attempt to regain their 
class free status.
    Some in the livestock industry have rightly questioned why an 
entire state should lose its status when brucellosis is detected in a 
small part of the state. NPCA agrees. Lost in the debate about bison is 
the little acknowledged but important fact that brucellosis resides in 
most wildlife species, including elk, which range across a much broader 
geographic landscape than do bison. Put in another context, eradication 
of brucellosis in all wildlife is simply impossible in the short term. 
But when it comes to bison, Congress can become a significant part of 
the solution by directing the USDA to create a brucellosis sub-region, 
or zone, in counties surrounding Yellowstone National Park.
    A subzone that is managed for spatial and temporal separation that 
provides government assistance for fencing and vaccination of existing 
cattle herds within the sub-region and that looks to public lands for 
creative management and preference around wildlife would be a major 
step towards both protection of Montana's state cattle industry as well 
as reestablishment of a free-roaming bison herd. With the establishment 
of this subzone, in the unlikely event that two herds of cattle were 
found with brucellosis within this zone, all of Montana's cattle 
outside this zone would not be penalized by losing their brucellosis 
free status. This is a smart and essential strategy of containment and 
protection.
3)  Institute spatial and temporal separation of cattle and bison as 
        the primary short term means to address brucellosis.
    Efforts relative to bison and brucellosis have largely focused on 
attempts to eliminate brucellosis. The fact is, even if agencies were 
100% effective at eliminating the disease from bison, many other 
wildlife species also have brucellosis.
    Recently the Western States Livestock Health Association, an 
organization of the western state veterinarians, has recently stated 
that the separation of livestock and bison is an essential component of 
any long-term solution. Montana's Governor Brian Schweitzer has said he 
agrees with this, as does NPCA. In the past, this separation was 
achieved through the slaughter of bison, but that is the most draconian 
and inflammatory of separation strategies. Many other approaches can be 
at least as effective. It's also important to preface these strategies 
with the reality that there are less than 500 cow-calf pairs occupying 
public lands on the north side of Yellowstone. On public lands adjacent 
to the park, spatial and temporal separation strategies include:
    <bullet>  Delaying by a few weeks the turnout date for livestock 
onto public land grazing allotments, which will eliminate any 
possibility of brucellosis transmission from a bison fetus to 
livestock;
    <bullet>  Adjusting livestock grazing allotments to accommodate for 
a steer operation, which would eliminate possibility of transmission;
    <bullet>  Employing creative fencing strategies that keep bison and 
livestock separated;
    <bullet>  Looking for opportunities to purchase, trade out or 
eliminate existing leases with willing permittees.
    By providing the dollars needed to purchase or transfer grazing 
rights from willing sellers on these lands, critical winter habitat 
will be made available for bison through spatial and temporal 
separation.
4)  Assure the development of safe, effective vaccines
    Studies have shown that safe and effective vaccines can reduce 
brucellosis rates in bison. In addition, the implementation of a 
vaccination program in Yellowstone National Park would eliminate the 
requirement that all bison be tested for the presence of brucellosis 
before they leave the park.
    We are not there yet when it comes to producing an effective 
vaccine that can be comprehensively administered to wildlife. 
Additional dollars are needed for research and science.
    Equally important is the need to devote additional resources to 
develop a safe vaccine that could be administered to livestock. 
Obviously, it would be much more practical to administer a vaccine to 
livestock than to wildlife.
Conclusion
    In conclusion, Yellowstone, our nation's first national park, is at 
a crossroads in terms of the long term viability of its, and America's, 
most iconic wildlife species. Central to their long-term survival is 
the recognition of and the protection of, habitats essential to free-
roaming bison. We are already seeing what happens when such essential 
habitats are shut down, excluded and compromised in other parks around 
the country. When critical habitats are lost, the potential to use 
reasonable, appropriate means of managing wildlife can be vastly 
curtailed, with only the most unpleasant, inhumane and wasteful means 
remaining. We have a chance in Yellowstone now to demonstrate that we 
can realize a fully functioning park for bison, but realizing this 
opportunity will require prompt action.
    Thank you for considering our views. I would be happy to answer any 
questions.
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Pacelle.

        STATEMENT OF WAYNE PACELLE, PRESIDENT AND CEO, 
              HUMANE SOCIETY OF THE UNITED STATES

    Mr. Pacelle. Thank you, Mr. Chairman and thanks to all the 
members for being here. I am Wayne Pacelle, President and CEO 
of the Humane Society of the United States, representing 10 
million members and constituents, 1 of every 30 Americans. A 
lot of people associate our work with domesticated animals and 
pets but we have a very robust wildlife department of about 20 
folks, PhDs and other scientists in our section. We have been 
involved in this Yellowstone bison issue for two decades. I 
personally have been involved for that period of time. Our 
regional office in Billings, Montana has been actively 
involved.
    I really do want to take the opportunity to thank Natural 
Resource Committee Chairman Nick Rahall for his tremendous 
leadership on the issue, the Interior appropriations 
amendments, to try to stop and abuse and mismanagement of the 
bison, and we are really grateful to you, Mr. Chairman.
    You know this species is really the symbol of human's 
destructive capability. I mean you look at all the species in 
this country, and you just contemplate the idea 30 to 50 or 
even 60 million bison brought down in the span of just a few 
decades--once we developed the transcontinental railroad and 
the repeating firearm--to just dozens or hundreds of 
individuals. I mean the destructive capacity is extraordinary. 
We should not forget that as we delve into this debate and 
think about this issue.
    The mistreatment and mismanagement of bison continues 
today. You have heard it from the prior two witnesses, and you 
have heard it from some of the others. This is a special 
population of animals. They have a special place in the country 
with Yellowstone as the world's first national park. They are a 
symbol of the west. They are an icon of western Americana. They 
are treated like shaggy members of a dispossessed cattle herd 
that are encroaching on adjacent and occupied cattle ranches.
    The authorizing statute for Yellowstone calls for the 
protection of bison. Very strict protections in the enabling 
legislation. The lands that they principally move on outside of 
the Park--and it is just the small areas we heard. I mean the 
testimony from the Governor I thought was extraordinary. We are 
talking about just a small number of cattle principally moving 
onto Federal lands. This is just a small number of bison going 
onto Federal lands for the most part with a very limited number 
of cattle in this areas that we can solve very readily. You 
heard the prescription here today.
    The whole rationale here is brucellosis, and we have heard 
so much about it. We have heard so many times before that there 
has never been a documented case of brucellosis transmission 
from wild bison to cattle. This whole thing has been an 
exaggeration. It is a canard. This is a land use issue, and it 
is concern about the bison extending their range. It is not so 
much about brucellosis. There is a serious concern about 
brucellosis partly because of the USDA's very strict rules in 
this area, but we can solve this issue.
    Just a couple of examples on this. We have heard that at 
least in west Yellowstone the cattle are not even there when 
the bison are there. There is no overlap, and we have just a 
small number of animals in the northern part of the Park and 
the northern reaches on forest land where you have year-round 
grazing. They said 300 was the number that was advanced near 
Gardner. We know that male bison cannot transmit brucellosis to 
cattle. Why are we killing the male bison? They do not abort 
fetuses. They do not leave placental materials. But this policy 
extends to every bison. Killing every one and not making any 
distinctions between which bison may pose some infinitesimal 
risk versus those bison that pose absolutely no risk at all.
    We have also heard about inhumane treatment, and yes, those 
pictures we should really embed in our minds. The primary 
elements that concern us include animals being run to 
exhaustion, corralling that does not guard against bison goring 
each other in a panic, animals driven onto frozen lakes that 
results in their falling through the ice into frigid waters and 
freezing to death, mishandling that results in injury and 
death, overstocking transport trailers and shooting of bison at 
slaughter plants because the animals were allowed to 
inadvertently escape their holding areas.
    You know we have in this country 100 million cattle. We are 
talking about 3,600 bison in America's first and most famous 
national park. The world's most famous national park. A lot of 
people talk about the economics. Well what about the economics 
of Yellowstone and this country? How many millions of visitors? 
This is one of the two or three more visited parks in the 
United States. Millions of people go there. Hundreds of 
millions of dollars poured into the economy to see the bison 
and to see the other native wildlife of Yellowstone National 
Park. These animals help bring millions to the economy of 
Montana as well as Idaho and Wyoming.
    We can mitigate and correct our behavior. We can exhibit 
greater tolerance for these animals. We can recognize that 
these animals deserve a place in Yellowstone. They deserve a 
place somewhere at least in this country. Is there anywhere 
where we are not going to subvert the wildlife protection 
interest to cattle interest? Is there one place? Should it be 
in this area? A massive 2.2 million acre park where the animals 
are supposed to be protected with millions of acres of forests 
outside?
    I want to just close by noting I first went to Yellowstone 
on the bison issue in 1988, and there was a hunt of the bison 
at that time. It was stopped, as Governor Schweitzer mentioned, 
and I watched these animals who had been habituated to a 
nonthreatening human presence in the Park. People walk up to 
them and take pictures of them.
    I saw them in these huge open areas feeding you know on the 
grass. They were burrowing in below the snow, and people walked 
up to these animals and shot them. It was the sorting 
equivalent of shooting a parked car. It was appalling, and I 
saw one 14-year-old shot an animal. I do not know why he did 
not get closer, but he was 200 yards away with his telescopic 
rifle, and he shot the buffalo, and he hit the buffalo in the 
spine, and the Boston Globe reporter and I who were there saw 
this animal try to raise himself more than 30 times.
    He would pull himself up just a little. He was obviously 
paralyzed in the back legs, and he would fall down, and he kept 
doing it 30 or 35 times, and the Boston Globe reported that. I 
saw that cruelty, and I was appalled by it, and I think now we 
have a circumstance in this country where we can make a choice. 
Is there one place where we can protect these bison? One place 
in this country?
    I thank Chairman Rahall for your leadership on this issue, 
and I hope we can solve this issue. We have heard constructive 
solutions today. We want to be part of that solution. They are 
there for us to realize. Thank you.
    [The prepared statement of Mr. Pacelle follows:]

             Statement of Wayne Pacelle, President & CEO, 
                The Humane Society of the United States

    Thank you, Mr. Chairman, for the opportunity to testify on the 
subject of the Yellowstone bison. I am Wayne Pacelle, president and CEO 
of The Humane Society of the United States, the nation's largest animal 
protection organization with 10 million members and constituents--one 
of every 30 Americans. The HSUS has worked since its founding in 1954 
to protect both domesticated animals and wildlife. We maintain a 20-
person wildlife department with professional scientists and advocates 
and work on a wide range of wildlife programs.
    I want to thank Natural Resources Chairman Nick Rahall for his 
outstanding leadership on this issue, twice going to the floor with 
amendments to the Interior Appropriations bills in 2004 and 2005 to 
mitigate harm to these animals. Further, I wish to acknowledge the 
leadership and support of Representative Maurice Hinchey, who along 
with former Representative Charles Bass, co-authored on legislation to 
diminish conflicts between people and bison and to prevent as much 
needless killing of Yellowstone bison as possible. I would further 
commend Representatives Jay Inslee and Corinne Brown, along with 
Chairman Rahall, for communicating concerns and questions to the 
National Park Service (NPS) and other agencies as more and more bison 
were hazed and slaughtered in recent years. Finally, I extend our 
strong appreciation to Subcommittee Chairman Raul Grijalva for holding 
these oversight hearings and placing a spotlight on the tragic 
mistreatment of these majestic symbols of the West.
    Since the early 1980s, The HSUS has been very active in wildlife 
issues in and around the Greater Yellowstone Ecosystem. We have 
submitted numerous public comments and provided testimony on behalf of 
the bison and we actively provide support to other groups locally 
involved in this issue. I have a long personal history with this issue, 
having gone to Yellowstone National Park (YNP) in 1988 to videotape the 
shooting of bison in the first ``sport hunt'' of bison that the state 
of Montana had authorized during the century.
    Our regional office located in Billings, Mont. has actively 
participated in the Yellowstone bison issue for over a decade. Our 
regional director served on the Montana Governor's Humane Bison 
Handling Task Force in 1997, and our representatives conducted a corral 
inspection at South Creek in 2003.
    Since then, we have continued efforts to provide oversight of bison 
management and secure more humane treatment of the bison. We have 
worked with both YNP staff and numerous environmental groups to seek 
non-lethal solutions to bison management. Most recently we met with 
Montana Governor's staff and state legislators in an unsuccessful 
attempt to convince them that the expansion of a bison ``sport hunt'' 
was essentially a state-sponsored canned hunt of tame animals.
    There is ample documentation that the treatment of bison in and 
around YNP is inhumane and unacceptable. The primary elements that 
concern us include animals being run to exhaustion, corralling that 
does not guard against bison goring each other in a panic, animals 
driven onto frozen lakes that results in their falling through the ice 
and into frigid waters, mishandling that results in injury and death, 
overstocking transport trailers, and shooting of bison at a slaughter 
plant because the animals were allowed to inadvertently escape their 
holding areas.
    This deplorable set of circumstances reveals the clumsy and 
unprofessional handling of the animals by the state and the federal 
government. In short, these animals are handled like livestock rather 
than extremely powerful wild animals. There has been no government 
agency with central authority to take charge of this situation and 
eliminate the litany of problems associated with the mistreatment of 
these animals
History of Bison in Yellowstone
    The history of America's treatment of the bison in the West is a 
painful and sad story of unbridled sport and market killing of these 
animals, and it provides a powerful case example of how destructive 
attitudes and technology can conspire to wipe out species thought to be 
super-abundant and inexhaustible. This species once roamed across much 
of the continental United States, from northern New York state to the 
Deep South in the east and as far west as Washington state north to 
Alaska and south into northern Mexico. There are even historical 
records of bison in the New Orleans area from the 1600s and early 1700s 
(Lowery 1981).
    The estimated historic population of bison in the United States was 
40--60 million animals. Due to market hunting and overexploitation for 
meat and hides in the 18th and 19th centuries, bison populations 
plummeted, particularly in the latter part of the 19th century. By the 
late 1800s, remnant populations were scattered across the country, most 
in captivity, consisting of perhaps just 1,000 animals. A handful of 
wild bison remained in YNP. The superintendent of Yellowstone in 1902 
estimated that there were about 22 bison left in the remote Pelican 
Valley of the park.
    Attempts were made to lure these remaining animals into enclosures 
using bait, but this failed. Amid growing fears that the last remaining 
bison in the Park would be lost due to weather, disease, or poaching, 
the park superintendent established an enclosed population from 21 
animals purchased from herds maintained in Texas and Montana. This 
imported herd remained separate from the native Yellowstone herd until 
1932 when the herds were allowed to intermingle. All of the bison in 
Yellowstone today are derived from that original founder population of 
43 animals from Yellowstone, Montana, and Texas (Gates et al. 2005).
Bison in Yellowstone Today
    Presently, the three bison populations inhabiting Yellowstone are 
maintained at a total population level between 3,000--4,000 animals. 
Yellowstone National Park is not an island of habitat, and it 
constitutes just 10 percent of the Greater Yellowstone Ecosystem (GYE). 
The GYE covers an area of 10.8 million hectares and represents the 
southernmost area in North America that sustains a full complement of 
native predators, including wolves that were recently reintroduced and 
have thrived in the park. This includes 2 national parks (Yellowstone 
and Grant Teton) that make up about 9.5% of this area while another 
14.8% is designated wilderness areas. A total of 36% of the GYE is 
private land while 64% is public land (Noss et al. 2002).
    Unfortunately, bison are not aware of the arbitrary human 
boundaries that separate YNP from the rest of ecosystem. Bison are 
obligate grazers and as such need access to forage throughout the year. 
Although animals may survive on fat stores during times of deep snow 
fall, bison cannot survive the winter and spring without access to 
range without enormously deep snow cover. During or after harsh winters 
bison will wander to lower elevation, sometimes across the park 
boundaries, in search of food and milder weather conditions (Meagher 
1989).
    Under current regulations, bison that cross the park boundary are 
either hazed back into the park or shot. This policy has resulted in 
nearly 5,000 animals being killed in the last 12 years, with more than 
1,000 slaughtered in the winter and spring of 2005--2006 alone (Buffalo 
Field Campaign 2007). The primary reason given for this killing is the 
threat of disease transmission between bison and cattle, particularly 
the bacterial infection brucellosis.
Brucellosis, bison, cattle, and elk
    Brucellosis is caused by a bacterial zoonosis whose symptoms have 
known to medicine since the 3rd century BC (Cutler et al. 2005). 
Various strains of brucellosis may infect a wide range of mammals 
including humans, rodent, marine mammals, ungulates, goats, sheep, and 
pigs. Pathology in humans includes a suite of flu-like symptoms that 
may persist for years or even decades. These symptoms may be so severe 
that the bacterium that causes brucellosis in pigs (Brucella suis) was 
developed as a biological warfare agent by the United States 
(Greenfield et al. 2002).
    The species that infects cattle and other ungulates is Brucella 
abortus. While humans may contract this disease through the consumption 
of unpasteurized dairy products from infected cattle or goats, or 
inhalation of the bacterium or contact with infected tissues including 
the consumption of raw meat, concerns with bison and brucellosis are 
centered on possible transmission to cattle, not humans.
    Brucellosis infection in ungulates may cause the abortion of 
fetuses, temporary sterility, and occasionally calf mortality (Reynolds 
et al. 2003). Before considering the factors that make brucellosis 
transmission from bison to cattle extremely unlikely, we must consider 
how bison came to be infected with this pathogen in the first place.
    As mentioned, the symptoms of brucellosis in humans have been known 
for millennia and were recorded in ancient Greece; hence it is obvious 
that this disease was known in the Old World. An examination of the 
evolutionary history of bison and B. abortus in addition to this 
disease's animal hosts, genetics, and biochemistry has revealed that 
this pathogen was introduced to the New World as an infection of 
domesticated cattle. Further examination of historic documents also 
revealed that ranched bison in Yellowstone most likely contracted the 
disease from cattle being kept in the park by employees sometime around 
1917, when the first recorded abortions of bison occurred (Meagher and 
Meyer 1994). This disease and its symptoms in bison were never recorded 
or mentioned by Native Americans or European Americans anywhere on the 
continent before the incidents in 1917. In the analysis cited (Meagher 
and Meyer 1994), they analyzed the possibility of disease transfer 
through cattle fostering of bison calves yet concluded this means of 
disease transfer to be unlikely because the milk feedings occurred 
about 13 years before brucellosis was ever detected in bison.
    While transmission of brucellosis from bison to cattle can occur, 
as proven under controlled, experimental conditions (Davis et al. 
1990), the chance of this actually happening under natural conditions 
is remote indeed, and there has never been a documented case of 
brucellosis transmission from bison to cattle in the wild. In fact, the 
origins of this disease in bison appear to be a result of forced 
proximity to cattle.
    Under unmanaged conditions, bison and cattle are generally 
separated spatially and temporally and thus are unlikely to come into 
contact with each other, especially during the period of time when 
female bison are giving birth or when livestock may otherwise come into 
contact with potentially infectious materials. In fact, existing cattle 
grazing allotments bordering the Park are not utilized at a time when 
elk or bison are calving and thus may potentially abort. Hence, cattle 
are not present at an appropriate time or place for exposure to 
brucellosis from bison or elk (Thorne and Kreeger 2002).
    Although the USDA may claim that bison are more likely to pass 
brucellosis to cattle than are elk due to their gregarious nature, this 
argument does not apply in the area around Yellowstone where elk are 
artificially concentrated over food. In fact, this feeding practice is 
recognized as the primary reason that elk can successfully serve as a 
reservoir for B. abortus (Godfroid 2002). In fact, elk that had been 
congregated around feeding stations have been implicated in the most 
recent transmission of brucellosis to cattle from wildlife in Idaho 
(USDA website). As of this winter, nearly 7,000 elk were counted in the 
northern region of the Park and across the border on adjacent lands 
(Yellowstone National Park 2007). The park estimates that at least 
15,000 elk winter within the park with nearly 30,000 present within its 
borders during the summer (YNP website).
    Considering that the vast majority of cattle in the GYA area are 
vaccinated against brucellosis as calves and the chance of transmission 
from bison is highly improbable, the policy to test and vaccinate wild, 
free-ranging bison simply does not make sense. It is a severe 
overreaction by state and federal authorities who disregard the 
public's interest in balancing concern for livestock production with 
the imperative to protect wildlife in the America's first and most 
famous national park. Such actions can be equated to combating rabies 
in pet populations by attempting to test and vaccinate free-ranging 
bats, foxes, skunks, and raccoons. In both of these cases, the 
financial and logistical costs of such actions, in addition to the 
excessive stress caused to these animals, far outweighs the 
infinitesimal risk of actual disease transmission. It is a radical 
overreach, and it should be discontinued.
Current Treatment of Bison in Yellowstone
    The NPS, USDA and its Animal and Plant Health Inspection Service 
(APHIS), the U.S. Forest Service, and the State of Montana completed an 
Environmental Impact Statement for the Interagency Bison Management 
Plan for the State of Montana and Yellowstone National Park in November 
2000. Under this plan, animals within the park boundaries are subject 
to capture, testing, and vaccination for brucellosis. If animals test 
positive, they are shipped to slaughter. If animals leave the park, 
efforts are made to haze them back into the park. If these efforts 
fail, the state allows hunters to shoot the animals.
    The Yellowstone bison roam a unique ecosystem and are one of the 
few remaining bison herds that is not known to have ever been interbred 
with cattle. Moreover, these are large, powerful wild animals that are 
not accustomed to close human contact and hence will make all efforts 
to avoid capture. Forcing these creatures into pens and into restraints 
is excessively stressful and may jeopardize the survival of young 
animals subject to unnecessary handling.
    As mentioned, the bison that cross the park boundary are subject to 
hazing and killing. The animals that venture outside of YNP are not in 
any real danger of coming into contact with cattle. Additionally, 
federal and state authorities do not just target females, but also male 
bison, despite the fact that these animals pose absolutely no risk of 
transmitting brucellosis to cattle. They do not have placental 
material, and therefore pose no risk of transmitting brucellosis to 
cattle. In contrast, the elk that roam throughout Forest Service 
grazing allotments outside of Yellowstone are not subject to such a 
severe no-migration policy even though they are known to carry 
brucellosis. This inconsistency is very difficult to reconcile--one 
wildlife species that does demonstrate an exposure to brucellosis is 
allowed to range freely outside of YNP, and the other species with 
brucellosis exposure is subject to a strict no-migration policy.
    The livestock industry would just as soon see no large ungulate 
populations, or wolves, outside of the park, since any ungulates 
competes for grass during a small portion of the year with cattle. That 
is the subtext for this controversy. But the elk have a stronger 
political lobby of hunters and wildlife watchers and the task of 
eliminating them from Forest Service lands would be a very difficult 
political and logistical exercise. They have instead chosen to draw the 
line with bison and do not want to see any competition from this 
species. The brucellosis issue is at worst a red herring, and at best 
an overblown overreaction by the livestock industry.
What should be done
    Bison are large roaming ungulates that require vast tracks of land 
with suitable forage to exist and flourish. While there are an 
estimated 200,000 to 300,000 bison living in North America today, the 
vast majority of them are in a semi-captive state. Best-guess estimates 
conclude that there are only about 12,000-15,000 free-roaming bison 
left on the continent. In comparison, according to the National 
Agricultural Statistics Service, there are nearly 100 million cattle 
living in the United Stats at present a number which meets or exceeds 
the historic numbers of bison estimated to have inhabited the whole of 
the North American continent.
    The Yellowstone bison draw to tourists from around the world that 
seek to experience the wild character of the unique GYE landscape and 
its robust complement of native wildlife species. Is there one place in 
our nation where we can allow them to roam, or must we subvert bison 
protection to cattle interests in every single ecosystem in the United 
States?
    Bison should be permitted to traverse the borders of Yellowstone in 
search of food in the winter and early spring. There is no biological, 
ecological, or even economic reason why these animals must be corralled 
in Yellowstone National Park and treated like a group of shaggy, 
unowned cattle. The animals roam principally on America's public lands, 
and they deserve protection.
    Thank you for the opportunity to testify
NOTES
    Buffalo Field Campaign 2006. Online database available at:
http://www.buffalofieldcampaign.org accessed March 2007.
    Cutler, S.J. et al. 2005. Brucellosis--new aspects of an old 
disease. Journal of Applied Microbiology 98: 1270--1281.
    Davis, D.S. 1990. Brucella abortus in captive bison. I. serology, 
bacteriology, pathogenesis, and transmission to cattle. Journal of 
Wildlife Diseases 26(3): 360--371.
    Gates et al. 2005. The Ecology of Bison Movements and Distribution 
in and Beyond Yellowstone National Park: A Critical Review with 
Implications for Winter Use and Transboundary Population Management. 
University of Calgary, Alberta, Canada. Available online: http://
www.nps.gov/yell/naturescience/gatesbison.htm
    Godfroid, J. 2002. Brucellosis in wildlife. Rev. Sci. Off. Int. 
Epiz. 21(2): 277-286.
    Greenfield, R.A. et al. 2002. Bacterial pathogens as biological 
weapons and agents of bioterrorism. American Journal of the Medical 
Sciences. 323: 299--315.
    Lowery, G. H. Jr. 1981. The Mammals of Louisiana and its Adjacent 
Waters. Louisiana State University Press 565 pp.
    Meagher, M. 1989. Range expansion by bison of Yellowstone National 
Park. Journal of Mammalogy 70(3): 670--675.
    Meagher, M. and M.E. Meyer. 1994. On the origin of brucellosis in 
bison of Yellowstone National Park: a review. Conservation Biology 
8(3): 645--653.
    Noss, R. F. 2002. A multicriteria assessment of the 
irreplaceability and vulnerability of sites in the Greater Yellowstone 
Ecosystem. Conservation Biology 16(4): 895--908.
    Parmenter et al. 2003. Land use and land cover changes in
    Reynolds, H.W. et al. 2003. Bison. Pg. 1009-1060. In: The Wild 
Mammals of North America: Biology Management and Conservation 2nd 
edition. G.A. Feldhamer, B.C. Thompson, and J.A. Chapman (eds.) The 
Johns Hopkins University Press, Baltimore, MD.
    Thorne, T. and T. Kreeger. 2002. Management options for the 
resolution of brucellosis in the GYA. In: T.J. Kreeger (ed.), 
Brucellosis in Elk and Bison in the Greater Yellowstone Area 
(Proceedings of the national symposium), September 17--18, 2002.
    USDA website: http://www.aphis.usda.gov/vs/nahps/brucellosis/
cattle.htm#About%
20Elk accessed March 2007
    Yellowstone National Park 2007. Press Release: 2006-2007 Winter 
Count of Northern Yellowstone Elk available online: http://www.nps.gov/
archive/yell/press/nycwwg.htm (accessed March 2007).
    NOTE: Additional information submitted for the record by Mr. 
Pacelle have been retained in the Committee's official files.
                                 ______
                                 
    Mr. Grijalva. Thank you. Mr. Hagenbarth.

                 STATEMENT OF JIM HAGENBARTH, 
                MONTANA STOCKGROWERS ASSOCIATION

    Mr. Hagenbarth. Mr. Chairman and members of this 
Subcommittee, my name is Jim Hagenbarth. As a representative of 
my family and of the families of the Montana Stock Growers, I 
thank you for this opportunity to testify in regard to the 
disease and landscape issues that impact Yellowstone National 
Park, the greater Yellowstone wildlife populations and 
especially the landscape.
    The testimony I submit today is taken from years of 
livestock experience and generations of resource management. 
Our family's history in this region began in the 1860s with 
gold fever and progressed to livestock production in the 1880s. 
Today my brother, my son and myself take pride in managing 
portions of this same landscape. Hopefully my testimony will 
provide insight to this committee on facilitating responsible 
management of the resources in this area under your control.
    Brucellosis is an intercellular bacterial disease affecting 
animals and humans. It has taken 50 years and a $3 billion 
battle for APHIS and the livestock industry to eradicate 
brucellosis from the cattle herds of America. By using a 
marginal vaccine and an iron will, a will that was tempered by 
setbacks due to the enormity of the task and the resilience of 
this disease, the nation's cattle herd has become brucellosis-
free.
    The lessons learned from this experience and the emotional 
scars left by the losses incurred has led to the tenacity 
displayed by APHIS and the livestock industry in attempting to 
manage diseased wildlife in the greater Yellowstone area. It is 
understandable that the general public and possibly this 
committee does not comprehend the seriousness of our dilemma in 
Yellowstone.
    Brucellosis in Yellowstone was first recorded in bison in 
1917 and in elk in 1935. This disease was controlled in the 
Park until a nature regulation policy was adapted in 1967. 
Under this policy the brucellosis exposed populations of 
wildlife in the greater Yellowstone area have increased to the 
point that this area's livestock industry is in jeopardy. It is 
unimaginable that a policy in Yellowstone has enhanced an 
exotic disease that has held bison captive to either starve in 
the Park or leave and be slaughtered.
    Montana has received a black eye because we accept our 
obligation to society to be a responsible resource and wildlife 
manager. In the west ranchers' ability to harbor open space is 
much more important to society than the production of food and 
fiber. Brucellosis in wildlife in the greater Yellowstone area 
has the potential to drive economically viable ranching 
interests out of business. We must design a long-term plan to 
meet this challenge.
    Time is running short yet science is developing new tools 
that will give us different alternatives in eradicating 
disease. We need to gather all the involved interests in order 
to reach our goal. If we fail, if we fail, the GYA will be 
fragmented beyond recognition because as we lose the rancher 
the last crop planted will be a subdivision. Thank you.
    [The prepared statement of Mr. Hagenbarth follows:]

                   Statement of James F. Hagenbarth, 
           Representing the Montana Stockgrowers Association

    My name is Jim Hagenbarth. I am thankful to the Committee for the 
opportunity to testify on behalf of my family and the Montana 
Stockgrowers Association, one of the oldest livestock associations in 
the United States and offer you insight into the issues that involve 
the ``Yellowstone National Park Bison''. My brother, son and I own and 
manage a livestock operation in southwestern Montana and southeastern 
Idaho. This business was put together from scratch in the late 1930's 
by my Father after he completed the dispersal of my Grandfather's 
failed livestock holdings in the same area in the early 1930's. Our 
family's history in the Greater Yellowstone Area (GYA) began in the 
1860's in the goldfields of southwestern Montana and southeastern 
Idaho. As the gold disappeared, development of a livestock enterprise 
began in the early 1880's and we still manage portions of the same land 
resource. In 1904 my grandfather, Frank Hagenbarth, had a survey made 
of the Targhee Forest and sponsored this area as a National Forest to 
President Theodore Roosevelt and the President promptly set aside the 
Targhee as a National Forest. The majority of the Targhee lies in the 
GYA and borders the west boundary of Yellowstone Park. We take great 
personal pride in the land resource that we manage and hopefully my 
testimony will provide insight to this committee on facilitating 
responsible management of the resources in this area under their 
control.
    The geographic location of our livestock operation requires 
movement of cattle across state lines. This movement subjects our herd 
to the animal health requirements of both Montana and Idaho and at 
times the federal regulatory authority of the United States Department 
of Agriculture's Animal Plant Health Inspection Service (APHIS), 
depending upon the livestock disease status of both states. I have been 
actively involved in the development of these regulations due to their 
potential impact on our business. This participation placed me on the 
Montana Board of Livestock from 1985 to 1997. During this time the 
brucellosis exposed bison from Yellowstone Park were migrating into 
Montana during the winter and the foundation was being laid for the 
development of the Interagency Bison Management Plan (IBMP). Due to the 
devastating impacts brucellosis exposure could have on our operation 
and interstate movement of our livestock, I studied every aspect of 
this disease and it's far reaching implications. The information I have 
assimilated over the years and the experiences of being involved are 
the sources from which my testimony is drawn.
    Yellowstone National Park (YNP) was established in 1872 and wide-
spread hunting occurred until 1883. The earliest population estimates 
were 600 bison in 1880 and 300 in 1892. I am not sure if bison were 
native to the Park or if these remnant populations were forced there by 
hunting pressure on the plains. In 1902 Congress appropriated funds to 
save YNP bison from extermination. Fewer than 50 wild bison remained in 
the Park and the herd was augmented with 21 bison from semi-
domesticated herds in Montana and Texas. These introduced bison were 
maintained in enclosures initially at Mammoth and then at the Buffalo 
Ranch in the Lamar Valley until 1952. Periodically there were some wild 
calves added to the ranch herd and some ranch herd bison released to 
the wild. In 1917 tests indicated brucellosis infection in bison at the 
Lamar Buffalo Ranch. From 1925-1967 bison management emphasized 
restoring bison to previous ranges in the park and population control 
with a range-based carrying capacity of 425 bison. Periodic culling 
occurred either through capture and shipment or shooting. During this 
period more than 9000 bison were removed by management actions. The 
largest population of 1,477 head occurred in 1954. In 1967 YNP began a 
policy of natural regulation for bison and the actual count was 397. 
From 1967 until the IBMP was finalized in December of 2000 a series of 
federal, state and joint management plans were used to control the 
winter migration of brucellosis exposed bison from the Park. Some of 
the removal was accomplished through hunts authorized by the Montana 
legislature. In 1985 Montana's cattle herd became brucellosis free. In 
1991 the Fund for Animals asked the U.S. District Court for injunctive 
relief to stop the harvesting of bison outside park boundaries. 
Injunctive relief was denied. In 1994 several states required 
additional testing requirements for exported Montana cattle due to the 
disease risk of disease exposed and seropositive bison outside YNP. In 
January of 1995 Montana filed a complaint in the U.S. District Court 
against the federal government, related to Department of Interior 
policies that caused diseased and diseased-exposed bison to enter into 
Montana and Department of Agriculture policies that might revoke 
Montana's brucellosis-free certification based on the mere presence of 
diseased wild bison in the State. In November of 1995 the U.S. District 
Court accepted the settlement agreement submitted by Montana, the 
federal government and the Royal Teton Ranch. Among the provisions of 
the settlement was a schedule for completion of a long-term management 
plan and Environmental Impact Statement (EIS); and, concurrence that 
bison management, according to the provisions of the settlement, is 
consistent with Montana's brucellosis-free status. In December of 2000 
the IBMP was completed and dictates how bison are to be handled as they 
leave YNP. The plan manages the risk of brucellosis transmission from 
bison to cattle through area-specific strategies to maintain temporal 
and spatial separation between bison and cattle. This plan includes 
vaccination protocols appropriate for both bison and cattle. This plan 
is very specific as to areas (zones) where specific numbers of bison 
can be outside the park. This plan is adaptive and changes can be made 
where sound scientific research indicates that the risk of transmission 
is acceptable to the Montana State Veterinarian in consultation with 
APHIS. Provisions are made in this plan that outlines the consequences 
of parties not living up to their commitments. In March of 2006 the 
Western States Livestock Health Association (an association of state 
veterinarians) passed a resolution reminding the GYA states of Idaho, 
Montana, and Wyoming that temporal and spatial separation must be 
maintained between infected elk/bison and cattle. Future communications 
to the states clarified that compliance with the IBMP will allow the 
states to retain their status, but failure to do so may require the 
western states to consider additional requirements and sanctions upon 
the GYA states. In the last couple of years Wyoming and Idaho have had 
cattle exposed and infected with brucellosis through contact with 
infected elk, not bison. Both states lost their brucellosis free status 
and had to go through testing procedures and re-certification by APHIS. 
Wyoming has since regained brucellosis free status and Idaho is under 
review.
    When eradicating brucellosis from YNP bison was being discussed in 
the early 1980's, it was the general consensus that if the bison became 
disease free, brucellosis would not sustain itself in the wild elk 
herds. This does not seem to be the case now. Eighty percent of the elk 
population in Wyoming is dependent upon winter feed grounds. These elk 
are being fed to either give them subsistence because of lack of native 
winter range to sustain the current numbers or keep the elk from using 
livestock feed lines and exposing cattle to brucellosis. There are 
twenty plus feed grounds in Wyoming and the incidence of disease vary 
between areas, but it can be as high as twenty percent seropositivity. 
Congregating elk on winter feed grounds exposes large numbers of 
animals to disease due to abortions of infected females. The aborted 
fetus and birthing fluids and membranes pose the greatest risk of 
infection with this disease. Some feeding of elk in southeastern Idaho 
occurs because of loss of winter range to development, elk populations 
wintering in non traditional areas, and strategic feeding to keep 
separation between elk and livestock. Feeding of elk by any entity 
other than the Fish and Game department is illegal. In Montana feeding 
of wildlife is illegal. Due to displacement of some elk by development 
and large numbers, wintering herds are growing and concentrating on 
winter ranges in southwestern Montana valleys. This is causing concern 
because the concentration of elk during this period exposes more 
numbers of the herd to disease. Predation and harassment of elk by 
wolves has impact on the behavior of elk. In Wyoming wolves are moving 
elk off feed grounds into nontraditional poor winter ranges or close to 
cattle feed lines. In Montana wolves are concentrating elk into large 
herds and often close to the valley floors where livestock reside. 
Management of these herds is becoming more difficult and brucellosis 
will sustain itself in these populations, regardless of the brucellosis 
in the bison. Consequently, brucellosis eradication in the GYA includes 
YNP bison and many of the elk herds in the GYA states that are exposed. 
The brucellosis infection of cattle from elk in Wyoming and Idaho is 
testimony that elk are a real threat and need to be dealt with. The 
fact that cattle have not been infected by infected park bison relates 
to the efficacy of the IBMP.
    Brucellosis is an infectious and contagious intracellular parasitic 
bacterial disease of animals and humans. It was first recognized in the 
Mediterranean area and was at first thought to be an exotic form of 
typhoid fever. In 1886 a British surgeon, Sir David Bruce, first 
isolated the bacteria from the spleen of a human fatal case. In 1887 
Bernard Bangs, a Danish physician, found cattle to be reservoirs of 
undulant fever which was causing abortion in dairy cattle. Brucellosis 
was undoubtedly introduced to America via livestock brought by the 
early explorers and settlements. Brucella abortus, the species most 
commonly associated with brucellosis in cattle in the U.S., causes 
abortion, dead or weak calves, reduced milk yield, lower weaning 
weight, and lowered fertility. In humans, Brucella abortus causes 
undulant fever, a disease characterized by intermittent fever, 
headaches, fatigue, joint and bone pain, psychotic disturbances and 
other symptoms. It is contracted through exposure to infected animals 
and their products. Livestock and slaughter industry workers and 
consumers of non pasteurized milk products have typically been at 
highest risk of contracting the disease. Cases have decreased as 
brucellosis eradication in domestic livestock has progressed and dairy 
products were pasteurized. Two of the last cases in Montana involved 
hunters that contracted brucellosis from dressing cow elk during a late 
season elk hunt northwest of YNP in the Ennis, Montana area.
    Since the cooperative State-Federal program was begun in 1951, 
approximately $3.5 billion in State, Federal and Industry funds have 
been spent on brucellosis eradication. Using surveillance, vaccination, 
quarantine, herd management, and herd depopulation with indemnity 
payment, the program has been successful in reducing the number of 
known infected herds from 124,000 in 1957 to 0 at this time. Texas and 
Idaho are in the process of applying to APHIS for reinstatement of 
their class free status classification. After 50 plus years of 
experience in eradicating this disease in cattle and the availability 
of a vaccine that is only 70% efficacious, APHIS and producers have 
recognized that whole herd eradication is the preferred method for 
domestic livestock. The nature of the disease and the poor immune 
response of its host to vaccination render mitigation through risk 
management a dangerous alternative to depopulation. Latent infections 
have often caused major setbacks in eradication efforts. Most producers 
who have not dealt directly with eradication efforts and practically 
all other publics do not understand the tenacity displayed by APHIS and 
state veterinarians when asked to allow risk management strategies 
other than depopulation and total eradication. Only with the 
development of more efficacious vaccines that can be delivered orally 
or injected, will brucellosis be eradicated from the elk and bison that 
are infected in the GYA.
    In a brucellosis class free state, contracting brucellosis in any 
domestic livestock herd will automatically require depopulation. If two 
herds are found infected in a state, the state loses its class free 
status and must meet APHIS testing protocols of large populations of 
test eligible animals to regain their status, not to mention the 
testing of all test eligible cattle that are exported out of state. It 
took 30 years of testing and 33 million dollars for Montana to achieve 
its brucellosis free status in 1985. In the early 1990's a wildlife 
outbreak in Wyoming cost the Parker Ranch 1.1 million dollars for loss 
of cattle, out-of-pocket costs and loss of future earnings. Since 1970 
our business has spent over 260 thousand dollars vaccinating and 
testing for brucellosis and we have never had the disease. The Market 
Cattle Identification (MCI) trace back program requires every sexually 
intact female over two years of age that is processed at a federally 
inspected packing plant to be tested. This program is an excellent 
surveillance tool to identify any outbreak of brucellosis that may 
occur nationally. APHIS and the livestock industry have expended 
millions of dollars and have exerted tremendous effort while enduring 
much pain and agony eradicating brucellosis from our domestic cattle 
herds. The livestock producers in the GYA that are being exposed to 
infected elk and to YNP bison, if the IBMP is not adhered too, are very 
apprehensive that we can withstand the challenge that brucellosis 
infected wildlife presents. We need help from the scientific and 
research community to develop more efficacious vaccines that will 
eradicate this disease from the wildlife in the GYA and effectively 
protect our domestic livestock herds. There must be population control 
through hunting and or other methods (birth control) if brucellosis is 
to be contained and eventually eradicated from the elk in the GYA and 
the bison in YNP. For the Secretary of the Interior to not allow 
population control of bison in YNP and the Park Service to use a 
natural regulation policy to hide behind in managing a bison herd that 
is infected with an exotic zoonotic disease that serves as the host for 
infection of elk and livestock in the GYA, is irresponsible and 
unimaginable. By not accepting their responsibility of population and 
disease management, the Department of Interior (DOI) and YNP are 
sentencing the YNP bison to the option of starving to death in the park 
or facing harassment, testing, and slaughter because they carry a 
disease that threatens other wildlife, livestock and the integrity of 
the landscape in the GYA. Due to geography and how the bison migrate, 
the current and past Governors of Montana, the Montana Stockgrowers 
Association, the Montana Board of Livestock, and APHIS have taken a 
stand against this disease and have gotten a black eye because we 
recognize the impacts this disease can have. If we cannot eradicate 
this disease, the livestock production from the GYA states will be 
discounted by those states and countries we export to, severely 
impacting our industry. This could also become a trade issue and used 
as leverage against us in the international market place for our 
healthy and wholesome cattle and beef products.
    The landscape in the GYA is changing. Urban America has fallen in 
love with the open spaces of the rural west. The ranching and farming 
community accepted the challenge of the Homestead Act and other 
legislation that allowed us to settle the west and develop the 
infrastructure that supports what we now have. This job must have been 
well done because everyone is seeking the open space we nurtured. It is 
quickly becoming apparent that the livestock industry's value to 
society is the preservation of open space, rather than the production 
of food and fiber. The private land that was homesteaded has some of 
the best water and soils and provides some of the most productive 
wildlife habitat in the GYA. The cumulative effects of the abuse of the 
Endangered Species Act (ESA) to change land use, bureaucratic 
nightmares involving government programs along with air and water 
quality laws, planning and zoning, estate taxes and just the challenge 
of managing a private business in America today is about to take its 
toll. The inability of the current players involved to find solutions 
to the disease and population issues in the bison and elk in the GYA 
may very well be lead to the demise of the ranching community in the 
GYA. One must recognize that the last crop harvested by a rancher in 
the GYA will be a subdivision. This development in the GYA will 
fragment the landscape and destroy the wildlife habitat that makes this 
area important to society today and tomorrow. We must not venture down 
this path. Just visit Jackson Hole, Wyoming, or the Teton Basin in 
Idaho or the Madison Valley in Montana and you will get a feeling for 
what is coming if we lose the working ranch community.
    I have served on three consensus groups in the last fifteen years 
dealing with resource and watershed issues. In these groups all 
interests are represented and their concerns are understood. In every 
instance we have been able to find a solution that enhances the 
resource or species of concern and satisfies all interests. This 
process is time consuming and difficult, but once one begins listening 
to and trusting each other, positive solutions are produced. In talking 
with the scientific community, great strides are being made in disease 
control and tools are becoming available that will help us achieve 
brucellosis eradication the GYA elk and bison herds. We need all the 
interested parties to join together to design a long term plan with 
solid intermittent steps to achieve the eradication goal. The stakes 
are too high to proceed down the path we are going. The loss of the 
livestock on our western ranges is insignificant compared to the loss 
of the men and women who own and manage these ranches and have the 
knowledge, fortitude and love of the land to keep it productive, 
sustainable and open. If we lose this culture, the GYA and its wildlife 
habitat and openness will be fragmented beyond recognition. The bison 
has become a symbol of the American west. How appropriate it would be 
to start with the YNP Bison in finding solutions that will stop this 
disease that is threatening to take all that we have worked for. This 
can be done and must be done and we need the help of our new neighbors 
and friends that have come west to seek the same values and 
opportunities that lured our predecessors out of the nest. It is time 
to go to work.
                                 ______
                                 
    Mr. Grijalva. Thank you. Dr. Kay.

      STATEMENT OF DR. CHARLES KAY, UTAH STATE UNIVERSITY

    Mr. Kay. I would first like to thank the Chairman and the 
Subcommittee for inviting me to testify here today. My PhD is 
in wildlife ecology, and I am presently associated with the 
political science department at Utah State University. I spent 
more than 20 years studying in Yellowstone National Park. I 
have also done extensive research for Parks Canada in the 
southern Canadian Rockies.
    Yellowstone is presently managed under what is termed 
natural regulation. This though is more than simply letting 
nature take its course for it entails a specific view of how 
nature operates. According to the Park Service, predation is an 
assisting but nonessential adjunct to the regulation of bison 
and elk populations. Instead, ungulates are limited by their 
available food supply, termed resource or food limited. The 
Park Service contends that ungulated populations well self-
regulate without overgrazing the range.
    This means that wolves and other predators only kill the 
animals slated by nature to die from other causes and thus 
predation has no effect on elk or bison numbers. Under natural 
regulation the Park Service claims that thousands of bison and 
elk have always inhabited Yellowstone. The Park Service also 
contends that present conditions in Yellowstone are similar to 
those in the past. Now if this were true then earlier explorers 
should have found Yellowstone teaming with wildlife and the 
range should be as overgrazed in the past as it is today.
    Historical data however paint an entirely different 
picture. As part of my research I have conducted a continuous 
time analysis of all first person historical accounts of 
Yellowstone exploration. Between 1835 and 1876, there were 20 
different expeditions. They spent 765 days in the ecosystem on 
foot or horseback. They saw bison only three times, none were 
in the present confines of Yellowstone Park.
    Today there are approximately 4,000 bison within the Park 
as well as an estimated 100,000 elk in the ecosystem yet those 
same explorers reported seeing elk only once every 18 days, and 
their journal contained 45 references to a lack of game or 
shortage of food. In addition, none of the early explorers--and 
I emphasize none--reported seeing or killing a single wolf, 
another indication that ungulates were rare and present 
conditions are entirely outside the range of historical 
variability. Similarly, archeological data indicate there are 
more bison and elk in Yellowstone today than any point in the 
last 10,000 years.
    Why are bison leaving the Park? According to the Park 
Service, bison are leaving the Park today are simply following 
historic migration routes down the Madison River Valley to the 
west and Yellowstone River Valley to the north.
    Interestingly, however, that is not what the Park Service 
said in 1973 when the agency formulated its natural regulation 
program, and I would refer the committee members to attachment 
eight of my testimony. This is from the Park Service scientific 
monogram in 1973 that laid out the whole natural regulation 
paradigm for bison. You will see there is no bison movements 
either to the north, down the Yellowstone River Valley or to 
the west, down the Madison River Valley.
    In that document as well as other earlier documents the 
Park Service said that Yellowstone's bison population would 
naturally regulate at 1,000 to 2,000 animals. As we all know 
that has not proven to be the case. The Park Service has since 
suggested that the reason the bison population has grown beyond 
the numbers the agency predicted was because the Park roads 
have improved to facilitate over-the-snow vehicles during 
winter, and this is what started the whole snow machine debate.
    It has been hypothesis that the use of snowpacked roads 
reduced the energetic cost of bison moving through deep snow 
and opened new areas to bison foraging which in term allowed 
bison numbers to increase. Recent research, however, has shown 
that hypothesis to be false, and the National Academy of 
Science has concluded that grooming Park roads has had nothing 
to do with the increase of bison above earlier predictions.
    As bison numbers have grown, the animals have steadily 
overgrazed the range. It should come as no surprise then that 
bison are simply leaving Yellowstone Park and the animal is 
looking for something to eat. As explained in a recent book 
called Yellowstone's Destabilized Ecosystem, this is the latest 
word on whether the Park is grazed or overgrazed, published by 
Oxford University Press, one of the leading publishers of the 
scientific book. It is a synthesis of all the research that has 
been done in Yellowstone Park. Not only is it seriously 
overgrazed but natural regulation is a failed management 
philosophy.
    Not only has Yellowstone's bison population not self-
regulated as earlier predicted by the Park Service, no ungulate 
population anywhere in the world has self-regulated without 
first causing extensive resource damage. Instead, the natural 
state of the Yellowstone ecosystem included native hunters who 
kept bison and other populations at very low levels and 
actually promoted biodiversity. Native people, not wolves, were 
the system's keystone predator, and it was not until native 
populations were decimated by European introduced diseases and 
the survivor was banished from Yellowstone with the second 
superintendent Norris that bison elk populations erupted to 
unnatural levels.
    So what then is the solution to the bison overpopulation 
problem? I suggest that Congress revisit the treaties of 1851 
and 1868 which predate the establishment of Yellowstone Park 
and under which various tribes already claim hunting rights in 
Yellowstone. The previous Park Service witness said that they 
had no hunting rights in the Park. My understanding is that is 
not what the native people think and Congress may want to 
revisit that issue.
    Thus one way to reduce overgrazing and to keep bison from 
leaving the Park would be to honor the United States' previous 
commitment to Yellowstone's original owners and allow them to 
hunt in the Park. After all, aboriginal hunting has been a 
natural ecosystem process for more than 12,000 years, and as 
such is in keeping with the Park Organic Act and subregulations 
to maintain natural conditions.
    For how this might be accomplished, I suggest we look to 
our northern neighbors. Parks Canada has the most stringent 
environmental protective statutes of any park service in the 
world for they added an amendment to their organic act which 
says that ecological integrity shall be given first priority in 
all management tools. Shall not will or may. Shall mandates 
compliance. There is no wiggle room for the government 
bureaucrats.
    So based on extensive archeological research, Parks Canada 
has developed ecological integrity standards that include both 
native hunting and native burning. First Nations are already 
allowed to hunt in various Canadian national parks and are the 
bison restoration program that I have been involved in in Banff 
National Park, First Nations will be allowed to hunt bison in 
the park to maintain ecological integrity. Native hunting will 
be used to prevent bison from leaving the park as well as to 
prevent overgrazing.
    Parks Canada is also working out a directive to allow First 
Nations to hunt elk and other animals in national parks to 
prevent resource damage from unnaturally high ungulate 
populations. Again, we must remember that parks with native 
hunting are natural and parks without native hunting like 
Yellowstone are entirely unnatural and totally outside the 
range of historical variability.
    Would not giving bison additional land outside Yellowstone 
solve the problem? Unfortunately inadequate land has never been 
the problem. Instead the present situation is a direct route of 
natural regulation management under which the Park Service 
assumes that bison will self-regulate, and that predation 
including that by native people is unimportant to limit the 
ungulate numbers.
    No matter where the line is drawn under natural regulation, 
bison will continue to increase until they are forced by 
overgrazing and starvation to again cross that line. In fact, 
giving the bison more land will only make situation worse. OK. 
For the sake of argument, say that bison are given all the last 
west of Yellowstone Park and the Madison drainage down to Quake 
Lake or however far you want to go down. OK.
    While to the north bison are given all the land down the 
Yellowstone River down to the Yankee Jim Canyon or maybe 
halfway to Livingston, if that is your view. Would not that 
solve the bison problem? It might for a few years. OK. But 
during some future winter instead of 5,000 bison coming out of 
the Park, we would have 10,000 or 15,000 bison heading for 
Ennis, Livingston and Helena, and the bison would still be 
infected with brucellosis. This would mean killing even larger 
numbers of bison or never ending calls for additional land.
    Moreover, this option has already been tried, and it has 
been a dismal failure. In 1932 land was added to Yellowstone 
Park in an attempt to solve the elk over population problem. 
This is called the boundary line addition, and is now one of 
the most overgrazed areas in the Park. It did not work then, 
and it will not work now.
    It is also likely that bison will start summering on any 
new range as has happened in other bison population build-ups. 
I mean if you do not harass those bison off those areas, they 
are going to just move to them.
    Mr. Grijalva. Dr. Kay, if you could wrap it up.
    Mr. Kay. Yes.
    Mr. Grijalva. The grace period that other people had has 
already passed.
    Mr. Kay. After all, once bison summer on the northern great 
plains, there is no biological reason for them to move back 
into Yellowstone. Thank you very much.
    [The prepared statement of Mr. Kay follows:]

     Statement of Charles E. Kay, Institute of Political Economy, 
              Utah State University, Logan, UT 84322-0725

    I would first like to thank the Chairman and the Subcommittee for 
inviting me to testify here today. I have a B.S. in Wildlife Biology 
and a M.S. in Environmental Studies both from the University of 
Montana, and a Ph.D. in Wildlife Ecology from Utah State University. I 
am presently an Adjunct Associate Professor in the Department of 
Political Science and a Senior Research Scientist at that University's 
Institute of Political Economy. I am the only independently funded 
scientist to have conducted a detailed evaluation of Yellowstone Park's 
``natural regulation'' program. Not only have I conducted scientific 
research on the overgrazing question, but I have also studied the bison 
problem, wolf recovery, grizzly bear management, and other key issues 
in that ecosystem. I have also traveled widely throughout the West and 
am familiar with similar resource management problems in other national 
parks. For instance, I have conducted extensive research in the 
southern Canadian Rockies for Parks Canada. This included work in Banff 
National Park on bison reintroduction. I am also one of the leading 
experts on aboriginal influences and the original state of nature.
    My research in Yellowstone and Canada has been widely published in 
books and scientific journals and I have submitted copies of those 
papers to the committee's staff. I have previously testified before 
this Subcommittee on ``Science and Resource Management in the National 
Park System'' and I have testified before the House Subcommittee on 
Forests and Forest Health on ``The Decline of Aspen in the Western 
United States.''
    Yellowstone is a great national treasure, but as the Subcommittee 
that oversees national parks, you face many difficult issues--such as, 
Why are bison leaving Yellowstone Park? Will giving bison additional 
land outside Yellowstone solve the problem? and, Is there a solution to 
the brucellosis issue? I will address each of these, in turn, but first 
some background information.
    Yellowstone is presently managed under what is termed ``natural 
regulation.'' This, though, is more than simply letting nature take its 
course for it entails a specific view of how nature operates. According 
to the Park Service, predation is an assisting but nonessential adjunct 
to the regulation of bison and elk populations. Instead, ungulates are 
limited by their available forage supply-termed resource or food-
limited. The Park Service contends that ungulate populations will self-
regulate without overgrazing the range. This means that wolves and 
other predators only kill animals slated by nature to die from other 
causes and thus, predation has no effect on bison or elk numbers. In 
the debate over reintroducing wolves, the Park Service has denied that 
wolves are needed to control elk or bison populations in Yellowstone 
Park. Moreover in the current effort to remove wolves from the 
Endangered Species List, the Park Service and the U.S. Fish and 
Wildlife Service deny that wolves have had or are having any major 
impact on ungulate populations anywhere in the West, including 
Yellowstone. Thus, if you think predators limit ungulate numbers, then 
by definition, you do not believe in ``natural regulation.''
    Under ``natural regulation'', the Park Service claims that 
thousands of bison and elk have always inhabited Yellowstone. The Park 
Service also contends that present conditions in Yellowstone are 
similar to those in the past. Now if this was true, then early 
explorers should have found Yellowstone teeming with wildlife, and the 
range should have been as overgrazed in the past as it is today. 
Historical data, however, paint an entirely different picture.
    As part of my research, I have conducted the only systematic, 
continuous-time analysis of first-person journal accounts of 
Yellowstone exploration. Between 1835 and 1876, 20 different 
expeditions spent a total of 765 days in the Yellowstone ecosystem on 
foot or horseback, but they reported seeing bison only three times, 
none of which were in Yellowstone Park itself. Today there are over 
4,000 bison in the park, as well as an estimated 100,000 elk in the 
ecosystem. Yet those same explorers reported seeing elk only once every 
18 days and their journals contain 45 references to a lack of game or 
shortage of food. In addition, none of the early explorers reported 
seeing or killing a single wolf--another indication that ungulates were 
rare and that present conditions are entirely outside the range of 
historical variability. Similarly, archeological data indicate that 
there are more bison and elk in Yellowstone today then at any point in 
the last 10,000 years.
Why are bison leaving Yellowstone Park?
    According to the Park Service, bison that leave the park today are 
simply following historic migration routes down the Madison River to 
the west and the Yellowstone River Valley to the north. Interestingly, 
however, that is not what the Park Service said in 1973 when the agency 
formulated its ``natural regulation'' program. Instead, after reviewing 
the historical evidence, the Park Service concluded that bison had not 
historically left Yellowstone Park to the west or north--I refer the 
Subcommittee to Figure 11 in the Park Service's Scientific Monograph on 
``The Bison of Yellowstone National Park''--see Attachment A. No new, 
first-person historical journals have been discovered since the Park 
Service conducted its original analysis. In early documents, the Park 
Service also stated that Yellowstone's bison population would 
``naturally regulate'' at 1,000 to 2,000 animals. And as we all know, 
that has not proven to be the case.
    The Park Service has since suggested that the reason the bison 
population has grown beyond the numbers the agency originally predicted 
was because park roads have been groomed to facilitate use by over-the-
snow vehicles during winter. It has been hypothesized that use of snow-
packed roads reduced the energetic cost of moving through deep snow and 
opened new areas to bison foraging during winter, which in turn, 
allowed bison numbers to increase. Recent research, however, has shown 
that hypothesis to be false and the National Academy of Sciences has 
concluded that grooming park roads has had nothing to do with the 
increase of bison above earlier predictions.
    As bison numbers have grown, the animals have steadily overgrazed 
the range. It should come as no surprise then that bison are simply 
leaving Yellowstone because the animals are looking for something to 
eat. The Park Service has admitted that bison are at what is termed 
``ecological carrying capacity.'' By definition this means the animals 
are short of food and that grazing has altered the park's vegetation. 
As explained in a recent book, ``Yellowstone's Destabilized Ecosystem'' 
published by Oxford University Press, Yellowstone is seriously 
overgrazed and ``natural regulation'' is a failed management 
philosophy.
    My own research has shown that Yellowstone contains some of the 
worst overgrazed riparian areas in the West. Early photographs show 
that historically Yellowstone's aspen and willow communities were 
ungrazed. Based on 120 repeat photosets that I have made, dating to as 
early as 1871, tall willows and aspen have declined by more than 95%, 
since Yellowstone National Park was established, due to excessive 
ungulate browsing by unnatural concentrations of elk and bison. Not 
only has Yellowstone's bison population not self-regulated, as 
originally predicted by the Park Service, but no ungulate population 
anywhere in the world has been shown to self-regulate without first 
causing extensive resource damage.
    Instead, the natural state of the Yellowstone ecosystem included 
native hunters, who kept bison and other ungulate populations at very 
low levels, and thus maintained biodiversity. Native people, not 
wolves, were the system's keystone predator. It was not until native 
populations were decimated by European-introduced diseases and the 
survivors banished from Yellowstone that bison and elk populations 
irrupted to unnatural levels. It is important to remember that after 
the Nez Perce incident in 1877, Yellowstone's second superintendent had 
the park's original inhabitants forcefully removed and then created the 
myth that native people never lived in the park--all in the name of 
promoting tourism. Unfortunately, the Park Service has done nothing in 
the last 90 years to correct that situation.
    So what then is the solution to the bison over-population problem? 
I suggest that Congress and the Park Service revisit the Treaties of 
1851 and 1868, which predate the establishment of Yellowstone National 
Park, and under which various tribes already claim hunting rights in 
Yellowstone. Thus, one way to reduce overgrazing and to keep bison from 
leaving the park would be to honor the United States' previous 
commitment to Yellowstone's original owners and allow them to hunt in 
the park. After all, aboriginal hunting has been a natural ecosystem 
process for more than 12,000 years and as such is in keeping with the 
Park Organic Art and subsequent regulations to maintain natural 
conditions. For how this might be accomplished, I suggest we look to 
our northern neighbors.
    Parks Canada has the most stringent environmental protection 
statutes of any Park Service in the world for they added an amendment 
to their Organic Act which says that ecological integrity shall be 
given first priority in all management decisions--shall, unlike will or 
may, mandates compliance. So based on extensive archival and ecological 
research, including my Parks Canada publication on ``Long-term 
Ecosystem States and Processes in the Central Canadian Rockies,'' Parks 
Canada has developed ecological integrity standards that include both 
native hunting and native burning. First Nations already are allowed to 
hunt in various Canadian National Parks and under the bison restoration 
program that is being planned for Banff National Park, First Nations 
will be allowed to hunt bison in the park to maintain ecological 
integrity. Native hunting will be used to prevent bison from leaving 
the park, as well as to prevent overgrazing. Parks Canada is also 
working on a directive to allow First Nations to hunt elk and other 
animals in national parks to prevent resource damage from unnaturally 
high ungulate populations. Again, we must remember that parks with 
native hunting are natural, while parks without native hunting, like 
Yellowstone, are entirely unnatural and totally outside the range of 
historical variability.
Wouldn't giving bison additional land outside Yellowstone solve the 
        problem?
    Unfortunately, inadequate land has never been the problem. Instead, 
the present situation is a direct result of ``natural regulation'' 
management under which the Park Service assumes that bison will self-
regulate, and that predation, including that by native people, is 
unimportant in limiting ungulate numbers. No matter where the line is 
drawn, under ``natural regulation'' bison will continue to increase 
until they are forced by overgrazing and starvation to again cross that 
line. In fact, giving the bison more land will only make the situation 
worse.
    For the sake of argument say that bison are given all the land west 
of Yellowstone Park in the Madison drainage from the Continental Divide 
down to Quake Lake. While to the north, bison are given all the land 
along the Yellowstone River down to Yankee Jim Canyon. Would that not 
solve the bison problem? It might for a few years but during some 
future winter, instead of 5,000 bison coming out of the park, we would 
have 10,000 or 15,000 bison heading for Ennis, Livingston, and Helena--
bison that would still be infected with brucellosis. This would mean 
killing even larger numbers of bison or never ending calls for 
additional land.
    Moreover, this option has already been tried and has been a dismal 
failure. In 1932, land was added to Yellowstone Park in an attempt to 
solve the elk over-population problem. This is called the Boundary Line 
Addition, or BLA, and is now one of the most overgrazed areas in the 
park. It did not work then, and it will not work now. It is also likely 
that bison will start summering on any new range, as has happened in 
other bison population build-ups. After all, bison once summered on the 
northern Great Plains, so there is no biological reason for them to 
move back into Yellowstone. Ecologically, it would be much better and 
more natural to simply let Native Americans hunt bison in Yellowstone 
National Park.
Is there a solution to the brucellosis issue?
    First, it is important to note that bison in Yellowstone Park are 
heavily infected, while the elk in the northern part of the park are 
not. That is to say, the disease can be maintained in free-ranging 
bison but apparently not in free-ranging elk. This is why elk migrating 
north of the park are not a problem. Second, there is a separate bison 
herd south of the park in Jackson Hole, which also is heavily infected 
with brucellosis. In addition, elk on the one federal and 22 state 
feedgrounds in northwest Wyoming are infected with brucellosis. So we 
have two infected bison herds and one larger infected elk population, 
but only where elk are artificially fed during winter south of the 
park--some of those elk, though, do summer in Yellowstone.
    Based on the available scientific literature, the only proven way 
to eliminate brucellosis from an ungulate population is test and 
slaughter. It must be remembered that the elimination of brucellosis 
from the United States is national policy. Thus, the only known way to 
comply with this national directive is test and slaughter. In fact, the 
State of Wyoming is now running an experimental test and slaughter 
program on one of its elk feedgrounds because previous attempts at 
vaccinating elk have not eliminated the disease. In the coming years, 
Wyoming plans to extend its test and slaughter program to two 
additional elk feedgrounds. Test and slaughter have also been 
successfully used to eliminate brucellosis from bison in various other 
national and state parks, including Elk Island in Alberta and Custer in 
South Dakota. Test and slaughter were also used to eliminate 
brucellosis from the National Bison Range in Montana.
    If test and slaughter had been instituted in Yellowstone 20 years 
ago, we now most likely would have disease-free bison and elk herds--
and the problem would be solved. Instead, the problem has gotten worse, 
while millions of tax dollars have been wasted. I suggest it is time to 
stop squandering the public's money and solve the problem. The solution 
has been known for many years, only the will has been lacking.
    In closing, I thank the Chairman and Subcommittee for your time and 
consideration.
    Attachment A--Figure 11 from Meagher, M.M. 1973. The bison of 
Yellowstone National Park. National Park Service Scientific Monograph 
Series Number One. 161 pp.
    Attachment B--Kay, C. E. 1998. Ar ecosystems structured from the 
top-down or the bottom-up: A new look at an old debate. Wildlife 
Society Bulletin 26:484-498.
    NOTE: Attachments to Dr. Kay's statement have been retained in the 
Committee's official files.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir. Let me just ask some quick 
questions, and I think they are going to call us for a vote, 
and we would like to get some information. Let me ask Mr. 
Osher, does the Buffalo Field Campaign support--because that 
has been part of the discussion--to support the continuation of 
the management plan that exists now? Let us say if there was to 
be some progress--I know we are still caught or trapped in 
phase one--but some progress toward phase two, phase three, or 
do you feel that that plan just needs to be abandoned and deal 
with something else?
    Mr. Osher. No. We do not support the continuation of the 
current interagency plan. We believe that the plan is not the 
product of sound science. That it was created as an adaptive 
management plan but the agencies have not been able to adapt 
the plan based on the new knowledge and information, including 
specifically genetic information that suggests that there are 
the three distinct subpopulations of bison in the Park. It is 
not in the management scenario to manage to make sure those 
populations remain viable. We need a new plan.
    Mr. Grijalva. Thank you. Mr. Pacelle, I grew up until I was 
about five, six, seven, I grew upon a cattle ranch in southern 
Arizona, and although my memory is limited but I remember my 
father's discussions about the three most important things. 
First for the cattle was control of the disease, and the other 
was of equal--if not more important value--is the grazing space 
that cattle need and then control of predators was the other 
one. It brings back the point you made that maybe the concern 
over the disease is secondary to the space required for grazing 
for cattle. Could you expand on that if you would?
    Mr. Pacelle. Well let me just say on the matter of disease 
I mean we do not like to see any animal contract a disease. I 
mean this one the main impact is on the pregnancy for the 
animal but you know the test is basically measuring antibodies. 
It is measuring exposure, and if you or I had a measles you 
know at some point in our life, we would have some of the 
antibodies.
    I think the point that I was making about the spacing and 
that others have made is that we are talking about an ecosystem 
with relatively few cattle. It is very cold you know. 
Yellowstone is at a high elevation. They do not over-winter 
cattle there for the most part. So we really have an ideal set 
of circumstances to allow bison to range freely, at least to 
some limit. Most of the cattle herds are not even within 45 
miles of the Yellowstone border when the bison leave the Park, 
and they just go you know to small areas outside of the Park.
    So I think that the space management issue is crucial. I 
understand the Governor's concern about brucellosis-free 
status. I think we really need to ask USDA some hard questions 
about why it is so rigid in its definitions and why there 
cannot be you know a subregion there that they select.
    Mr. Grijalva. I appreciate that. Mr. Hagenbarth, let me 
pose a what if. In your opinion, could the Royal Teton Ranch 
move to a steer only operation? Would such a transition be 
difficult, expensive? That is part of the question. But the 
other part of the question, would not moving cows off the ranch 
solve the problem?
    Mr. Hagenbarth. To solve the problem you have to solve the 
disease. You could use steers because they are not susceptible 
to brucellosis. Whether or not you could run them there 
economically is another question because on running steers are 
different than running cows because you need a lot more 
infrastructure to keep them there, and if you run steers in an 
open country--like we did in our Forest Service allotment 
although we had spayed heifers--it cost us six-tenths of a 
pound a day. Over a 100-day grazing period, it is 60 bucks a 
head.
    But the real issue is disease. Disease is what is causing 
the bison, which causes us to manage the bison the way we are. 
But it is the elk that are causing the problems. The elk are 
all over the greater Yellowstone area.
    There is 20 million acres there, 20 million acres, and 
those acres are open, and if we destroy the infrastructure of 
the ranching community and they sell out--and I will guarantee 
you those folks are just waiting with the money. You will 
destroy that 20 million acres. We cannot make that sacrifice. 
We have to lift up our eyes, open our ears, get a sharper 
vision to see what the real issue is.
    Mr. Grijalva. Thank you.
    Mr. Pacelle. Can I just say something with the elk very 
briefly, Mr. Chairman? You know I agree with Mr. Hagenbarth to 
a degree. I mean we are not talking about bison as the only 
theoretical transmitters of this disease. There are more than 
15,000 elk. Even if they have a lower incidence rate the 
absolute numbers of infected animals may be comparable, and why 
are we allowing this no movement policy for bison yet elk range 
throughout the ecosystem?
    And I think the reason is that there is a stronger 
constituency for the elk. There are hunting guides and 
outfitters and lots of Montana hunters who want to have the elk 
there.
    Mr. Grijalva. My time is up. Mr. Bishop.
    Mr. Bishop. Yes, I will try and be quick and let you have 
another shot at these guys again. I appreciate you all being 
here, and I appreciate your testimony.
    Mr. Hagenbarth, you established a unique picture. That is 
something that we do not all visualize sometimes, and I assume 
you are very serious when you say that if indeed the ranching 
industry fails in this particular area it will sell out not to 
other kinds of open space but it will sell out to housing 
developments, it will sell out to cabins and those types of 
situations. So when you talk about how you actually are the 
last link of an open space in this particular area, I think it 
is a compelling argument that we do not hear that often.
    Dr. Kay, can I ask you a couple of simple questions that I 
tried to get from the Forest Service? Is there in your studies 
a historic high or historic size of the buffalo herd that 
traditionally was in the Park and Park area? Like pre 1900s.
    Mr. Kay. Well there are early estimates of two to 300 bison 
when the Park was first established on it but I mean there is 
more bison in there now than there has ever been, and this is 
all after the natural regulation thing because up until 1968 
the Park Service was concerned about overgrazing. They 
controlled the numbers of bison in the Park.
    Mr. Bishop. Let me quit being cute with these questions.
    Mr. Kay. OK.
    Mr. Bishop. I think I read in some other stuff you had done 
in other places that in the 1920s there were about 400, 500 
head of bison there. In the 1800s there was as many as 600 
head. But certainly you know when the Director said there 
should be 7,500--and I saw the Governor start to gag over 
there----
    Mr. Kay. Yes.
    Mr. Bishop.--that is 10 times higher than I think we have 
ever talked about the number of bison that this particular 
piece of property can adequately maintain.
    Mr. Kay. That is certainly true. I have not actually ever 
seen that number. In this book here, when you calculate out 
when the reproductive rate falls to zero, it is about 6,000 
bison. OK. But what happens and there is some physiological 
data on the condition of bison, they can take this by testing 
the urine for protein catabolism where they start using their 
muscle mass and everything, when it gets about 3,000 bison the 
bison are in bad shape, and they start leaving the Park. OK.
    Mr. Bishop. In the Canadian Parks when they developed a 
bison reintroduction plan----
    Mr. Kay. Yes. They are still working on that. They have 
not----
    Mr. Bishop. If there were like two or three things we could 
take from their experience that we could probably transpose and 
use in Yellowstone that would be effective, what would you say 
those would be?
    Mr. Kay. Well the main thing is their different views on 
what structured the ecosystem. What were the important players 
in the ecosystem, and it turns out to be it was native hunting 
and native burning. It turns out lightning fires are basically 
unnatural. All the burning in this country for the last 12,000 
years has been native burning. Depending upon which ecosystems 
you were, it was anywhere from 270 times to 35,000 times more 
frequent than known lightning fire ignition rates.
    So Parks Canada has looked at these various data sets. They 
have talked to anthropologists and archaeologists, and because 
they have a stronger native presence up there in that country, 
I mean they call them First Nations that is the politically 
correct thing to do when you talk about native people in 
Canada. You know they are a lot more open to the ideas of you 
know letting native people hunt in the park to control the 
animal numbers.
    Mr. Bishop. They have more active management style of 
management plan up there in Canada?
    Mr. Kay. That is right. What they have done is develop 
ecological integrity standards. Unfortunately like natural 
regulation, I mean how do you ever hold the government 
bureaucrats accountable? There is no standards you know it goes 
to this many bison or that many bison or this many elk, and 
they just say it is all natural.
    So what they have done is based on the archeological 
record, the first person historical journals, and all the other 
data sets they can find, pollen records and everything else, 
come up with we in this country would call a range of 
historical variability, and you also have to understand what 
are the main processes that drive the ecosystem.
    Mr. Bishop. I am sorry.
    Mr. Kay. That is fine.
    Mr. Bishop. No. I appreciate----
    Mr. Kay. It is an entirely different approach than down 
here in the United States, and unlike our Park Service that has 
never asked me to take them on a field trip in Yellowstone, the 
chief scientist from Parks Canada has come down and gone with 
two Yellowstone field trips with me, and of course he also goes 
out and looks at the Yellowstone people. But they are not doing 
natural regulation in their parks. OK.
    Mr. Bishop. I appreciate that. I appreciate also your 
comments on the boundary line addition of 1932 and the impact 
that that actually had. I think that historical input is 
significant. Did you do any study with the brucellosis 
eradication program starting in 1934?
    Mr. Kay. Well I have not done any studies. I mean there was 
some part of my written testimony which I did not have time to 
get to had to do with the only known way of eradicating 
brucellosis, and that is test and slaughter, and that as been 
accomplished in various state and national parks.
    Mr. Bishop. Right.
    Mr. Kay. To remove brucellosis from bison. And previous 
witnesses have already alluded to that fact. Everybody is sort 
of looking for a silver bullet which is this vaccine that has 
not been developed.
    Mr. Bishop. That was probably the wrong term to use when 
you are talking about this issue. I have about 10 seconds left, 
and I knew we have a few that is coming up. Let me yield back 
but I appreciate the panel, and I appreciate your responses, 
and I am sorry we did not have more time to ask more questions.
    Mr. Grijalva. Thank you very much, Mr. Bishop. With that, I 
would just like to inform the panelists there were some follow-
up questions, and we will be submitting those in writing to 
you, and appreciate your responses so they can be part of the 
record, and be distributed to the other members of the 
Committee as well.
    Last closing comment. There is no doubt that there are more 
bison in the Park now because it is a protected area, and as a 
consequence of that there are more bison, and if you put it in 
the historical context the bison used to roam from Canada to 
Mexico, I think that is not a good comparison. Anyway, thank 
you very much. The meeting is adjourned.
    [Whereupon, at 12:23 p.m., the Subcommittee was adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
